APPENDIX

APPENDIX TO
PETITION FOR A WRIT OF CERTIORARI
TABLE OF CONTENTS
Opinion of the United States Court of Appeals
for the Second Circuit (Mar. 17, 2021) ......................1a
Opinion and Order Dismissing Case of the
United States District Court for the Southern
District of New York (July 26, 2019) ......................49a
Opinion and Order Granting in Part and
Denying in Part Defendants’ Motion to
Dismiss of the United States District Court for
the Southern District of New York (Aug. 18,
2017) .........................................................................67a
Opinion and Order Granting in Part and
Denying in Part Defendants’ Motions to
Dismiss of the United States District Court for
the Southern District of New York (Oct. 4,
2018) .......................................................................112a
Order of the United States Court of Appeals for
the Second Circuit Denying Petition for Panel
Rehearing, Or, in the Alternative, for
Rehearing En Banc (May 6, 2021) ........................153a

1a

United States Court of Appeals
For the Second Circuit
August Term 2020
Argued: September 11, 2020
Decided: March 17, 2021
No. 19-2719-cv

FUND LIQUIDATION HOLDINGS LLC, AS
ASSIGNEE AND SUCCESSOR-IN-INTEREST TO
FRONTPOINT ASIAN EVENT DRIVEN FUND,
L.P., ON BEHALF OF ITSELF AND ALL OTHERS
SIMILARLY SITUATED, SONTERRA CAPITAL
MASTER FUND, LTD.,
Plaintiffs-Appellants,
FRONTPOINT ASIAN EVENT DRIVEN FUND,
LTD., FRONTPOINT ASIAN EVENT DRIVEN
FUND, L.P.,
Plaintiffs,
v.
BANK OF AMERICA CORPORATION, BANK OF
AMERICA, N.A, ROYAL BANK OF SCOTLAND
PLC, THE ROYAL BANK OF SCOTLAND GROUP
PLC, RBS SECURITIES JAPAN LIMITED, UBS
AG, UBS SECURITIES JAPAN CO., LTD., ING
GROEP N.V., ING BANK N.V., BNP PARIBAS,
S.A., BNP PARIBAS NORTH AMERICA, INC.,

2a
BNP PARIBAS SECURITIES CORP., BNP
PARIBAS PRIME BROKERAGE, INC., OVERSEACHINESE BANKING CORPORATION LTD.,
BARCLAYS PLC, BARCLAYS BANK PLC,
BARCLAYS CAPITAL INC., DEUTSCHE BANK
AG, CREDIT AGRICOLE CORPORATE AND
INVESTMENT BANK, CREDIT AGRICOLE S.A.,
CREDIT SUISSE GROUP AG, CREDIT SUISSE
AG, STANDARD CHARTERED BANK,
STANDARD CHARTERED PLC, DBS BANK
LTD., DBS GROUP HOLDINGS LTD., DBS
VICKERS SECURITIES (USA) INC., UNITED
OVERSEAS BANK LIMITED, AUSTRALIA AND
NEW ZEALAND BANKING GROUP, LTD.,
BANK OF TOKYO-MISUBISHI UFJ, LTD., THE
HONGKONG AND SHANGHAI BANKING
CORPORATION LIMITED, HSBC BANK USA,
N.A., HSBC HOLDINGS PLC, HSBC NORTH
AMERICA HOLDINGS INC., HSBC USA INC.,
MACQUARIE BANK LTD., MACQUARIE GROUP
LTD., COMMERZBANK AG, ING CAPITAL
MARKETS LLC, CREDIT SUISSE
INTERNATIONAL, ANZ SECURITIES, INC.,
UOB GLOBAL CAPITAL, LLC,
Defendants-Appellees,
CITIBANK, N.A., CITIGROUP INC., JPMORGAN
CHASE & CO., JP MORGAN CHASE BANK,
N.A., JOHN DOES, NOS. 1–50,
Defendants.*

The Clerk of Court is respectfully directed to amend the official
case caption as set forth above.
*

3a
Appeal from the United States District Court for
the Southern District of New York
No. 16-cv-5263, Alvin K. Hellerstein, Judge.
Before:

SULLIVAN, PARK, and NARDINI,
Circuit Judges.

In 2016, two Cayman Islands investment funds
filed a class action complaint against numerous banks,
alleging that the banks had conspired to manipulate
certain benchmark interest rates. It was not until a
year later that the banks discovered that the two
plaintiff funds had been dissolved years earlier, and
that the case was actually being prosecuted by a
separate entity, Fund Liquidation Holdings LLC,
which maintains that it was assigned the dissolved
entities’ claims. The district court (Hellerstein, J.)
dismissed the case with prejudice for lack of subjectmatter jurisdiction, reasoning that, because the action
was initiated by non-existent parties, the case was a
legal nullity and so could not be salvaged through
Federal Rule of Civil Procedure 17.
On appeal, we are primarily tasked with
deciding two issues: (i) whether the dissolved entities
possessed Article III standing when the case was
initiated, and, if not, (ii) whether Fund Liquidation is
nevertheless able to join the action through Rule 17.
We conclude that the dissolved funds lacked standing,
but that Article III was nonetheless satisfied because
Fund Liquidation, the real party in interest, has had
standing at all relevant times and may step into the
dissolved entities’ shoes. As a result, we VACATE the

4a
district court’s judgment, and REMAND the case for
additional proceedings.
VACATED AND REMANDED.
ERIC F. CITRON (Vincent Briganti,
Margaret MacLean, Lowey Dannenberg,
P.C., White Plains, NY, on the brief),
Goldstein & Russell, P.C., Bethesda, MD,
for
Plaintiffs-Appellants
Fund
Liquidation Holdings LLC and Sonterra
Capital Master Fund, Ltd.
JOEL KURTZBERG (Herbert S. Washer,
Elai Katz, Jason M. Hall, Lauren
Perlgut, Adam S. Mintz, on the brief),
Cahill Gordon & Reindel LLP, New York,
NY, for Defendants-Appellees Credit
Suisse Group AG, Credit Suisse AG, and
Credit Suisse International.
Arthur J. Burke, Paul S. Mishkin, Adam
G. Mehes, Davis Polk & Wardwell LLP,
New York, NY, for Defendants-Appellees
Bank of America Corporation and Bank
of America, N.A.
Penny Shane, Corey Omer, Sullivan &
Cromwell LLP, New York, NY, for
Defendants-Appellees Australia and New
Zealand Banking Group Limited and
ANZ Securities, Inc.
Christopher M. Viapiano, Elizabeth A.
Cassady, Sullivan & Cromwell LLP,
Washington, DC, for Defendant-Appellee
The Bank of Tokyo-Mitsubishi UFJ, Ltd.,
n/k/a MUFG Bank, Ltd.

5a
Jonathan D. Schiller, Christopher
Emmanuel Duffy, Leigh M. Nathanson,
Boies Schiller Flexner LLP, New York,
NY, for Defendants-Appellees Barclays
PLC, Barclays Bank PLC, and Barclays
Capital Inc.
Jayant W. Tambe, Stephen J. Obie, Kelly
A. Carrero, Jones Day, New York, NY, for
Defendants-Appellees BNP Paribas, S.A.,
BNP Paribas North America, Inc., BNP
Paribas Securities Corp., and BNP
Paribas Prime Brokerage, Inc.
David R. Gelfand, Mark D. Villaverde,
Milbank LLP, New York, NY, for
Defendant-Appellee Commerzbank AG.
Andrew Hammon, Kimberly Anne
Havlin, White & Case LLP, New York,
NY; Darryl S. Lew, White & Case LLP,
Washington, DC, for DefendantsAppellees Crédit Agricole Corporate and
Investment Bank and Crédit Agricole
S.A.
Erica S. Weisgerber, Debevoise &
Plimpton LLP, New York, NY, for
Defendants-Appellees DBS Bank Ltd.,
DBS Group Holdings Ltd., and DBS
Vickers Securities (USA) Inc.
Aidan Synnott, Hallie S. Goldblatt, Paul,
Weiss, Rifkind, Wharton & Garrison
LLP, New York, NY, for DefendantAppellee Deutsche Bank AG.

6a
Christopher M. Paparella, Steptoe &
Johnson LLP, New York, NY, for
Defendants-Appellees Macquarie Bank
Ltd. and Macquarie Group Ltd.
C. Fairley Spillman, Pratik A. Shah,
Akin Gump Strauss Hauer & Feld LLP,
Washington, DC, for Defendant-Appellee
Oversea-Chinese Banking Corporation
Limited.
David S. Lesser, Jamie S. Dycus, Wilmer
Cutler Pickering Hale and Dorr LLP,
New York, NY, for Defendants-Appellees
The Royal Bank of Scotland plc, The
Royal Bank of Scotland Group plc, and
RBS Securities Japan Limited.
Marc J. Gottridge, Lisa J. Fried,
Benjamin A. Fleming, Hogan Lovells US
LLP, New York, NY, for DefendantsAppellees Standard Chartered Bank and
Standard Chartered plc.
Dale C. Christensen, Jr., Noah Czarny,
Seward & Kissel LLP, New York, NY, for
Defendants-Appellees United Overseas
Bank Limited and UOB Global Capital,
LLC.
Nowell D. Bamberger, Cleary Gottlieb
Steen & Hamilton LLP, Washington, DC;
Charity E. Lee, Cleary Gottlieb Steen &
Hamilton LLP, New York, NY, for
Defendants-Appellees The Hongkong and
Shanghai Banking Corporation Limited,
HSBC Bank USA, N.A., HSBC Holdings

7a
plc, HSBC North America Holdings Inc.,
and HSBC USA Inc.
Mark A. Kirsch, Eric J. Stock, Jefferson
E. Bell, Gibson, Dunn & Crutcher LLP,
New York, NY, for Defendants-Appellees
UBS AG and UBS Securities Japan Co.,
Ltd.
Amanda F. Davidoff, Sullivan &
Cromwell LLP, Washington, DC, for
Defendants-Appellees ING Groep N.V.,
ING Bank N.V., and ING Capital
Markets LLC.
RICHARD J. SULLIVAN, Circuit Judge:
In 2016, two Cayman Islands investment funds
filed a class action complaint against numerous banks
(the “Banks”), alleging that the Banks had conspired
to manipulate certain Singapore-based benchmark
interest rates. It was not until a year later that the
Banks discovered that the two plaintiff funds had been
dissolved years earlier, and that the case was actually
being prosecuted by a separate entity, Fund
Liquidation Holdings LLC, which asserts that it was
assigned the dissolved entities’ claims. Following that
revelation, the district court (Hellerstein, J.)
dismissed the case with prejudice for lack of subjectmatter jurisdiction, reasoning that, because the action
was initiated by non-existent parties, the case was a
legal nullity and so could not be salvaged through
Federal Rule of Civil Procedure 17.
On appeal, we are primarily tasked with
deciding two issues: (i) whether the dissolved entities
possessed Article III standing when the case was

8a
initiated, and, if not, (ii) whether Fund Liquidation is
nevertheless able to join the action through Rule 17.
We conclude that, although the dissolved funds lacked
standing at the time the case was commenced, Article
III was nonetheless satisfied because Fund
Liquidation, the real party in interest, has had
standing at all relevant times and may step into the
dissolved entities’ shoes without initiating a new
action from scratch. As a result, we VACATE the
district court’s judgment, and REMAND the case for
further proceedings.
I.

Background

The global financial system relies on a series of
floating benchmark interest rates, many of which
reflect the average cost that a bank incurs when
borrowing money from one of its peers.1 The most
well-known example is the London Interbank Offered
Rate, more commonly referred to as “LIBOR.” In
recent years, many of the world’s largest financial
institutions have been accused of manipulating
several of these benchmarks in their favor. The
implications of such manipulation can be staggering
as these rates are used as reference points in countless
financial instruments across the world and affect
transactions collectively worth trillions of dollars.
This case concerns an alleged conspiracy by the
Banks and others to manipulate two such benchmark
rates: the Singapore Interbank Offered Rate (referred

Because this appeal arrives before us at the pleading stage, we
draw these facts from Fund Liquidation’s complaint and accept
them to be true. See Iowa Pub. Emps.’ Ret. Sys. v. MF Glob., Ltd.,
620 F.3d 137, 139 n.1 (2d Cir. 2010).
1

9a
to as “SIBOR”) and the Singapore Swap Offered Rate
(referred to as “SOR”).2 The two rates are calculated
by a trade group, the Association of Banks in
Singapore, which is composed of various banks
(including some of the defendant banks in this case).
Each day, an agent of that association calculates the
two rates based, in part, on interest rate quotes
submitted by a panel of banks that, again, include
several of the defendants in this case (the “Panel”).
Between 2007 and 2011, the Banks allegedly worked
together to manipulate those two benchmark rates so
that they would shift in directions that favored the
Banks’ financial positions. “The [alleged] effect of [the
Banks’] conspiratorial price-fixing was to necessarily
reduce the amount of interest paid to all holders of
SIBOR- and SOR-based financial instruments.” Fund
Liquidation Br. at 8. Eventually, this conspiracy was
uncovered in 2013 through an investigation
spearheaded by the Monetary Authority of Singapore.
Three years later, on July 5, 2016, an initial
class action complaint was filed against the Banks
(and others) in the names of FrontPoint Asian Event
Driven Fund, L.P. and Sonterra Capital Master Fund,
Ltd. (together, the “Dissolved Funds”), two Cayman
Islands investment funds that claimed to have held
financial instruments that relied on the manipulated
benchmark rates. Two critical pieces of information
were omitted from this initial complaint. First, the
complaint failed to disclose that the Dissolved Funds

Technically, Fund Liquidation alleges that the Banks
manipulated three rates, the SOR benchmark and two SIBOR
benchmarks, one denominated in U.S. dollars and another
denominated in Singapore dollars.
2

10a
had apparently assigned (or, at least, attempted to
assign) the rights to their claims to Fund Liquidation,
and that it was really Fund Liquidation that was
pulling the strings behind the scenes. Second, and
perhaps more importantly, the pleadings failed to
reflect that the Dissolved Funds were no longer in
existence when the case was initiated – FrontPoint
had been dissolved nearly five years earlier, in
November 2011, and Sonterra had been dissolved
shortly thereafter, in December 2012.
On October 31, 2016, a first amended complaint
was filed, which added additional claims under the
Sherman Act, the Racketeer Influenced and Corrupt
Organizations Act (“RICO”), and common law. As
before, this complaint made no mention of Fund
Liquidation and referred to the Dissolved Funds in the
present tense as if they were still in existence. See J.
App’x at 137 (“FrontPoint . . . is an investment fund”
(emphasis added)); id. at 138 (“Sonterra . . . is an
investment fund” (emphasis added)). About one year
later, the district court dismissed most of the asserted
claims, finding that the court lacked personal
jurisdiction over the subset of defendant banks that
were foreign entities, that Sonterra failed to
demonstrate that it would be an efficient enforcer of
the antitrust laws, and that the plaintiffs had failed to
plead plausible antitrust, RICO, or common law
claims. See generally FrontPoint Asian Event Driven
Fund, L.P. v. Citibank, N.A., No. 16-cv-5263 (AKH),
2017 WL 3600425 (S.D.N.Y. Aug. 18, 2017). The
district court refused, however, to dismiss
FrontPoint’s antitrust claims against the defendants
that were members of the Panel, since those
defendants submitted the allegedly fraudulent

11a
interest rate data directly to the Association of Banks
in Singapore. Id. at *11. In addition, the district court
permitted the plaintiffs to file an amended pleading to
correct the shortcomings in the first amended
complaint. See id. at *17.
So, on September 18, 2017, a second amended
complaint was filed.3 It was only in this pleading that,
for the first time, the plaintiffs clarified that the
Dissolved Funds were no longer in operation. J. App’x
at 312 (“FrontPoint . . . was an investment fund”
(emphasis added)); id. at 313 (“Sonterra . . . was an
investment fund” (emphasis added)). The Banks
responded by filing a new motion to dismiss, which
added a fresh set of grounds for dismissal, including
the contention that the Dissolved Funds lacked
capacity to sue in light of their dissolution. It was not
until briefing and oral argument that the plaintiffs
eventually explained that the Dissolved Funds had
assigned their claims to Fund Liquidation, and that it
was Fund Liquidation which was, and had always
been, the real plaintiff behind the case.
Fund
Liquidation then requested to substitute into the
action under Federal Rule of Civil Procedure 17(a)(3)
as the real party in interest and asked that it be
allowed to continue litigating FrontPoint’s and
Sonterra’s claims in its own name.
Around this time, some of the defendants (who
have not appealed) decided to settle with Fund
Liquidation.
Those parties eventually executed
binding term sheets and notified the district court.

A corrected copy of the second amended complaint was filed one
month later.
3

12a
On October 4, 2018, within weeks of those
agreements being signed, the district court dismissed
with prejudice the RICO claims and the antitrust
claims asserted against certain defendants, but again
permitted the plaintiffs to proceed on the common law
claims and antitrust claims brought against those
defendants who were members of the Panel. See
FrontPoint Asian Event Driven Fund, L.P. v. Citibank,
N.A., No. 16-cv-5263 (AKH), 2018 WL 4830087, at
*11–12 (S.D.N.Y. Oct. 4, 2018). The district court also
concluded that Fund Liquidation had received a full
assignment of rights from FrontPoint and, as a result,
granted leave for Fund Liquidation to submit a Third
Amended Complaint under Rule 17(a)(3) so that it
could join the action in its own name. See id. While
the district court found that Sonterra had also
assigned its claims to Fund Liquidation, it dismissed
Sonterra’s remaining claims (all of which were
antitrust claims) with prejudice, reasoning that,
because Sonterra had not transacted directly with any
of the defendants, it was not an efficient enforcer of the
antitrust laws. See id. at *6, *11–12.
A few weeks later, on October 26, 2018, Fund
Liquidation filed a third amended complaint, naming
as plaintiff “Fund Liquidation Holdings LLC, as
assignee and successor-in-interest to FrontPoint.”4
See J. App’x at 603. The substantive allegations in
this complaint were effectively identical to those in the

Sonterra’s omission from the caption was a result of the district
court’s prior order, which directed Fund Liquidation “to amend
the [case] caption . . . [to] reflect the rulings in th[e] [October
2018] opinion.” FrontPoint Asian Event Driven Fund, 2018 WL
4830087, at *12.
4

13a
second amended complaint, with the exception that
Fund Liquidation added additional facts concerning
the pre-suit assignment it received from FrontPoint.
The following month, the Banks moved to
dismiss the new complaint, arguing, among other
things, that Fund Liquidation could not substitute
into the action under Rule 17(a)(3) because the case
was a legal nullity from the outset – having been
initiated in the names of dissolved corporate entities –
and that, since the statute of limitations had now
lapsed, Fund Liquidation’s new complaint was
untimely. The Banks also argued that FrontPoint did
not adequately assign its antitrust claims to Fund
Liquidation.
While Fund Liquidation contested both
arguments on the merits, it indicated that it would
seek to moot the issues by filing a proposed fourth
amended complaint. In that proposed complaint,
Fund Liquidation sought to join two new class
representatives, Moon Capital Partners Master Fund,
Ltd. and Moon Capital Master Fund, Ltd. (together,
the “Moon Funds”), which had transacted directly with
the Banks and claimed to have been injured by the
same scheme. According to Fund Liquidation, the
Moon Funds would be ideal class representatives as
they were not open to the same arguments concerning
assignment and capacity that had thus far plagued
Fund Liquidation. Separately, Fund Liquidation also
sought preliminary approval of the settlement
agreements that it had signed with some of the
defendants.
On July 26, 2019, the district court adopted the
Banks’ nullity argument and dismissed the third

14a
amended complaint with prejudice on the grounds
that the court had lacked subject-matter jurisdiction
over the action from its outset, something, the district
court concluded, that could not be cured. According to
the district court: “[b]ecause [the Dissolved Funds]
lacked capacity to sue, there was no real ‘case or
controversy’ before the court and, consequently, no
subject-matter jurisdiction.”
Fund Liquidation
Holdings LLC v. Citibank, N.A., 399 F. Supp. 3d 94,
103 (S.D.N.Y. 2019). For similar reasons, the court
refused to approve the two settlement agreements
that Fund Liquidation had signed with several of the
defendants. Id. at 104. The district court also walked
back its prior determination and concluded that
FrontPoint had not effectively assigned its claims to
Fund Liquidation, meaning that even if Fund
Liquidation could join the case through Rule 17, it
would lack standing to assert FrontPoint’s claims. Id.
at 102–03. Lastly, the district court noted that even if
it did possess jurisdiction over the case, the Moon
Funds could not be named as class representatives as
their claims were not subject to equitable tolling and
so were untimely. Id. at 105.
This appeal followed.
II.

Appellate Jurisdiction

As an initial matter, we must decide whether
we have jurisdiction over Sonterra’s claims. The
Banks argue that we do not because, as they see it,
Fund Liquidation’s notice of appeal was effective only
as to FrontPoint’s claims. Specifically, the Banks
point out that the caption to the notice of appeal
identifies only one plaintiff, “Fund Liquidation
Holdings LLC, as assignee and successor-in-interest to

15a
FrontPoint,” and that the body of the notice states
simply that “Plaintiff” is appealing various orders. J.
App’x at 926. Taken together, the Banks say that the
notice of appeal failed to make clear that Fund
Liquidation was appealing the dismissal of Sonterra’s
claims, which the Banks argue merits dismissal of
that portion of the appeal.
Federal Rule of Appellate Procedure 3(c)
governs the contents of a notice of appeal. The Rule
requires that such notices do three things: (1) “specify
the party or parties taking the appeal by naming each
one in the caption or body of the notice”; (2) “designate
the judgment, order, or part thereof being appealed”;
and (3) “name the court to which the appeal is taken.”
Fed. R. App. P. 3(c)(1). “The requirement that a party
seeking to appeal be specified in the notice of appeal is
jurisdictional.” Gusler v. City of Long Beach, 700 F.3d
646, 648 (2d Cir. 2012). Even so, Rule 3 is clear that
an appeal should “not be dismissed for informality of
form or title of the notice of appeal” if the identities of
the parties seeking to appeal are nonetheless clear.
Fed. R. App. P. 3(c)(4); see also In re Motors
Liquidation Co., 943 F.3d 125, 130 (2d Cir. 2019)
(excusing a mistake in the notice of appeal because the
identities of the appellants were “sufficiently clear to
the parties and ascertainable to the court (with
effort)”); Gusler, 700 F.3d at 648–49 (focusing Rule 3
inquiry on whether “it is manifest from the notice as a
whole that the party wishes to appeal”).
Here, Fund Liquidation technically complied
with the letter of Rule 3. The notice of appeal
identified the only party taking the appeal (Fund
Liquidation), the orders that were the subject of the

16a
appeal (the order issued on July 26, 2019 and all other
orders that were adverse to Fund Liquidation), and
the court to which the appeal was being taken (the
Second Circuit). That is all that the text of Rule 3(c)
(1) requires of a notice of appeal to invoke our
jurisdiction.
But even if Fund Liquidation’s failure to
expressly identify Sonterra in its notice of appeal did
run afoul of Rule 3, that deficiency would be excusable
since it is sufficiently clear from the body of the notice
that Fund Liquidation intended to appeal the
dismissal of each of its claims against the Banks, not
just those claims that it allegedly received from
FrontPoint. For starters, the body of the notice gave
no indication that Fund Liquidation was appealing
only certain claims. To the contrary, the notice stated
that Fund Liquidation was appealing “all orders . . .
entered in the case that were adverse, either in whole
or in part, to [it].” J. App’x at 926 (emphasis added).
Given the “liberal[] constru[ction]” that we give to such
notices, Marrero Pichardo v. Ashcroft, 374 F.3d 46, 55
(2d Cir. 2004), the natural inference is that Fund
Liquidation intended to appeal the dismissal of each of
its claims. That is particularly true here given that it
was the district court, not Fund Liquidation, that
removed Sonterra from the case caption.
See
FrontPoint Asian Event Driven Fund, 2018 WL
4830087, at *12. Moreover, the notice of appeal
pointed specifically to the July 26, 2019 order, which
discussed Fund Liquidation’s argument that the case
was not a nullity precisely because of Sonterra’s
claims. Fund Liquidation Holdings, 399 F. Supp. 3d
at 104.

17a
Fund Liquidation’s notice of appeal therefore
not only complied with the text of Rule 3, but also put
the Banks on notice that Fund Liquidation intended to
appeal the dismissal of the claims originally held by
both FrontPoint and Sonterra. As a result, we have
appellate jurisdiction over all claims raised on appeal.
III.

Standard of Review

On appeal following a dismissal of a complaint
for either lack of subject-matter jurisdiction under
Federal Rule of Civil Procedure 12(b)(1) or failure to
state a claim under Rule 12(b)(6), we review the
district court’s decision de novo.
See Carter v.
HealthPort Techs., LLC, 822 F.3d 47, 56–57 (2d Cir.
2016) (subject-matter jurisdiction); Krys v. Pigott, 749
F.3d 117, 128 (2d Cir. 2014) (failure to state a claim).
As part of that review, we “accept[] as true all material
factual allegations of the complaint[] and draw[] all
reasonable inferences in favor of the plaintiff.” Carter,
822 F.3d at 56–57 (internal citations, quotation
marks, and alterations omitted); Krys, 749 F.3d at 128
(same).
Separately, we review denials of motions for
leave to amend, to substitute into an action under Rule
17(a), or to approve a class action settlement
agreement for abuse of discretion. See Klein ex rel.
Qlik Techs., Inc. v. Qlik Techs., Inc., 906 F.3d 215, 226
(2d Cir. 2018) (motion to substitute); Cent. States Se.
& Sw. Areas Health & Welfare Fund v. Merck-Medco
Care, L.L.C., 504 F.3d 229, 246 (2d Cir. 2007)
(approval of class action settlement); Kropelnicki v.
Siegel, 290 F.3d 118, 130 (2d Cir. 2002) (leave to
amend). But where, as here, such denials were based
on decisions of pure law, they are functionally

18a
reviewed de novo, as a decision premised on a legal
error is necessarily an abuse of discretion. See Klein,
906 F.3d at 226; Gelboim v. Bank of Am. Corp., 823
F.3d 759, 769 (2d Cir. 2016).
IV.

Discussion

This case requires us to engage in a two-step
inquiry. First, we must determine whether the
Dissolved Funds had Article III standing when the
case was initiated in their names. If so, then that
would seem to end the matter in Fund Liquidation’s
favor. See Advanced Magnetics, Inc. v. Bayfront
Partners, Inc., 106 F.3d 11, 20–21 (2d Cir. 1997)
(indicating that courts have the power to permit a real
party in interest to join an action under Federal Rule
of Civil Procedure 17 where the originally named
plaintiff had standing). But if the Dissolved Funds
lacked standing at that time, we must decide whether
Fund Liquidation can nevertheless substitute into the
action in their place.
A.

The Dissolved Funds Lacked Article III
Standing at the Case’s Initiation

The Banks argue that the Dissolved Funds
lacked standing when the original complaint was filed
because, by that time, the Dissolved Funds had
already (i) “disavowed any interest” in the case, having
assigned their claims to Fund Liquidation, Banks Br.
at 34, and (ii) been dissolved under Cayman Islands
law and so had no legal existence. We address each
argument in turn.

19a
1.

A Pre-Suit Assignment Does Not
Extinguish Article III Standing

There is little merit to the Banks’ initial
argument that the Dissolved Funds’ pre-filing
assignment of their claims stripped the Dissolved
Funds of Article III standing. As several of our sister
circuits have explained, there is a distinction between
having standing to pursue a claim and being a real
party in interest with respect to that claim, only the
latter of which is implicated by an assignment. See
First Am. Title Ins. Co. v. Nw. Title Ins. Agency, 906
F.3d 884, 890 (10th Cir. 2018); Norris v. Causey, 869
F.3d 360, 366–67 (5th Cir. 2017); Cranpark, Inc. v.
Rogers Grp., Inc., 821 F.3d 723, 730 (6th Cir. 2016)
(holding that “one who sells his interest in a cause of
action is not deprived of Article III standing, but . . . is
[instead] susceptible to a real-party-in-interest
challenge”); Dunn v. Advanced Med. Specialties, Inc.,
556 F. App’x 785, 789–90 (11th Cir. 2014); Whelan v.
Abell, 953 F.2d 663, 671–72 (D.C. Cir. 1992); Apter v.
Richardson, 510 F.2d 351, 353 (7th Cir. 1975); see also
6A Charles Alan Wright & Arthur R. Miller, Federal
Practice and Procedure § 1542 (3d ed.) (hereinafter,
“Wright & Miller”) (explaining the differences between
possessing standing and being a real party in interest);
id. § 3531 n.10 (same). That distinction makes sense.
Article III standing has three elements: (i) “the
plaintiff must have suffered an injury in fact” that is
“concrete and particularized” as well as “actual or
imminent”; (ii) “there must be a causal connection
between the injury and the conduct complained of”;
and (iii) “it must be likely . . . that the injury will be
redressed by a favorable judicial decision.” Lujan v.

20a
Defs. of Wildlife, 504 U.S. 555, 560–61 (1992) (internal
quotation marks omitted). An assignment has no
bearing on the first two elements. After all, an
assignment does not erase an injury – it is simply an
exchange of legal entitlement about who can seek to
rectify that injury in court. See Cranpark, 821 F.3d at
730–31 (reasoning that “it can[not] seriously be
contended that [the assignor] has suffered no injury in
fact” following an assignment).
Nor can an
assignment sever a pre-existing causal link between
that injury and the defendant. So that just leaves
redressability.
And given the Supreme Court’s
analysis in Sprint Communications Co. v. APCC
Services, Inc., 554 U.S. 269 (2008), that too is
unimpaired by an assignment.
Redressability, Sprint explains, focuses “on
whether the injury that a plaintiff alleges is likely to
be redressed through the litigation,” id. at 287, not on
whether the plaintiff itself is “entitled to the relief
sought,” Cranpark, 821 F.3d at 731 (internal quotation
marks omitted). Here, the Dissolved Funds’ alleged
injury is no less redressable through an award of
damages simply because legal title to their claims is
now owned by someone else.
To be sure, our Circuit’s pronouncements on
this issue are a bit of a mixed bag. For instance, both
Aaron Ferer & Sons Ltd. v. Chase Manhattan Bank,
731 F.2d 112, 125 (2d Cir. 1984), and Valdin
Investments Corp. v. Oxbridge Capital Management,
LLC, 651 F. App’x 5, 7 (2d Cir. 2016), held that
assignment can result in a loss of standing. But Aaron
Ferer predates Sprint, and Valdin is a nonprecedential summary order, so neither case is

21a
binding on us. See Doscher v. Sea Port Grp. Sec., LLC,
832 F.3d 372, 378 (2d Cir. 2016) (explaining that we
are no longer bound by a prior panel’s opinion when an
intervening Supreme Court decision has “broken the
link on which . . . [the] prior decision [was premised]
or undermined an assumption of that decision”
(internal citations, quotation marks, and alterations
omitted)); 2d Cir. R. 32.1.1(a) (“Rulings by summary
order [lack] precedential effect.”).5
A closer question, however, is posed in the wake
of W.R. Huff Asset Management Co. v. Deloitte &
Touche LLP, 549 F.3d 100 (2d Cir. 2008). There, we
held that “Sprint makes clear that the minimum
requirement for an injury-in-fact is that the plaintiff
have legal title to, or a proprietary interest in, the
claim.” Id. at 108 (emphasis added). Taken at face
value, that statement would seem to suggest that
retaining legal title to a claim is a constitutional
requirement of standing. But there is good reason not
to read W.R. Huff so literally. First, the case
concerned whether a party has standing to assert
another entity’s claim simply because it holds a power
of attorney. Id. at 103. Like the Sixth Circuit, we
conclude that the statement is best interpreted as

Although we are not bound by the unpublished and nonprecedential ruling in Valdin, we do not break from that panel’s
decision lightly. See L.O. v. N.Y.C. Dep’t of Educ., 822 F.3d 95,
123 n.17 (2d Cir. 2016) (cautioning that “[d]enying summary
orders precedential effect does not mean that the [C]ourt
considers itself free to rule differently in similar cases” (internal
quotation marks omitted)). But as this issue presents a purely
legal question of some importance, we conclude that Valdin does
not represent the law of our Circuit on this issue, and so hold in
this opinion.
5

22a
limited to that context, and should not be construed to
imply that a “transfer [of a claim] somehow erase[s]
the transferor’s injury.” Cranpark, 821 F.3d at 731
(distinguishing W.R. Huff). And second, we have made
clear that the prohibition on raising another’s legal
rights is a prudential rule of standing and distinct
from the requirements found within Article III itself.
See Am. Psychiatric Ass’n v. Anthem Health Plans,
Inc., 821 F.3d 352, 358 (2d Cir. 2016).
In short, then, we conclude that the Dissolved
Funds’ pre-suit assignment of their claims does not
pose a constitutional roadblock after Sprint. So that
leaves only their pre-suit dissolution.
2.

The Dissolved Funds’ Pre-Suit
Dissolution
Extinguished
Both
Their Legal Existence and Their
Article III Standing

Corporate
dissolution
implicates
two
potentially distinct legal concepts: capacity to sue and
legal existence. We agree with Fund Liquidation that
the former is non-jurisdictional in nature. Capacity to
sue addresses only whether a person or company that
possesses an enforceable right may act as a litigant.
See Horowitz v. 148 S. Emerson Assocs. LLC, 888 F.3d
13, 19 n.4 (2d Cir. 2018). And although it is “allied
with . . . the question of standing,” capacity is
“conceptually distinct.” 59 Am. Jur. 2d Parties § 26;
see also Allan Applestein TTEE FBO D.C.A. v.
Province of Buenos Aires, 415 F.3d 242, 245 (2d Cir.
2005) (demonstrating that a lack of capacity is nonjurisdictional by permitting the defense to be waived);
E.R. Squibb & Sons, Inc. v. Accident & Cas. Ins. Co.,
160 F.3d 925, 935–36 (2d Cir. 1998) (same); Am. Sports

23a
Radio Network, Inc. v. Krause (In re Krause), 546 F.3d
1070, 1072 n.2 (9th Cir. 2008) (“[W]e note that it is
capacity, not standing, which is at issue.”).
The same, however, cannot be said for legal
existence. Fund Liquidation disagrees, suggesting
that “corporate ‘existence’ has no valence apart from
the . . . issue of corporate capacity to sue.” Reply Br.
at 13.
While there has admittedly been some
disagreement among district courts on this issue,6 we
conclude that Fund Liquidation’s position is incorrect.
To start, the Federal Rules of Civil Procedure
differentiate between corporate existence and
capacity. For instance, Rule 17(b)(3)(A) permits courts
to
imbue
unincorporated
associations
and
partnerships with the capacity to sue. But this power
does not extend to entities that lack legal existence.
See Brown v. Fifth Jud. Dist. Drug Task Force, 255
F.3d 475, 477 (8th Cir. 2001) (explaining that “the
questions of legal or juridical existence and capacity to
sue and be sued are distinct, and that a group of
persons working together for a common purpose must

Compare ChinaCast Educ. Corp. v. Chen Zhou Guo, No. 15-cv5475 (AB), 2016 WL 10653269, at *1–2 (C.D. Cal. Jan. 8, 2016)
(explaining that, “[u]nlike a case where a corporation exists in
some form but perhaps lacks a technical capacity to sue in a
particular forum, Plaintiff’s own allegations indicate that
Plaintiff may not legally exist under Delaware law”), and
Catalyst & Chem. Servs., Inc. v. Glob. Ground Support, 350 F.
Supp. 2d 1, 22 (D.D.C. 2004) (concluding that the plaintiff “lacks
standing to maintain this action” because its “corporate charter
was forfeited” prior to the suit’s initiation), aff’d, 173 F. App’x 825
(Fed. Cir. 2006), with XP Vehicles, Inc. v. Dep’t of Energy, 118 F.
Supp. 3d 38, 65 (D.D.C. 2015) (holding that dissolved corporate
entities still possess Article III standing).
6

24a
first be found to have legal existence before the
question of capacity to sue or be sued can arise”); see
also Roby v. Corp. of Lloyd’s, 796 F. Supp. 103, 110
(S.D.N.Y. 1992) (holding that “[c]apacity to be sued
and legal existence are separate and distinct
concepts”), aff’d on other grounds, 996 F.2d 1353 (2d
Cir. 1993). Likewise, Rule 9 lists the two terms
independent of one another, indicating that they are
“distinct concepts” with distinct meanings.7 Wright &
Miller § 1292.
Fund Liquidation’s primary response to this
argument is to identify various prior cases in which
dissolved corporate entities were not thrown out of
court for lack of standing. But a close inspection of
those cases reveals that each of the corporate entities
Fund Liquidation points out that Rule 9(a)(1)(C) does not
require the legal existence of a corporate entity to be pleaded
affirmatively in every case, which Fund Liquidation sees as
contrary to the notion that corporate existence is a prerequisite
to standing. We disagree. We read Rule 9 as embodying the goal
of the federal rules to “simplif[y]” pleading requirements. Wright
& Miller § 1292. Because questions of legal existence will “rarely
[be] in dispute,” it is reasonable to require a “specific denial” to
raise the issue. Id. (internal quotation marks omitted). Indeed,
Fund Liquidation’s interpretation of Rule 9 would be particularly
hard to swallow in cases, unlike this one, where the original
plaintiff never existed whatsoever. Because one elemental
precondition for meeting the case-or-controversy requirement is
a claimant with standing, Lujan, 504 U.S. at 560–61, it must be
that the non-existence of the supposed claimant is a problem of
constitutional magnitude, see In re 2016 Primary Election, 836
F.3d 584, 587 (6th Cir. 2016) (holding that “[t]here is no plaintiff
with standing if there is no plaintiff”); see also LN Mgmt., LLC v.
JPMorgan Chase Bank, N.A., 957 F.3d 943, 953 (9th Cir. 2020)
(same); House v. Mitra QSR KNE LLC, 796 F. App’x 783, 787 (4th
Cir. 2019) (same).
7

25a
in question still had some vestige of legal existence at
the action’s inception, even if they lacked the capacity
to sue.
Take, for example, Chicago Title & Trust Co. v.
Forty-One Thirty-Six Wilcox Building Corp., 302 U.S.
120 (1937). After finding that the dissolved entity
lacked capacity, the Supreme Court reversed the lower
court’s decision rather than vacate it for want of
jurisdiction. Id. at 127–30. Under Illinois law,
however, the dissolved company still possessed some
legal identity when it initiated the reorganization
proceedings at issue in the case. Specifically, Illinois
law granted corporations the right to wind up business
for two years after dissolution, which included the
right to prosecute and defend legal claims. Id. at 122–
24. If a corporation began a lawsuit (or was sued)
during those two years, it could see the case through
to completion. Id. at 130 (Cardozo, J., dissenting).
And, sure enough, the dissolved entity in Chicago Title
& Trust was still litigating a case instituted during
that two-year windup period when it filed its petition
for reorganization. Id. at 130–31. So even though the
company lacked capacity, Illinois law still recognized
its legal existence – at least, for certain purposes.
The same is true of the other cases that Fund
Liquidation cites on this issue. In each case, the courts
indicated that state law granted the dissolved entities
continued existence even after dissolution so that they
could wind up their affairs, which included seeking
liquidation under the bankruptcy code. See Cedar
Tide Corp. v. Chandler’s Cove Inn, Ltd. (In re Cedar
Tide Corp.), 859 F.2d 1127, 1131–32 (2d Cir. 1988); In

26a
re Superior Boat Works, Inc., 438 B.R. 878, 881–83
(Bankr. N.D. Miss. 2010).
Here, by contrast, the record before us indicates
that the Dissolved Funds had neither capacity to sue
nor legal existence following their dissolution.
According to the affidavit of John Michael Harris (the
Banks’
Cayman
Islands
counsel),
following
dissolution, Cayman Islands companies and
partnerships “no longer ha[ve] any legal personality
and cannot take any lawful action,” meaning that any
“proceedings brought in [their] name[s] . . . are a
nullity.” J. App’x at 391. And unlike most U.S.
jurisdictions, the Cayman Islands do not permit a
dissolved entity to “be restored.” Id. at 390.
While Fund Liquidation submitted its own
affidavit on the status of dissolved Cayman Islands
entities, see ECF No. 250-4, Dkt. No. 16-cv-5263, that
affidavit did not contradict the core components of the
Harris affidavit that are relevant here – namely, that
the Dissolved Funds have no legal existence. Fund
Liquidation’s affidavit instead focused on the fact that
the Dissolved Funds’ assignment survived their
dissolution, and that Fund Liquidation, as assignee,
has a right to sue in the Dissolved Funds’ names. Id.
at 11. But whether Cayman Islands law would allow
for an assignment and power of attorney to survive
dissolution says little about whether the Dissolved
Funds have legal existence for purposes of Article III
standing. In light of this record, and because Fund
Liquidation bears the burden of demonstrating that
the
district
court
possesses
subject-matter
jurisdiction, Carter, 822 F.3d at 56, we conclude that

27a
the Dissolved Funds did not legally exist when the
case was filed.8
And without legal existence, the Dissolved
Funds lacked standing to sue. After all, “[t]he most
elemental requirement of adversary litigation is that
there be two or more parties,” meaning that “[a]bsent
a plaintiff with legal existence, there can be no Article
III case or controversy.” House v. Mitra QSR KNE
LLC, 796 F. App’x 783, 787 (4th Cir. 2019) (quoting
Wright & Miller § 3530); see also LN Mgmt., LLC v.
JPMorgan Chase Bank, N.A., 957 F.3d 943, 953 (9th
Cir. 2020) (concluding that it is “obvious” that “the
Although the legal existence of a foreign corporate entity is
ordinarily “determined by the laws of the country where it has
been created,” Carl Zeiss Stiftung v. VEB Carl Zeiss Jena, 433
F.2d 686, 698 (2d Cir. 1970), a slight choice-of-law wrinkle arises
here given that FrontPoint (unlike Sonterra) was a partnership,
not a corporation. As with corporations, it might seem natural to
look to the law of the jurisdiction where the organization was
created to determine whether a partnership has legal existence.
But Federal Rule of Civil Procedure 17(b)(3) suggests that a
partnership’s capacity to sue is governed by the law of the state
in which the court is located (here, New York). And if New York
law applies to determinations of capacity, it’s possible that the
same is true when determining existence. Fortunately, New York
law would itself look to Cayman Islands law to resolve this issue,
meaning that it makes no difference which law governs. See N.Y.
Partner Law § 121-901 (stating that “the laws of the jurisdiction
under which a foreign limited partnership is organized govern its
organization and internal affairs and the liability of its limited
partners”); see also Dennis v. JPMorgan Chase & Co., 342 F.
Supp. 3d 404, 410 (S.D.N.Y. 2018) (looking to law of the
jurisdiction under which the partnership was formed to
determine whether the partnership has capacity to sue);
Residential Liquidating Tr. v. Mortg. Invs. Grp., Inc. (In re
Residential Cap., LLC), 527 B.R. 590, 595–96 (Bankr. S.D.N.Y.
2015) (same).
8

28a
dead lack the capacities that litigants must have to
allow for a true Article III case or controversy”);
Hernandez v. Smith, 793 F. App’x 261, 265 (5th Cir.
2019) (plaintiff “did not have standing to sue because
she was deceased”); In re 2016 Primary Election, 836
F.3d 584, 587 (6th Cir. 2016) (“[O]ne elemental
precondition for meeting the case-or-controversy
requirement is a claimant with standing. There is no
plaintiff with standing if there is no plaintiff.”
(internal citation omitted)); cf. Billino v. Citibank,
N.A., 123 F.3d 723, 725 (2d Cir. 1997) (explaining that
it was a jurisdictional error for the appeal to be
brought only in the name of a dead party as a
“deceased plaintiff simply no longer has a cognizable
interest in the outcome of litigation”).
Before moving on, one component of this
conclusion bears at least some additional discussion.
Specifically, Fund Liquidation suggests that, by
declaring legal existence under state (or, in this case,
foreign) law to be a condition of Article III standing,
we are running afoul of the Supreme Court’s directive
that “standing in federal court is a question of federal
law, not state law.” Hollingsworth v. Perry, 570 U.S.
693, 715 (2013); see also Chicago Title & Tr., 302 U.S.
at 128 (explaining that a state “cannot keep [a]
corporation alive for its own purposes and deny it life
for federal purposes”); Chapman v. Barney, 129 U.S.
677, 682 (1889) (holding that “although it may be
authorized by the laws of the state of New York to
bring suit in the name of its president, that fact cannot
give the [plaintiff partnership] power, by that name,
to sue in a federal court”). Undoubtedly, there are
limits on how state law can influence issues of
constitutional standing. But, despite those limits,

29a
state law is not irrelevant simply because standing is
at issue.
Federal law sets the parameters on what is
necessary to possess Article III standing, and while
state law can neither enlarge nor diminish those
requirements, it can supply the answers to certain
antecedent questions relevant to whether those
federal requirements are satisfied. Indeed, this sort of
reliance on state law happens all the time.
For instance, state law often defines the legal
relationships between people and things, which are
necessary to understanding whether a particular
plaintiff has suffered an injury in fact. A simple
example of this is property ownership, which is both
an issue of state law and often a foundational standing
requirement in a federal takings case. See Stop the
Beach Renourishment, Inc. v. Fla. Dep’t of Env’t Prot.,
560 U.S. 702, 729 n.10 (2010) (explaining that “the
claim here is ripe insofar as Article III standing is
concerned, since (accepting petitioner’s version of
Florida law as true) petitioner has been deprived of
property”); U.S. Olympic Comm. v. Intelicense Corp.,
S.A., 737 F.2d 263, 268 (2d Cir. 1984) (holding that
“[o]nly the owner of an interest in property at the time
of the alleged taking has standing to assert that a
taking has occurred”).
But that’s just one example; courts rely on state
law in a variety of other contexts to assess whether a
plaintiff satisfies Article III. See, e.g., Va. House of
Delegates v. Bethune-Hill, 139 S. Ct. 1945, 1951 (2019)
(looking to Virginia state law to determine whether
the state legislature had the authority to litigate on
the State’s behalf); Torres v. $36,256.80 U.S. Currency,

30a
25 F.3d 1154, 1158–60 (2d Cir. 1994) (looking to state
law concerning constructive trusts to resolve an issue
of standing); Amrhein v. eClinical Works, LLC, 954
F.3d 328, 334 (1st Cir. 2020) (recognizing that “Article
III can be satisfied solely by virtue of an invasion of a
recognized state-law right” (internal quotation marks
omitted)); Scanlan v. Eisenberg, 669 F.3d 838, 842 (7th
Cir. 2012) (explaining that “the nature and extent of
[the plaintiff’s] interest[,] . . . and therefore[] whether
that interest can form the basis of a federal suit,
depend[s] on [state] law” (internal citations omitted));
FMC Corp. v. Boesky, 852 F.2d 981, 993 (7th Cir. 1988)
(holding that “[p]roperly pleaded violations of statecreated legal rights . . . must suffice to satisfy Article
III’s injury requirement”).
So, in a case like this one, federal law sets the
ground rule that a plaintiff corporation or partnership
must have legal existence to have constitutional
standing.
Whether a particular corporation or
partnership satisfies that requirement, however,
turns on an examination of state law. And here,
Cayman Islands law is clear: the Dissolved Funds had
no legal existence when the complaint was filed. As a
result, the Dissolved Funds lacked Article III standing
when the case was initiated in their names. The next
question, then, is what to make of that fact.
B.

Fund Liquidation Nonetheless Satisfied
Article III

We hold today that Article III is satisfied so long
as a party with standing to prosecute the specific claim
in question exists at the time the pleading is filed. If
that party (the real party in interest) is not named in
the complaint, then it must ratify, join, or be

31a
substituted into the action within a reasonable time.
Only if the real party in interest either fails to
materialize or lacks standing itself should the case be
dismissed for want of subject-matter jurisdiction.
Admittedly, this is not a view adopted by many
courts. The far more common view is the so-called
“nullity doctrine” exemplified by Zurich Insurance Co.
v. Logitrans, Inc., 297 F.3d 528 (6th Cir. 2002), which
says that a case initiated in the name of a plaintiff that
lacks standing is an incurable nullity. But, for the
reasons explained below, we conclude that neither
Article III nor our Court’s past precedent requires us
to adopt this doctrine. And because “the concerns
animating [Article III standing] are absent” where a
real party in interest exists and is willing to join an
action, Cortlandt St. Recovery Corp. v. Hellas
Telecomms. S.à.r.l., 790 F.3d 411, 427 (2d Cir. 2015)
(Sack, J., concurring), we conclude that Article III is
satisfied in this case.
1.

Our Precedent Does Not Require
Application of the Nullity Doctrine

Our court has touched on the nullity doctrine in
only a few published decisions. The natural starting
point is Cortlandt Street Recovery Corp. v. Hellas
Telecommunications S.à.r.l., 790 F.3d 411 (2d Cir.
2015). There, the district court determined that an
action instituted by a plaintiff that lacked standing
was a nullity at inception, and so could not be salvaged
through Rule 17. Id. at 422–23. Ultimately, we
resolved the case without deciding that question, but,
in a concurring opinion, Judge Sack (also the author of
the unanimous panel opinion) explained that he would
reject the nullity doctrine as it is “highly technical

32a
[and] without [a] meaningful purpose.” Id. at 427
(Sack, J., concurring) (internal quotation marks
omitted).
Despite Cortlandt’s refusal to decide this issue,
subsequent panels have twice cited Cortlandt in
support of dicta suggesting that the nullity doctrine is
the law of the Circuit. See Klein, 906 F.3d at 227 n.7;
DeKalb Cnty. Pension Fund v. Transocean Ltd., 817
F.3d 393, 412 & n.121 (2d Cir. 2016). The explanation
for this strange leap in law is simple: each of those
opinions mistakenly quotes language from Cortlandt
as if it were part of Cortlandt’s holding, when, in fact,
it was merely a summary of the district court’s
reasoning that the panel in Cortlandt expressly
refused to adopt. Compare Klein, 906 F.3d at 227 n.7,
and DeKalb, 817 F.3d at 412 n.121, with Cortlandt,
790 F.3d at 423, and id. at 425–27 (Sack, J.,
concurring).9
As a result, none of these cases
constitutes binding precedent on the subject.
Interestingly, the closest that we have come to
adopting the nullity doctrine appears to have been in
Isthmian Lines, Inc. v. Rosling, 360 F.2d 926 (2d Cir.
1966), a case that Cortlandt (and the parties here) did
not address. That case was a wrongful death suit
brought in the name of a widow, both in her individual
capacity and in her capacity as administrator of her
husband’s estate. As it turned out, the widow had
herself died before the complaint was filed, and it was
her daughter who was actually the administrator of
the decedent’s estate. We ultimately permitted the

Our non-precedential summary order in Valdin Investments is
subject to the same criticism. See 651 F. App’x at 7.
9

33a
daughter to amend the complaint to name herself as
administrator, but only because the estate (unlike the
widow) was “alive” at the time the complaint was filed:
[The pleading] was captioned in the
alleged name of the Administratrix of the
Estate of Charles Richard Washington as
well as herself “individually,” although
this latter status was a nullity because of
her prior decease. The respondent thus
had notice that the “Estate” was suing
and notice of the facts upon which the
claim was based. Although “a proceeding
begun in the name of a deceased plaintiff
is a nullity” (Karrick v. Wetmore, 22
App.D.C. 487 [(D.C. Cir. 1903]), the
Estate here was not deceased. . . . [T]he
situation was that of an Estate suing
which did not have a then-appointed
administrator.
Id. at 927–28.
To be sure, this opinion offers some support for
the nullity doctrine. But it is not binding on us: the
nullity point was mere dicta because the estate’s
standing to bring the claim independently supported
the holding. And when assessed on its own terms,
Isthmian Lines is not particularly persuasive as it
effectively begins and ends its nullity analysis with a
quote from Karrick v. Wetmore, a D.C. Circuit decision
from 1903. Karrick, in turn, relied primarily on state
court and English court opinions, and the Supreme
Court’s decision in Harter v. Twohig, 158 U.S. 448, 454
(1895), which itself focused on Nebraska state law, not

34a
the demands of Article III. See Karrick, 22 App. D.C.
at 493.
Thus, whether to adopt the nullity doctrine is
still an open question in our Circuit.
2.

Article III Does Not Require the
Nullity Doctrine

The central conceit of the nullity doctrine is that
an action commenced in the name of a plaintiff who
lacks Article III standing is rendered an incurable
nullity even where a real party in interest both has
standing and is willing to join the suit.
That
foundational view is immediately suspect given its
tension with how pleading requirements have evolved
over time.
At early common law, courts of law recognized
only those plaintiffs whose legal rights had been
affected by the act of the defendant, a group into which
courts determined assignees did not fall. See Charles
E. Clark & Robert M. Hutchins, The Real Party in
Interest, 34 Yale L.J. 259, 259–60 (1925) (hereinafter,
“Clark, Real Party in Interest”); Wright & Miller §
1545. Perhaps because cases had to be brought in the
name of the nominal plaintiff, identifying the party for
whose “use” a case was brought was not necessary. See
Clarksons v. Doddridge, 55 Va. 42, 46 (1857) (“It is
usual, when an action is brought in the name of one
person for the use of another, to state the fact . . . . But
this is not necessary. The statement is no material
part of the pleadings.”); see also United States v. Abeel,
174 F. 12, 19 (5th Cir. 1909) (“[A] suit for the breach
can[] be maintained by the United States without a
statement that the suit is for the use of some one
named in the petition.”); Boston El. Ry. Co. v. Grace &

35a
Hyde Co., 112 F. 279, 284 (1st Cir. 1901) (“[T]he
expression of [] use may be disregarded as surplusage.
. . . [S]uch a phrase has no force to make an issue
different from what it would have been if the phrase
had been left out.”); Edson R. Sunderland, Cases on
Procedure, Annotated: Common Law Pleading 731
n.77 (Callaghan & Co., 1914) (commenting, in
reference to the Supreme Court’s decision in Welch v.
Mandeville, 14 U.S. (1 Wheat.) 233 (1816), that the
“[r]ecord need not disclose real plaintiff” (italics
omitted)).
Eventually, jurisdictions began to abandon this
approach in favor of “code pleading.” Clark, Real Party
in Interest at 259.
Under this new pleading
formulation, cases could “be prosecuted in the name of
the real party in interest,” which was defined to be the
assignee and not the assignor. Id. at 259, 264. But
jurisdictions split on whether proceeding in the name
of the assignor was still permitted. In some, only the
assignee (that is, the real party interest) could bring
suit. Id. at 261 (explaining that the “[t]he express
language of the [New York] Code was that [nearly]
every action must be prosecuted in the name of the
real party in interest” (internal quotation marks and
footnote omitted)); id. at 266 (noting that “[t]he real
party in interest provision is . . . properly construed in
most states as imperative; the assignee and he alone
may sue”). In others, it was up to the real party in
interest to choose between suing in its own name or in
the name of the assignor. Id. at 264–66; see also
Carozza v. Boxley, 203 F. 673, 677 (4th Cir. 1913)
(noting that “suit may be brought in one of three ways
– in the name of the original obligee or payee, in his
name for the use of the assignee, or in the name of the

36a
assignee alone”); Roland F. Johnson, Equity –
Assignment of Choses In Action – Suit In Whose Name,
17 Tex. L. Rev. 183, 185 (1939) (explaining that in
Merlin v. Manning, 2 Tex. 351 (1847), the Texas
Supreme Court made clear that an “assignee could sue
either in his own name or in the name of his assignor”
(emphasis added)). In adopting Federal Rule of Civil
Procedure 17, Congress sided with the former
approach, clarifying that cases had to be prosecuted in
the name of the real party in interest, not the nominal
plaintiff. See Fed. R. Civ. P. 17.
This evolution of pleading practices suggests
two things. First, the rule concerning which party’s
name a case must be prosecuted under (either the
nominal plaintiff or the real party in interest) is nonjurisdictional. After all, if it were jurisdictional, it’s
not clear how it could be changed over time without
offending the Constitution. Moreover, treating this as
a jurisdictional issue would be somewhat inconsistent
with the directive in Rule 17(a)(3) that a case cannot
be dismissed “until, after an objection, a reasonable
time has been allowed for the real party in interest to
ratify, join, or be substituted into the action.”
Second, if we can alter the party in whose name
a case must be prosecuted without offending Article
III, it stands to reason that failing to initially name
the correct party is not itself a constitutional problem.
In other words, there appears to be no constitutional
magic behind whether the name of a nominal plaintiff
or a real party in interest is initially put in the caption
of a pleading. Article III would therefore seem to be
satisfied so long as the real party in interest is willing
to join the case and has had standing since the case’s

37a
inception. When viewed this way, filing a complaint
in the name of a deceased or non-existent nominal
plaintiff is akin to an error in the complaint’s
allegations of jurisdiction. And it is well-understood
that a plaintiff may cure defective jurisdictional
allegations, unlike defective jurisdiction itself,
through amended pleadings. See Rockwell Int’l Corp.
v. United States, 549 U.S. 457, 473 (2007)
(distinguishing between “[t]he state of things and the
originally alleged state of things”); Pressroom UnionsPrinters League Income Sec. Fund. v. Cont’l Assur. Co.,
700 F.2d 889, 893 (2d Cir. 1983) (explaining that 28
U.S.C. § 1653 “allows amendment only of defective
allegations of jurisdiction” but “does not provide a
remedy for defective jurisdiction itself” (internal
quotation marks omitted)).
The thornier question is whether a complaint
filed in the name of a non-existent entity, on behalf of
an unidentified real party in interest, meets the
requirement that “the party invoking jurisdiction
ha[ve] the requisite stake in the outcome when the suit
[i]s filed.” Davis v. FEC, 554 U.S. 724, 734 (2008); see
also Lujan, 504 U.S. at 570 n.5 (explaining that
“standing is to be determined as of the commencement
of suit”). Although it may not seem immediately
intuitive, we conclude that the answer is “yes.”
The real party in interest is the party with the
legal title to the claim asserted and is the party with
the stake in the controversy that is being used to
invoke the court’s jurisdiction. Why, then, should
jurisdiction to hear the controversy turn on whether
the nominal plaintiff has standing? That would be
nonsensical. Indeed, in other jurisdictional contexts,

38a
we often ignore nominal plaintiffs and look only to the
party with a real interest in the controversy. See, e.g.,
St. Paul Fire & Marine Ins. Co. v. Universal Builders
Supply, 409 F.3d 73, 80–81 (2d Cir. 2005) (recognizing
that nominal parties are often ignored for diversity
purposes and explaining that this rule has a “rough
symmetry” to the real-party-in-interest concept
embodied by Rule 17(a) (internal quotation marks
omitted)). And since Rule 17(a)(3) is clear that joinder
of the real party in interest relates back to the
“original[] commence[ment]” of the suit, this approach
is consistent with the directive that standing must
exist at the case’s inception.
Further supporting this view is the fact that
joining an assignee does not “substitute a new cause of
action over which there is subject-matter jurisdiction
for one in which there is not.” Advani Enters., Inc. v.
Underwriters at Lloyds, 140 F.3d 157, 161 (2d Cir.
1998). Rather, a real party in interest who has been
assigned a claim is the functional equivalent of the
original plaintiff – an assignee “step[s] into the shoes
of the
assignor.”
Fed.
Treasury
Enter.
Sojuzplodoimport v. SPI Spirits Ltd., 726 F.3d 62, 75
n.12 (2d. Cir. 2013) (internal quotation marks
omitted).
So even though Fund Liquidation is
replacing the Dissolved Funds as the named party, it
is prosecuting the Dissolved Funds’ claims. See In re
Ace Sec. Corp. RMBS Litig., No. 13-cv-1869 (AJN),
2015 WL 1408837, at *7 (S.D.N.Y. Mar. 26, 2015)
(“Here, there is neither a new cause of action nor a new
party. Nor would the proposed changes . . . cause the
amended complaint to have the characteristics of a
new lawsuit. The Trustee is the functional equivalent

39a
of the Trust for the purpose of conducting this
litigation.” (internal quotation marks omitted)).10
In short, the boundaries of Article III are not as
rigid as the Banks suggest. Indeed, while Fund
Liquidation’s presence and standing ensured that
there was a live controversy when the action was
initiated, numerous courts have made clear that, in
certain instances, subject-matter jurisdiction can even
be obtained after a case’s initiation and given
retroactive effect through procedural rules.
Diversity jurisdiction is one such example.
Even if complete diversity – and thus jurisdiction – is
lacking at a case’s inception, rather than dismiss the
case as a nullity, the court may drop any dispensable
parties that are obnoxious to its jurisdiction. See
Grupo Dataflux v. Atlas Glob. Grp., L.P., 541 U.S. 567,
574 (2004); see also E.R. Squibb & Sons, Inc. v. Lloyd’s
& Cos., 241 F.3d 154, 163 (2d Cir. 2001) (explaining
that “once subject matter jurisdiction is ‘cured’ by an
amendment [speaking about a diversity defect], courts
regularly have treated the defect as having been
eliminated from the outset of the action”). Cases
involving Federal Rule of Civil Procedure 15(d)
In this way, the substitution of an assignee into an action is not
like the situation discussed in the Advisory Committee Note to
the 1966 amendment to Rule 17, in which a lawyer files an action
in the name of a fictitious person “in the hope that at a later time
the attorney filing the action may substitute the real name of the
real personal representative of a real victim, and have the benefit
of suspension of the limitation period.” Fed. R. Civ. P. 17 Advisory
Committee’s note to 1966 amendment. Likewise, the case before
us today differs from a situation like Zurich Insurance, in which
the originally named plaintiff never possessed a claim against the
defendant. See 297 F.3d at 532.
10

40a
provide additional examples. While we have never
taken a position on the issue (and do not do so here),
other circuits have declared that “events occurring
after the filing of a complaint may cure a jurisdictional
defect that existed at the time of initial filing.” Saleh
v. Sulka Trading Ltd., 957 F.3d 348, 354 & n.7 (2d Cir.
2020) (collecting cases). Even the Supreme Court has
suggested that Rule 15(d) may be used in this fashion.
See Mathews v. Diaz, 426 U.S. 67, 75 & n.8 (1976).11
Of course, the cases cited above concerned subconstitutional jurisdictional problems. See NewmanGreen, Inc. v. Alfonzo-Larrain, 490 U.S. 826, 829 n.1
(1989) (acknowledging that complete diversity is a
statutory, not constitutional, requirement); Mathews,
426 U.S. at 75 (discussing a statutory condition on
jurisdiction). And at least one other Circuit has
suggested, albeit without explanation, that whether a
jurisdictional defect is of constitutional character
might be relevant to determining if it can be cured
retroactively. See Yan v. ReWalk Robotics Ltd., 973
F.3d 22, 39 n.6 (1st Cir. 2020) (noting that two of the
three panel members “limit their joining in this
portion of the opinion on the basis that the standing
defect in this case may be viewed as a lack of statutory
standing”). But there are some examples of true-blue
In Mathews, a Medicare applicant filed his Part B application
only after he was joined as a plaintiff in an amended complaint.
Although 42 U.S.C. § 405(g) made filing such an application a
“nonwaivable condition of jurisdiction,” the Supreme Court
stated that it had “little difficulty” in holding that the district
court had jurisdiction over the plaintiff’s claim. 426 U.S. at 75.
Citing Rule 15(d), the Court explained that “[a] supplemental
complaint in the [d]istrict [c]ourt would have eliminated this
jurisdictional issue.” Id. at 75 & n.8.
11

41a
constitutional defects being cured through procedural
rules after a complaint was filed.
For instance, in Northstar Financial Advisors
Inc. v. Schwab Investments, the plaintiff filed a class
action lawsuit on behalf of investors without owning
any shares in the investment fund that it was suing or
having obtained an assignment from those investors,
meaning that the plaintiff had not suffered an injury
when it filed suit. 779 F.3d 1036, 1043 (9th Cir. 2015).
It was not until four months later that the plaintiff
secured an assignment. Id. at 1043–44. Nevertheless,
the district court permitted the plaintiff to file a
supplemental pleading under Rule 15(d). Id. at 1044–
45. The Ninth Circuit affirmed, concluding that
requiring the plaintiff to start a new case would be
needlessly formal. Id. at 1044–48. Other circuits have
reached similar conclusions. See Scahill v. District of
Columbia, 909 F.3d 1177, 1184 (D.C. Cir. 2018)
(holding that “a plaintiff may cure a standing defect
under Article III through an amended pleading
alleging facts that arose after filing the original
complaint”); Prasco, LLC v. Medicis Pharm. Corp., 537
F.3d 1329, 1337 (Fed. Cir. 2008) (concluding that the
status of the plaintiff’s Article III standing should be
decided based on the allegations in the amended
complaint, included allegations that concerned events
that occurred after the case was initiated).
The Banks’ primary authority in favor of the
nullity doctrine – the Fourth Circuit’s unpublished
decision in House v. Mitra QSR KNE LLC – brings
little to the table. To start, House posits that “[o]nly
an actual and live plaintiff can assure that concrete
adverseness which sharpens the presentation of issues

42a
upon which the court so largely depends for
illumination of difficult questions.” 796 F. App’x at
787 (internal quotation marks and alterations
omitted). But that role is filled whenever there is a
real party in interest ready and willing to join the
action.
Next, House points out that Rule 17 permits a
real party in interest to substitute into “an action,” id.
at 790 (quoting Fed. R. Civ. P. 17(a)(3)), and reasons
that a case instituted by a non-existent party is not an
action at all. But what the Federal Rules call an
“action” is something that exists independent of
subject-matter jurisdiction. In fact, Rule 12(h)(3)
states that a court “must dismiss the action” if it
determines that it lacks subject-matter jurisdiction.
Fed. R. Civ. P. 12(h)(3) (emphasis added). And Rule 3
says that “[a] civil action is commenced by filing a
complaint with the court,” an event that occurs well
before any decision over subject-matter jurisdiction is
made. Fed. R. Civ. P. 3. House’s analysis is also in
tension with the “wide and flexible content given to the
concept of action under the [federal] rules.” Hackner
v. Guar. Tr. Co. of N.Y., 117 F.2d 95, 98 (2d Cir. 1941)
(Clark, J.).12
It should also be noted that the approach we
adopt today will not result in unchecked abusive
practices by plaintiffs. Rule 17 permits courts to deny
joinder of a real party in interest where the motion is
made “in bad faith or in an effort to deceive or

Judge Clark “was a principal architect of the Federal Rules of
Civil Procedure.” Zahn v. Int’l Paper Co., 414 U.S. 291, 297
(1973).
12

43a
prejudice the defendants,” or where granting the
motion would “otherwise result in unfairness to
defendants.”
Klein, 906 F.3d at 226 (internal
quotation marks omitted). Thus, if a court concludes
that the original misnaming of the nominal plaintiff
was done for nefarious reasons, the court retains
discretion to dismiss the suit.
So, because “the concerns animating a
constitutional principle are absent” where an assignee
with standing seeks to join an action under Rule 17,
“practical considerations may ultimately prevail.”
Cortlandt, 790 F.3d at 427 (Sack, J., concurring). And
it is plainly the more practical approach to permit
parties to circumvent the needless formality and
expense of instituting a new action simply to correct a
technical error in the original pleading’s caption. See
id.; Link Aviation, Inc. v. Downs, 325 F.2d 613, 615
(D.C. Cir. 1963) (“Any other rule would be highly
technical without meaningful purpose.”); cf. Scahill,
909 F.3d at 1184 (reaching the same conclusion in the
context of Rule 15(d)); Northstar Fin. Advisors 779
F.3d 1044–48 (same). It is perhaps for precisely this
reason that several authorities have either implicitly
or explicitly rejected the nullity doctrine.
See
Cortlandt, 790 F.3d at 425–27 (Sack, J., concurring);
Esposito v. United States, 368 F.3d 1271, 1276–78
(10th Cir. 2004) (permitting an estate to join a case
through Rule 17 even though the case was initiated in
the name of a deceased plaintiff); see also Wright &

44a
Miller § 3531 n.61 (characterizing the nullity doctrine
as “particularly troubling”).13
As a result, we conclude that Article III is
satisfied by Fund Liquidation’s standing to bring suit
and willingness to join the action under Rule 17.14
C.

The Case on Remand

Having concluded that the Dissolved Funds’
lack of standing did not render this action an incurable
nullity, we agree with Fund Liquidation that the case
should be remanded to the district court for further
proceedings. Notably, this does not require us to
resolve whether Fund Liquidation received a valid
Though the Ninth Circuit recently agreed with the Fourth
Circuit that a deceased plaintiff lacks Article III standing, the
Ninth Circuit declined to decide whether Article III could
nonetheless be satisfied by the existence of a separate real party
in interest. See LN Mgmt., 957 F.3d at 955 (declining to “rule on
the tricky substitution questions that divided the Fifth Circuit . .
. and the Fourth in House, on the one hand, from the Tenth in
Esposito, on the other”).
13

Although it is possible that Fund Liquidation’s third amended
complaint exceeded the sort of “merely formal” amendment
permitted by Rule 17 alone, see Cortlandt, 790 F.3d at 424
(internal quotation marks omitted); Dennis, 342 F. Supp. 3d at
416–17, the Banks have not raised that point, so we need not
consider it. And even if they had, there is precedent for
permitting more substantive amendments through a motion
made jointly under both Rule 15 and Rule 17. See Cortlandt, 790
F.3d at 424–25 (“We cannot rule out the possibility that Cortlandt
might have avoided these challenging procedural pitfalls through
a request for leave to obtain a valid assignment under some other
rule of civil procedure. It did not. It has relied upon only Rule 17
in the present appeal.”); see also Nat’l Credit Union Admin. Bd.
v. Deutsche Bank Nat’l Tr. Co., 410 F. Supp. 3d 662, 676–78
(S.D.N.Y. 2019).
14

45a
assignment from FrontPoint because the district court
already concluded that Fund Liquidation received
such an assignment from Sonterra.15 See FrontPoint
Asian Event Driven Fund, 2018 WL 4830087, at *11.
And although Sonterra’s claims were separately
dismissed based on the fund not being an efficient
enforcer of antitrust laws, that is a non-jurisdictional
dismissal and so a valid case or controversy still
exists.16 See Meijer, Inc. v. Ferring B.V. (In re DDAVP
Direct Purchaser Antitrust Litig.), 585 F.3d 677, 688
(2d Cir. 2009) (distinguishing Article III standing from
antitrust standing).
On remand, then, the district court should
reconsider two issues in light of our opinion. First,
now that its jurisdiction over the case is clear, the
district court should revisit whether to approve the

Indeed, the agreement between Sonterra and Fund Liquidation
stated that Sonterra was assigning “any and all claims . . . related
to the ownership of, or any transaction in, any [t]raded
[s]ecurities,” including claims that could be brought in “any
future class action lawsuit.” J. App’x at 459 (emphasis added).
By contrast, FrontPoint assigned only those claims arising out of
“any future securities class action or lawsuit.” J. App’x at 480
(emphasis added). And it was this limitation to securities class
actions that caused the district court to conclude that
FrontPoint’s assignment was ineffective. See Fund Liquidation
Holdings, 399 F. Supp. 3d at 102–03 (distinguishing between
securities class actions and antitrust class actions involving
securities).
15

To the extent that Sonterra’s status as an efficient antitrust
enforcer becomes relevant at some later date in the case, the
parties appear to agree that the decision in In re LIBOR-Based
Financial Instruments Antitrust Litigation, No. 17-1569 (2d Cir.),
will likely resolve the issue.
16

46a
settlement agreements signed by several of the
defendants.
Second, the district court should reconsider
Fund Liquidation’s motion to file its proposed fourth
amended complaint, which would add the Moon Funds
as new representative plaintiffs. Of course, the
district court alternatively held that the Moon Funds’
claims were untimely as they were no longer subject to
equitable tolling under American Pipe. See Fund
Liquidation Holdings, 399 F. Supp. 3d at 104–05.
That conclusion, however, was based on an overly
expansive reading of the Supreme Court’s decision in
China Agritech, Inc. v. Resh, 138 S. Ct. 1800 (2018).
In China Agritech, the Supreme Court
explained that “American Pipe tolls the statute of
limitations during the pendency of a putative class
action, allowing unnamed class members to join the
action individually or file individual claims if the class
fails.” Id. at 1804. “But American Pipe does not
permit the maintenance of a follow-on class action
past expiration of the statute of limitations.” Id.
While the district court (and the Banks) see that
language as fatal to any amendment that would add
the Moon Funds as representative plaintiffs, it says
nothing of the sort. The Supreme Court focused its
analysis on follow-on class actions. Id. Nothing in
China Agritech purports to say that equitable tolling
does not apply to new class representatives joined
within the same class action. Indeed, the Seventh
Circuit recently reached this precise conclusion:
[Defendant] would read China Agritech
much more broadly to prohibit any
addition or substitution of a new class

47a
representative within the original class
action after the statute of limitations
period would have run, but for American
Pipe tolling. We see no hint in the China
Agritech opinion or its reasoning that
would support this proposed extension.
American Pipe tolling is intended to
promote efficiency and economy in
litigation. Prohibiting its use within the
original class action to add new class
representatives, whether because they
would be better representatives, because
class definitions are modified, because
subclasses are needed, or for any other
case-management
reason,
would
arbitrarily – even randomly – undermine
those goals of efficiency and economy. . . .
Plaintiffs here sought only to rearrange
the seating chart within a single, ongoing
action. What they proposed amounted to
an ordinary pleading amendment
governed by Federal Rule of Civil
Procedure 15.
Carpenters Pension Tr. Fund for N. Cal. v. Allstate
Corp. (In re Allstate Corp. Sec. Litig.), 966 F.3d 595,
615–16 (7th Cir. 2020) (internal citations omitted).
Accordingly, so long as the amendment to add
the Moon Funds as class representatives satisfies the
requirements of Federal Rule of Civil Procedure
15(c)(1)(B), see id. at 616, and so long as the proposed
fourth amended complaint otherwise plausibly states
a claim on which relief can be granted, the district

48a
court should grant Fund Liquidation’s motion to
amend.17
V.

Conclusion

For the foregoing reasons, we VACATE the
judgment of the district court and REMAND the case
for further proceedings. Should any future appeal
ensue related to whether Fund Liquidation may file its
proposed fourth amended complaint, or whether that
fourth amended complaint states a claim on which
relief can be granted, any party may restore our
jurisdiction pursuant to the procedure outlined in
United States v. Jacobson, 15 F.3d 19, 22 (2d Cir.
1994), in which event the appeal will be referred to
this panel

The district court may also consider the argument raised by the
ING entities – ING Groep N.V., ING Bank N.V., and ING Capital
Markets LLC – that the Moon Funds’ SOR-related claims should
not relate back against them as “no complaint filed before
December 2018 alleged that ING engaged in SOR panel-related
conduct or was on the SOR panel.” Banks Br. at 55–56.
17

51a
Fund, L.P. v. Citibank, N.A., No. 16-cv-5263 (AKH),
2018 WL 4830087, at *11 (S.D.N.Y. Oct. 4, 2018)
(“SIBOR II”).
Plaintiffs then filed, with my
permission, a Third Amended Complaint (“TAC”)
alleging that the two companies had assigned their
claims to FLH pursuant to an Asset Purchase
Agreement (“APA”) executed July 13, 2011. The issue
posed by defendants’ motion to dismiss is whether the
assignment embraces the claims in Plaintiff’s
complaint for, if the assignment does not, FLH, as well
as Frontpoint and Sonterra, is not a real party in
interest, lacking capacity to sue, and the TAC must be
dismissed.
The TAC alleges a conspiracy to manipulate two
interest rate benchmarks, the Singapore Interbank
Offered Rate (“SIBOR”) and the Singapore Swap Offer
Rate (“SOR”). FLH asserts claims of conspiracy to
restrain trade in violation of Section 1 of the Sherman
Act, 15 U.S.C. § 1 et seq., against financial institutions
participating in the rate setting process. Plaintiff also
alleges a state law claim against two defendants,
Deutsche Bank AG and Citibank N.A., for breach of
implied covenant of good faith and fair dealing.
The defendants who have not entered into
settlement agreements1 move to dismiss the Third

Bank of America, N.A., The Royal Bank of Scotland plc, UBS
AG, BNP Paribas, S.A., Oversea-Chinese Banking Corporation
Ltd., Deutsche Bank AG, Credit Agricole Corporate and
Investment Bank, Credit Suisse AG, Standard Chartered Bank,
DBS Bank Ltd., United Overseas Bank Limited, Australia and
New Zealand Banking Group, Ltd., The Bank of TokyoMitsubishi UFJ, Ltd., and The Hongkong and Shanghai Banking
Corporation Limited.
1

52a
Amended Complaint (“TAC”), pursuant to Fed. R. Civ.
P. 12(b)(1), (b)(2), and (b)(6), for lack of subject matter
jurisdiction, for lack of personal jurisdiction as to
certain defendants,2 and for failure to state a claim on
which relief can be granted. I grant defendants’
motions because I conclude that the Court lacks
subject matter jurisdiction.
Plaintiff also moves for preliminary approval of
their two settlements and to file a Fourth Amended
Complaint. Plaintiff’s motions are denied.
Plaintiff’s allegations and the procedural
background are described in my earlier Opinion and
Order, SIBOR II, 2018 WL 4830087, at *1–*3, and will
not be repeated except as necessary to the issues now
at hand.
Basically, the complaint alleges a Sherman Act
conspiracy to fix two benchmark interest rates, SIBOR
and SOR. The rates reflect daily averages in the
Singapore market. Plaintiff alleges that defendants,
by agreeing to manipulate SIBOR and SOR, intended
to fix prices of derivatives traded in New York.
In SIBOR II, I granted in part and denied
in part claims raised in plaintiffs’ Second Amended

Citibank, N.A. and JPMorgan Chase Bank, N.A., having entered
into settlement agreements with plaintiff, do not join the motion.
The Royal Bank of Scotland plc, UBS AG, BNP Paribas, S.A.,
Oversea-Chinese Banking Corporation Ltd., Credit Agricole
Corporate and Investment Bank, Credit Suisse AG, Standard
Chartered Bank, DBS Bank Ltd., United Overseas Bank Limited,
Australia and New Zealand Banking Group, Ltd., The Bank of
Tokyo-Mitsubishi UFJ, Ltd., and The Hongkong and Shanghai
Banking Corporation Limited.
2

53a
Complaint (SAC) and granted leave to file the TAC at
issue here. In particular, I dismissed the antitrust
claims alleged against non-SIBOR Panel Members
and all of the claims alleged by Sonterra Capital
Master Fund, Ltd. (“Sonterra”). I dismissed all the
RICO and RICO conspiracy claims, and I dismissed
the claims against foreign defendants not serving on
the SIBOR Panel for lack of personal jurisdiction.3
The capacity to sue by FrontPoint and Sonterra
was addressed in my previous decision. I dismissed
the plaintiffs’ claims, because they were dissolved
entities when the action began, on July 1, 2016. In
response, plaintiffs asserted that Sonterra and
FrontPoint’s claims were assigned to FLH under
FrontPoint’s Asset Purchase Agreement (“APA”),
executed July 13, 2011. ECF 320-1. I granted plaintiff
leave to amend and to substitute FLH as the real party
in interest, and instructed plaintiffs to “show how they
got their assignment and give me an interpretation of
the contract to show that they have the ability to sue.
That should be in [the] pleading.” SIBOR II, 2018 WL
4830087, at *12; Tr., ECF 282, at 48:2–5. The TAC
now alleges the assignment and substitutes FLH as a
party plaintiff. Defendants’ motion challenges the
adequacy of the assignment.

Having allowed plaintiff to file the TAC, and having found the
issues raised by defendants’ present motion to be the same, I
denied as academic motions for reconsideration by The Hongkong
and Shanghai Banking Corporation Limited, DBS Bank Ltd,
Oversea-Chinese Banking Corporation Limited, and United
Overseas Bank Limited. ECF 385–86.
3

54a
Discussion
A.

Legal Standard

“The district courts of the United States . . . are
‘courts of limited jurisdiction. They possess only that
power authorized by Constitution and statute.’” Exxon
Mobil Corp. v. Allapattah Servs., Inc., 545 U.S. 546,
552 (2005) (quoting Kokkonen v. Guardian Life Ins.
Co. of Am., 511 U.S. 375, 377 (1994)). “A district court
properly dismisses an action under Fed. R. Civ. P.
12(b)(1) for lack of subject matter jurisdiction if the
court “lacks the statutory or constitutional power to
adjudicate it.” Cortlandt, 790 F.3d 411, 416–17. “‘The
party invoking federal jurisdiction bears the burden of
establishing’ prudential and constitutional standing .
. . .” Keepers, Inc. v. City of Milford, 807 F.3d 24, 39
(2d Cir. 2015) (quoting Rajamin v. Deutsche Bank Nat.
Tr. Co., 757 F.3d 79, 84 (2d Cir. 2014)). “In assessing
the plaintiff’s assertion of standing, ‘we accept as true
all material allegations of the complaint[] and . . .
construe the complaint in favor of the complaining
party’ [and] may also rely on evidence outside the
complaint.” Cortlandt, 790 F.3d at 417 (internal
citations omitted).
“In its constitutional dimension, standing
imports justiciability: whether the plaintiff has made
out a ‘case or controversy’ between himself and the
defendant within the meaning of Art. III.” Cortlandt,
790 F.3d at 417 (quoting Warth v. Seldin, 422 U.S. 490,
498 (1975)). “[L]awsuits by assignees . . . are ‘cases
and controversies of the sort traditionally amenable
to, and resolved by, the judicial process.’” Cortlandt,
790 F.3d at 418 (quoting Sprint Commc’ns Co., L.P. v.
APCC Servs., Inc., 554 U.S. 269, 285 (2008)).

55a
“Although federal antitrust laws do not expressly
permit assignment, it has been long acknowledged by
federal courts that these claims may be assigned.”
DNAML Pty, Ltd. v. Apple Inc., 2015 WL 9077075, at
*3 (citing In re Fine Paper Litig. State of Wash., 632
F.2d 1081, 1090 (3d Cir. 1980)); see also Cordes & Co.
Fin. Servs. v. A.G. Edwards & Sons, Inc., 502 F.3d 91,
100 (2d Cir. 2007).
“To effect a transfer of the right to bring an
antitrust claim, the transferee must expressly assign
the right to bring that cause of action, either by
making specific reference to the antitrust claim or by
making an unambiguous assignment of causes of
action in a manner that would clearly encompass the
antitrust claim.” DNAML Pty, Ltd. v. Apple Inc., No.
13-cv-6516 (DLC), 2015 WL 9077075, at *3 (S.D.N.Y.
Dec. 16, 2015).
“In determining whether the Agreement has
effectively made an assignment of the right to bring an
antitrust claim, ordinary principles of contract law
will be applied.” DNAML Pty, Ltd. v. Apple Inc., 2015
WL 9077075, at *4. “A contract is unambiguous when
the contractual language has a definite and precise
meaning about which there is no reasonable basis for
a difference of opinion.” Keiler v. Harlequin Enters.
Ltd., 751 F.3d 64, 69 (2d Cir. 2014). “By contrast,
ambiguity exists where a contract’s term could
objectively suggest more than one meaning to one
familiar with the customs and terminology of the
particular trade or business.” Id. “A fundamental
precept of contract law is that agreements are to be
construed in accordance with the parties’ intent,” and
“[t]he best evidence of what the parties intended is

56a
what they say in their writing.” In re World Trade Ctr.
Disaster Site Litig., 754 F.3d 114, 122 (2d Cir. 2014)
(internal quotation marks removed). “The existence of
an ambiguity is to be ascertained from the face of an
agreement without regard to extrinsic evidence.” Id.
B.

Terms of the APA

In determining whether the APA is effective in
assigning the claims from FrontPoint to FLH, I begin
with the language of the contract. Section 1.1 of the
APA provides that FLH purchases “all of
[FrontPoint’s] right, title and interest in all of the
Assets, including, without limitation, all of
[FrontPoint’s] right, title and interest in all of the
Assets, now or hereafter payable pursuant to any
Recovery Rights . . . .”
This initial, general assignment does not end
the inquiry, because this general assignment is
limited by its very terms: assets are defined as “all of
[FrontPoint’s] right, title, and interest in and to any
and all Recovery Rights and any and all amounts
payable in connection with any of the Existing Claims
and the Future Claims . . . .” APA Art. II. Recovery
Rights are “all monetary, legal and other rights held
by or accruing to [FrontPoint] in respect of such Claim,
including without limitation, the aggregate amount
which [FrontPoint] is, or may become, entitled to
receive pursuant to any Settlement and/or Judgment
in connection with such Claim.” Id.
Claims, in turn, are defined as “the Existing
Claims and the Future Claims.”
APA Art. II.
Relevant here are Future Claims, which the APA
defines as:

57a
[A]ny and all claims of [Frontpoint] to
Recovery Rights related to the ownership
of, or any transaction in, any Included
Securities, in each case, as to which no
Case has been filed as of the date hereof
arising out of: (i) any future securities
class action lawsuit or any Judgment
thereon to the extent related to Seller’s
ownership of, or any transaction in, any
Included Securities; and (ii) any future
holdbacks or reserves under any settled
securities class action lawsuits or any
Judgment thereon, to the extent related
to [FrontPoint’s] ownership of, or any
transaction in, any Included Securities.
Future Claims do not include Recovery
Rights in respect of causes of action and
interests in any state or federal common
law claim, any non-securities related
claim, or any claim related to the
bankruptcy of Lehman Brothers.
APA Art. II.
“Included Securities” is defined as “all
Securities in the Trade Data that were owned, held,
acquired, sold or otherwise disposed of by such Seller
during the Trade Period.” APA Art. II. “Securities”
means “any debt and/or equity securities of any kind,
type, or nature, including, without limitation, stock,
bonds, options, puts, calls, swaps and similar
instruments or rights.” APA Art. II. The APA refers
to both a defined term “Securities” and an undefined
“securities,” used in the definition of Securities and in
other sections, including the definition of Future

58a
Claims. “Trade Data” is defined to mean “all of the
relevant information to be provided by each Seller to
Buyer pursuant hereto and relating to purchases,
sales, ownership and other transactions in all
Included Securities by the Sellers during the Trade
Period. APA Art. II. Trade Period, in turn, is “the
period from and including the date of [FrontPoint’s]
formation or incorporation to and including the
present.” APA Art. II.
Exhibit B of the APA, a notice of assignment to
“Relevant Filing Agents, Claims Administrators,
Brokers, Prime Brokers, [and] Vendors” purports to
disclose the transfer and assignment of “all rights,
title and interest of in and to or associated with, or any
manner to, any and all recovery rights and amounts
payable in connection with any securities related
claims related to or arising out of the Transferor’s
ownership of, or any transaction in, any debt and/or
equity securities of any kind, type, or nature
(including, without limitation, stocks, bonds, options,
puts, calls, swaps and similar instruments or rights) .
. . .”
C.

Motion to Dismiss
1.

The APA Does Not Effect an Assignment
of Claims from FrontPoint to FLH

First, plaintiff argues that the law of the case
doctrine precludes consideration of standing and the
propriety of the claims’ assignment. As discussed,
plaintiff alleged the assignment of claims by
FrontPoint to it for the first time in the TAC. The
issue was not previously decided and is properly before
me now.

59a
Next, plaintiff disputes defendants’ standing to
challenge the assignment of claims under the APA.
Although defendants are not parties to the APA, such
a challenge is clearly appropriate, where, as here,
defendants face legal liability based on claims asserted
pursuant to the assignment. See, e.g., DNAML Pty,
Ltd. v. Apple Inc., 2015 WL 9077075, at *5 (after
analyzing terms of purported assignment agreement,
granting summary judgment for defendants based on
a lack of standing).
Plaintiff’s claim of breach of the implied
covenant of good faith and fair dealing is a “cause[] of
action . . . in [a] state . . . common law claim” and thus
explicitly excluded from the definition of Future
Claims. See FrontPoint Asian Event Driven Fund,
L.P. v. Citibank, N.A., No. 16-cv-5263 (AKH), 2017 WL
3600425, at *1 (S.D.N.Y. Aug. 18, 2017) (“SIBOR I”).
This claim is dismissed for lack of standing.
In order for the contract to have assigned
FrontPoint’s antitrust claims arising under the
Sherman Act, to FLH, the antitrust claims must be,
within the meaning of the contract, “claims . . . arising
out of . . . [a] securities class action lawsuit,” so as to
constitute “unambiguous assignment of causes of
action in a manner that would clearly encompass the
antitrust claim,” DNAML Pty, Ltd. v. Apple Inc., 2015
WL 9077075, at *3, and those claims must not be
excepted from transfer as “non-securities related
claim[s].” APA Art. II.
The APA lacks express language
transferring either “antitrust claims” or “all causes of
action.” DNAML Pty, Ltd. v. Apple Inc., 2015 WL
9077075, at *5. As the APA’s terms and definitions

60a
make clear, assets and causes of action to be
transferred were not total but subject to important
limitations. The APA distinguishes between “security
class action[s],” which were subject to transfer, and
“any non-security related claim[s],” which were not.
Plaintiff urges a broad, generic reading of the
term “security” as employed in the contract. This
interpretation of the contract is inconsistent with the
contract’s terms. By invoking claims arising out of
“securities class actions,” the parties showed an
intention to name and transfer a specific category of
causes of action, to the exclusion of others. See
DNAML Pty, Ltd. v. Apple Inc., 2015 WL 9077075, at
*5 (“Applying the principle expressio unius est
exclusio[] alterius, the inclusion of these specific
transfer provisions confirms that the parties to the
Agreement were aware of how to transfer legal claims,
chose to transfer specific rights that they delineated,
and did not intend a general transfer of all legal
claims.”). Even if “securities class actions” could be
understood to include antitrust actions such as this
one, it hardly constitutes an “unambiguous
assignment” required by federal law. DNAML Pty,
Ltd. v. Apple Inc., 2015 WL 9077075, at *3. This
understanding is further enforced by the parties’
explicit exception of any “causes of action and interests
in . . . any non-securities related claim.” APA Art. II.
Securities and antitrust claims are distinct.
See, e.g., Masters v. Wilhelmina Model Agency, Inc.,
473 F.3d 423, 437 (2d Cir. 2007) (distinguishing
“antitrust class actions” from “securities class
actions”); In re LIBOR-Based Fin. Instruments
Antitrust Litig., No. 11 MDL 2262 (NRB), 2015 WL

61a
6243526, at *150 (S.D.N.Y. Oct. 20, 2015)
(distinguishing “Securities Act claims” from “antitrust
. . . claims”). Absent some explicit definition in the
APA, a securities class action lawsuit is understood as
a suit arising out of the securities laws, mirroring its
use by other courts. See, e.g., Halliburton Co. v. Erica
P. John Fund, Inc., 573 U.S. 258, 275 (2014)
(discussing, inter alia, the operation of “securities
class actions” in the context of the U.S. securities
laws).
As plaintiff points out, the APA defines
“Securities” broadly, to encompass a wide array of
financial instruments, but the wide scope of securities
and securities-adjacent instruments nowhere suggests
that “securities class action lawsuit” should also
encompass antitrust claims. APA Art. II. While the
broadly delimited term “Securities” is explicitly
defined by the APA, the lowercase-s “securities class
action” and “non-securities related claim” used to
define Future Claims are not, making “security”
suitable for interpretation in light of common
understanding.
In further support of its interpretation of the
APA, plaintiff cites the declaration of T. A. McKinney,
a former general counsel of FrontPoint. ECF 345.
Because I conclude that the terms of the APA are
unambiguous on their face, it is unnecessary and
inappropriate to apply extrinsic evidence here.
Baldwin v. EMI Feist Catalog, Inc., 805 F.3d 18, 31 (2d
Cir. 2015) (“[c]onsideration of extrinsic evidence is
only permissible where the contract at issue is
ambiguous”); In re World Trade Ctr. Disaster Site
Litig., 754 F.3d at 122; DNAML Pty, Ltd. v. Apple Inc.,

62a
2015 WL 9077075, at *6. The APA does not assign the
claims at issue in this case, and plaintiff lacks
standing to assert them.
2.

Plaintiff’s Substitution Under Rule
17(a)(3) Is Improper and its Claims are
Untimely

There is another reason for dismissing the TAC.
Because FrontPoint and Sonterra lacked capacity to
sue, there was no real “case or controversy” before the
court and, consequently, no subject matter
jurisdiction. See U.S. Const. Art III; Cortlandt, 790
F.3d at 417. The substitution of FLH under Fed. R.
Civ. P. 17(a)(3) could not repair the basic deficiency of
Frontpoint’s and Sonterra’s pleading, since Rule 17
allows substitutions to cure mistakes, not repair an
absent substance.
Cortland, 790 F.3d at 424
(substitution of parties allowed where it can cure “a
mistake . . . as to the person entitled to bring such suit
and such substitution will not alter the substance of
the action.”). As the Second Circuit observed in
dictum, “‘[I]n the absence of a plaintiff with standing .
. . there [is] no lawsuit for the real party in interest to
ratify, join, or be substituted into under Rule 17(a)(3)
or otherwise.’ Whether the real party in interest [that
is, Fund] made a mistake [by not suing originally] does
not even enter into consideration.” Klein ex rel. Qlik
Techs., Inc. v. Qlik Techs., Inc., 906 F.3d 215, 227 n.7
(2d Cir. 2018) (internal citation omitted) (quoting
Cortlandt, 790 F.3d at 423); see Dennis v. JPMorgan
Chase & Co., 342 F. Supp. 3d 404, 416 (S.D.N.Y. 2018).
Although I gave leave to Frontpoint and Sonterra to
substitute Fund, my order could not confer jurisdiction
where it did not originally exist.

63a
FLH, if it were a proper assignee, could file a
claim of its own that mirrored the complaint filed by
Frontpoint and Sierra. However, its complaint would
be a new filing, not capable of relating back in time to
Frontpoint’s and Sonterra’s filing. The four-year
statute of limitations, running from no later than June
2013, would bar Fund from now filing such suit (or at
the time it filed the TAC, October 26, 2019). 15 U.S.C.
§ 15b.
D.

Motion
for
Approval

Preliminary

Settlement

Plaintiff moves, with Citibank, N.A. and
JPMorgan Chase Bank, N.A., for preliminary approval
of their respective settlement agreements. These
motions are denied, for the Court lacks subject matter
jurisdiction.
A court’s approval of a settlement requires a
finding by the court that there is subject matter
jurisdiction. See Frank v. Gaos, 139 S. Ct. 1041, 1046
(2019) (“A court is powerless to approve a proposed
class settlement if it lacks jurisdiction over the
dispute, and federal courts lack jurisdiction if no
named plaintiff has standing.”); see also Denney v.
Deutsche Bank AG, 443 F.3d 253, 264 (2d Cir. 2006)
(“[N]o class may be certified that contains members
lacking Article III standing.”); Zink v. First Niagara
Bank, N.A., 155 F. Supp. 3d 297, 305 (W.D.N.Y. 2016)
(“[U]ncertainty as to subject matter jurisdiction
cannot be treated merely as a factor to be weighed in
the settlement equation.
Unless subject matter
jurisdiction is established, I cannot even consider the
Uncontested Motion, much less approve it.”).

64a
At the May 2, 2019 hearing, plaintiff raised the
argument that, even if the Court lacks subject matter
jurisdiction over the case because of the infirm
assignment of rights from FrontPoint to FLH, it may
have jurisdiction based on the somewhat broader
language of the assignment of claims from Sonterra to
FLH. However, Sonterra’s were dismissed because it
was not an efficient enforcer. FrontPoint Asian Event
Driven Fund, L.P. v. Citibank, N.A., 2018 WL
4830087, at *6. FLH, as assignee, has no greater
capacity than its assignor.
E.

Motion to
Complaint

File

a

Fourth

Amended

Plaintiff also moves to file a Fourth Amended
Complaint and amend the Third Amended Complaint,
adding an additional plaintiff in an attempt to cure the
antitrust standing issues identified by the Court in
SIBOR II, where I found that FrontPoint, was not an
efficient enforcer for USD SIBOR or SOR, because it
transacted in derivatives incorporating only SGD
SIBOR. FrontPoint Asian Event Driven Fund, L.P. v.
Citibank, N.A., 2018 WL 4830087, at *5. The Fourth
Amended Complaint purports to cure the deficiency by
adding new plaintiffs, Moon Capital Partners Master
Fund, Ltd. and Moon Capital Master Fund, Ltd
(collectively, the “Moon plaintiffs”). Plaintiff alleges
that both transacted in SGD FX forwards that
incorporated both USD SIBOR and SOR benchmarks.
This motion is denied for the same reasons that
the TAC is dismissed: the inadequate assignment of
claims to FLH from FrontPoint has deprived the Court
of subject matter jurisdiction. In addition, the new
claims of the Moon plaintiffs correspond to events that

65a
occurred more than eight years ago and are timebarred. Class action tolling under American Pipe
applies only to the extent that new plaintiffs can join
the class individually or file individual claims if the
class fails. See China Agritech, Inc. v. Resh, 138 S. Ct.
1800, 1804 (2018). The Moon plaintiffs cannot bring a
new class action or otherwise revive an otherwise
infirm action. The alternative reading “would allow
the statute of limitations to be extended time and
again; as each class is denied certification, a new
named plaintiff could file a class complaint that
resuscitates the litigation.” Id. at 1808.
Conclusion
Because the APA does not effect the assignment
of claims from FrontPoint to FLH, plaintiff lacks
standing to bring its antitrust and breach of the
implied covenant of good faith and fair dealing claims.
Defendants’ motion to dismiss the case is granted.
Pursuant to my oral order at the May 2, 2019 hearing,
Tr. at 5:11–16, plaintiff shall file an unredacted copy
of the APA on the docket. See Lugosch v. Pyramid Co.
of Onondaga, 435 F.3d 110, 124 (2d Cir. 2006). The
motions for preliminary approval of the class
settlements and to file a Fourth Amended Complaint
are also denied.
The clerk is instructed to terminate the motions
(ECF 318, 314, 347), grant judgment to defendants,
and close the case.
SO ORDERED.
Dated: July 26 , 2019
New York, New
York

s/Alvin K. Hellerstein
Alvin K. Hellerstein

66a
United States District
Judge

68a
PARIBAS SECURITIES
:
CORP., BNP PARIBAS PRIME :
BROKERAGE, INC.,
:
OVERSEA-CHINESE
:
BANKING CORPORATION
:
LTD., BARCLAYS PLC,
:
BARCLAYS BANK PLC,
:
BARCLAYS CAPITAL INC.,
:
DEUTSCHE BANK AG,
:
CREDIT AGRICOLE
:
CORPORATE AND
:
INVESTMENT BANK,
:
CREDIT AGRICOLE S.A.,
:
CREDIT SUISSE GROUP AG, :
CREDIT SUISSE AG, CREDIT :
SUISSE INTERNATIONAL,
:
STANDARD CHARTERED
:
BANK, STANDARD
:
CHARTERED PLC, DBS BANK :
LTD., DBS GROUP
:
HOLDINGS LTD, DBS
:
VICKERS SECURITIES (USA) :
INC., UNITED OVERSEAS
:
BANK LIMITED, UOB
:
GLOBAL CAPITAL, LLC,
:
AUSTRALIA AND NEW
:
ZEALAND BANKING GROUP, :
LTD., ANZ SECURITIES, INC., :
THE BANK OF TOKYO:
MITSUBISHI UFJ, LTD., THE :
HONGKONG AND SHANGHAI :
BANKING CORPORATION
:
LIMITED, HSBC BANK USA, :
N.A., HSBC HOLDINGS PLC, :

70a
ALVIN K. HELLERSTEIN, U.S.D.J.:
Defendants move to dismiss plaintiffs’ First
Amended Class Action Complaint (“FAC”). Plaintiffs,
FrontPoint Asian Event Driven Fund L.P.
(“FrontPoint”) and Sonterra Capital Master Fund,
Ltd. (“Sonterra”), investment funds, sue defendants,
46 corporate entities representing 20 banking
institutions.
Plaintiffs allege that defendants
conspired to manipulate the price of two related
benchmark interest rates: the Singapore Interbank
Offered Rate (“SIBOR”) and the Singapore Swap Offer
Rate (“SOR”). Plaintiffs allege that they entered into
transactions involving financial products whose price
was impacted by SIBOR and/or SOR, and were
economically injured as a result of defendants’ alleged
manipulation of those benchmarks. Plaintiffs assert
claims under the Sherman Act, 15 U.S.C. § 1 et seq.,
and the Racketeer Influenced and Corrupt
Organizations Act (“RICO”), 18 U.S.C. § 1961 et seq.
Plaintiffs also allege common law claims of unjust
enrichment and breach of implied covenants of good
faith and fair dealing.
Defendants move to dismiss the FAC for lack of
subject matter jurisdiction and for failure to state a
legally sufficient and plausible claim. A subset of the
defendants (“Foreign Defendants”) move also to
dismiss for lack of personal jurisdiction over them.
After considering the briefs submitted by the parties
and their oral arguments, for the reasons discussed in
this opinion and order, I hold that defendants’ motion
is granted in part and denied in part. I grant plaintiffs
leave to file a second amended complaint, except with

71a
respect to their unjust enrichment claim, which is
dismissed with prejudice.
I.

The First Amended Complaint

SIBOR and SOR. The Singapore Interbank
Offered Rate (“SIBOR”) and the Singapore Swap Offer
Rate (“SOR”) are related benchmark interest rates
that are meant to reflect the cost of borrowing funds in
the Singapore market. Both SIBOR and SOR are
administered by the Association of Banks in Singapore
(“ABS”), a trade group made up of many of the
defendants in this case. FAC ¶ 1. Each day, Thomson
Reuters, as agent of ABS, calculates the daily SIBOR
rate, based on interest rate quotes submitted by a
panel of banks, including many of the defendants.
Thomson Reuters, applying a set formula, calculates
an average rate, and publishes that average each day
as the SIBOR rate. FAC ¶¶ 101-02. SOR, a related
benchmark interest rate that is in part based on the
SIBOR rate, is also meant to reflect the cost of
borrowing Singapore dollars, but is premised on a
foreign exchange swap in which U.S. dollars are to be
exchanged for Singapore dollars at a specified future
date, using a price that reflects current value of
Singapore dollars, i.e., the “spot rate.” FAC ¶ 103.
Thomas Reuters publishes the SIBOR and SOR rate
for four different maturities, which are also known as
tenors: one, three, six, and twelve months. FAC ¶ 102.
Defendants’ Alleged Conspiracy to Manipulate
SIBOR and SOR. Plaintiffs allege that during the
class period, trillions of dollars of “SIBOR- and SORbased derivatives” – that is, financial derivatives that
incorporate SIBOR and/or SOR as a component of
price – were traded within the United States,

72a
including interest rate swaps, forward rate
agreements, foreign exchange swaps and foreign
exchange forwards. FAC ¶¶ 104, 115-119.
Plaintiffs allege that in June 2013, the
Monetary Authority of Singapore (“MAS”), Singapore’s
central bank and financial regulator, “announced that
it had uncovered a massive conspiracy by Defendants
to rig the prices of financial derivatives that
incorporate SIBOR and/or SOR as a component of
price.”
FAC ¶ 2.
Plaintiffs allege that MAS
“uncovered rare ‘smoking gun’ evidence of
anticompetitive conduct,” FAC ¶ 3, and that “MAS
found that” several of the defendants “manipulated
SIBOR and SOR.” See, e.g., FAC ¶¶ 23, 26, 54.
However, the June 13, 2013 MAS press release, upon
which plaintiffs base these allegations, contains none
of these findings. Rather, MAS stated that “twenty
banks were found to have deficiencies in the
governance, risk management, internal controls, and
surveillance systems for their involvement in
benchmark submissions.” Porpora Decl., Ex. A. MAS
also stated that “a total of 133 traders were found to
have engaged in several attempts to inappropriately
influence the benchmarks,” but noted that “there is no
conclusive finding that SIBOR, SOR and FX
Benchmarks were successfully manipulated.” Id.
Many of defendants’ SIBOR and SOR derivative
traders were fired or disciplined in the wake of the
MAS investigation. FAC ¶¶ 129-33.
Plaintiffs also allege that “U.S. and U.K.
regulators confirmed MAS’ findings that Defendants
manipulated SIBOR and SOR.”
FAC ¶ 126.
Specifically, plaintiffs allege that the Commodity

73a
Futures Trading Commission (“CFTC”) found that
defendants Deutsche Bank, RBS, and UBS “all
manipulated SIBOR and SOR during the Class Period
and engaged in ‘similar misconduct’ to the methods
these Defendants used to manipulate other financial
benchmarks.” Id. These allegations are based on the
CFTC’s settlements with these three defendants
regarding their manipulation of other benchmark
interest rates not at issue in this case, such as LIBOR
and Euribor.
The Deutsche Bank settlement
contained a footnote stating that “through its internal
investigation, Deutsche Bank identified evidence of
similar misconduct with respect to attempts to
influence, and at times attempts to manipulate, other
interest rate benchmarks,” including SIBOR and SOR.
Porpora Decl. Ex. I at 3, n.3. The UBS settlement
contains a similar footnote stating that “through its
internal investigation, UBS identified evidence of
similar misconduct involving submissions for” SIBOR
and SOR. Porpora Decl. Ex. H at 38, n.21. The RBS
settlement likewise contained a footnote stating that
“RBS traders engaged in similar misconduct in
connection with” SIBOR and SOR. Porpora Decl. Ex.
J at 4, n.3.
Plaintiffs also allege that the U.K.’s Financial
Services Authority (“FSA”), in its settlement with RBS
with respect to LIBOR manipulation, found that RBS
traders made at least 34 written requests to
manipulate SIBOR and SOR. FAC ¶ 28.
Lastly, plaintiffs allege what they describe as
“economic evidence,” which they present as proof that
SIBOR and SOR were manipulated during the
relevant period. Plaintiffs’ economic evidence is

74a
premised on the assumption that “because SOR and
SIBOR both represent the cost of borrowing Singapore
dollars, the ‘law of one price’ dictates that the
difference, or ‘spread,’ between the same tenor of SOR
and SIBOR should be very small absent manipulation,
since the cost of borrowing Singapore dollars for the
same amount of time should be roughly the same.”
FAC ¶ 134. Put more simply, plaintiffs allege that the
SIBOR and SOR rates should generally be the same.
Plaintiffs’ economic evidence consists of three charts
showing that for three different tenors (one-month,
three-month, and six-month), the spread between
SIBOR and SOR became more pronounced and erratic
during the relevant period. FAC ¶¶ 134-141. Prior to
the start of the Class Period, for example, SOR’s
relationship to SIBOR was generally positive; that is,
the SOR rate was higher than the SIBOR rate. During
the Class Period, however, the SOR’s relationship to
SIBOR fluctuated, and at times became negative. In
addition to this fluctuation, the spread also became
more pronounced during the Class Period; that is, the
spread became larger. Plaintiffs allege that this
fluctuation and variability “indicates that both SIBOR
and SOR were manipulated to artificial levels during
the Class Period.” FAC ¶ 137.
Allegations of Personal Jurisdiction. Plaintiffs
allege five bases of personal jurisdiction against the
Foreign Defendants. First, plaintiffs allege that
certain defendants “purposefully availed themselves
of the privilege and benefit of trading foreign exchange
and/or interest rate derivatives, including SIBOR- and
SOR-based derivatives, in the United States.” FAC ¶
13. In support of this allegation, the plaintiffs cite to
a survey conducted every three years by the Federal

75a
Reserve Bank of New York, which “measures the
‘turnover,’ or volume of transactions, in foreign
exchange and interest rate derivatives within the
United States.” Id. According to plaintiffs, the fact
that some of the defendants participated in this survey
is evidence that those defendants engaged in domestic
trading of SIBOR- and SOR-based derivatives.
Plaintiffs do not explain how this trading, to the extent
it occurred, relates to the alleged conspiracy to
manipulate SIBOR and SOR.
Second, plaintiffs allege, generally, that
defendants purposefully directed their wrongful
conduct at the United States. Plaintiffs allege that
“through their daily electronic transmission of false
SIBOR submissions and confirmations for collusive
transactions intended to impact SIBOR and SOR,
Defendants themselves transmitted and caused
Thomson Reuters to electronically transmit false
SIBOR and SOR rates to U.S. market participants
who transacted in SIBOR- and SOR-based
derivatives.” FAC ¶ 14.
Third, plaintiffs allege that defendants’ illegal
conduct “had direct, substantial, and foreseeable
effects on commerce in the United States.” FAC ¶ 16.
Fourth, plaintiffs allege that certain defendants
consented to general jurisdiction in New York by
registering New York branches with the New York
State Department of Financial Services pursuant to
New York Banking Law Section 200. FAC ¶ 17
Lastly, plaintiffs allege that defendant
Deutsche Bank consented to jurisdiction in New York
by entering into an ISDA Master Agreement with
plaintiff FrontPoint, under which the parties agreed to

76a
the jurisdiction of the courts of New York and United
States District Courts of the Southern District of New
York. FAC ¶ 18.
II.

Foreign Defendants’ Motion to Dismiss for
Lack of Personal Jurisdiction

The Foreign Defendants1 move pursuant to
Rules 12(b)(2) and 12(b)(3) to dismiss the FAC for lack
of personal jurisdiction and venue.
a.

General Jurisdiction by Consent

Plaintiffs concede that the Foreign Defendants
are not subject to general jurisdiction because they are
not “essentially at home” in New York or the United
States. Daimler AG v. Bauman, 134 S. Ct. 746, 751
(2014). Plaintiffs argue, however, that certain Foreign
Defendants consented to general jurisdiction in New
York by registering New York branches with the New
York State Department of Financial Services pursuant
to New York Banking Law § 200. FAC ¶ 18. This
argument fails.

The Foreign Defendants are: Australia and New Zealand
Banking Group, Ltd.; Barclays plc; Barclays Bank plc; BNP
Paribas, S.A.; Crédit Agricole Corporate and Investment Bank;
Crédit Agricole S.A.; Credit Suisse Group AG; Credit Suisse AG;
Credit Suisse International; Commerzbank AG; DBS Bank Ltd.;
DBS Group Holdings Ltd; Deutsche Bank AG; HSBC Holding plc;
ING Groep N.V.; ING Bank N.V.; Macquarie Bank Ltd.;
Macquarie Group Ltd; The Royal Bank of Scotland plc; The Royal
Bank of Scotland Group plc; RBS Securities Japan Limited;
Standard Chartered Bank; Standard Chartered PLC; The Bank
of Tokyo-Mitsubishi UFJ, Ltd; The Hong Kong and Shanghai
Banking Corporation Limited; The Oversea-Chinese Banking
Corporation Ltd.; UBS AG, UBS Securities Japan Co. Ltd.; and
United States Overseas Bank Limited.
1

77a
Section 200(3) provides that a foreign banking
corporation may not do business in New York:
unless such corporation shall have ...
[f]iled in the office of the superintendent
... a duly executed instrument in writing,
by its terms of indefinite duration and
irrevocable,
appointing
the
superintendent and his or her successors
its true and lawful attorney, upon whom
all process in any action or proceeding
against it on a cause of action arising out
of a transaction with its New York
agency or agencies or branch or branches,
may be served with the same force and
effect as if it were a domestic corporation
and had been lawfully served with
process within the state.
New York Banking Law § 200(3).
By its express terms, this statute limits a
foreign bank’s consent to suits “arising out of a
transaction with its New York agency or agencies or
branch or branches,” and is thus relevant only to
specific jurisdiction, not general jurisdiction. Courts
have been virtually unanimous in concluding that this
statute does not provide for general jurisdiction. See,
e.g., Sullivan v. Barclays PLC, 2017 WL 685570, at *39
(S.D.N.Y. Feb. 21, 2017) (“The statute does not
establish a consent to jurisdiction by the branch’s
foreign parent, and courts in this District have
uniformly rejected plaintiffs’ argument.”); 7 W. 57th
St. Realty Co., LLC v. Citigroup, Inc., 2015 WL
1514539, at *11 (S.D.N.Y. Mar. 31, 2015) (“The plain
language of this provision limits any consent to

78a
personal jurisdiction by registered banks to specific
personal jurisdiction.”); In re: LIBOR-Based Fin.
Instruments Antitrust Litig. (“LIBOR VI”), 2016 WL
1558504, at *7 (S.D.N.Y. Apr. 15, 2016) (“[T]he most
natural reading of the provision does not provide
general jurisdiction.”).
As the Second Circuit recently explained in
Brown v. Lockheed Martin Corp., 814 F.3d 619 (2d Cir.
2016), which involved the question of whether
Connecticut’s registration statute could give rise to
general jurisdiction, interpreting registration statutes
such as New York Banking Law § 200 to confer general
jurisdiction would “risk unravelling the jurisdictional
structure envisioned in Daimler and Goodyear based
only on a slender inference of consent pulled from
routine bureaucratic measures that were largely
designed for another purpose entirely.” Brown, 814
F.3d at 639. A corporation’s consent to be sued in a
particular jurisdiction for any cause of action must be
explicit, not inferential, for if “mere registration and
the accompanying appointment of an in-state agent—
without an express consent to general jurisdiction—
nonetheless sufficed to confer general jurisdiction by
implicit consent, every corporation would be subject to
general jurisdiction in every state in which it
registered, and Daimler’s ruling would be robbed of
meaning by a back-door thief.” Id. at 640.
Plaintiffs point to dicta in Brown, in which the
Second Circuit referred to a New York registration
statute as one that “more plainly advise[s] the
registrant that enrolling in the state as a foreign
corporation and transacting business will vest the
local courts with general jurisdiction over the

79a
corporation.” Id. However, it does not appear that the
Second Circuit was even referring to New York
Banking Law § 200, for the law review article it cited
for this proposition contained only a discussion of New
York Business Corporation Law § 1301, a different
statute. Regardless, under no plausible reading does
Section 200 “plainly advise” corporations that
complying with the statute will subject them to
general jurisdiction in New York, and no court has
held as much since the Second Circuit’s decision in
Brown.
My decision in Vera v. Republic of Cuba, 91 F.
Supp. 3d 561 (S.D.N.Y. 2015) (Hellerstein, J.) is
distinguishable. That decision concerned whether a
foreign bank with branches registered in New York
must identify assets of judgment debtors over which it
has custody, regardless of where the particular
branches holding those assets might be located. I
answered that question in favor of disclosure in order
to avoid “a notion of jurisdiction that allows banks to
hide information concerning assets connected to
terrorism in other countries.” 91 F. Supp. 3d at 570–
71. The questions and concerns raised in Vera are not
present here. In any event, the Second Circuit
recently reversed my decision in Vera, holding that I
lacked subject matter jurisdiction over the action. See
Vera v. Republic of Cuba, No. 16-1227, 2017 WL
3469204 (2d Cir. Aug. 14, 2017).
Plaintiffs may not use New York’s registration
statute as a basis for asserting general jurisdiction
over the Foreign Defendants.

80a
b.

Specific Jurisdiction

“For a State to exercise jurisdiction consistent
with due process, the defendant’s suit-related conduct
must create a substantial connection with the forum
State.” Walden v. Fiore, 134 S. Ct. 1115, 1121 (2014).
The exercise of specific jurisdiction thus “depends on
in-state activity that ‘gave rise to the episode-in-suit.’”
Waldman v. Palestine Liberation Org., 835 F.3d 317,
331 (2d Cir. 2016) (quoting Goodyear Dunlop Tires
Operations, S.A. v. Brown, 564 U.S. 915, 923 (2011)).
However, the FAC contains no plausible allegations
that any conduct related to the conspiracy to
manipulate SIBOR and SOR occurred within the
United States. Plaintiffs do not allege that the
conspiracy originated in the United States, or that
Foreign Defendants who served as panel members
submitted manipulative rates from within the United
States.2

I assume for purposes of this motion, without expressly holding,
that the relevant geographic area is the United States as a whole,
and not just New York. See In re Magnetic Audiotape Antitrust
Litig., 334 F.3d 204, 207 (2d Cir. 2003) (assuming that Section 12
of the Clayton Act permits a minimum contacts analysis that
“looks to a corporation’s contacts with the United States as a
whole to determine if the federal court’s exercise of personal
jurisdiction comports with due process.”); In re LIBOR-Based Fin.
Instruments Antitrust Litigation, (“LIBOR IV”), 2015 WL
6243526, at *23 and n. 39 (noting that “courts in this Circuit
commonly hold” that the minimum-contacts test should consider
nationwide contacts when the “jurisdictional issue flows from a
federal statutory grant that authorizes suit under federalquestion jurisdiction and nationwide service of process,” and
noting further that nothing in recent Supreme Court opinions
such as Daimler and Walden “so much as hints that the national
2

81a
i.

Suit-Related Conduct

Instead of directly alleging facts in their
pleading, plaintiffs instead contend that an inference
of U.S.-based suit-related conduct can be drawn from
a document referenced in the FAC. Specifically,
Deutsche Bank’s settlement with CFTC, which
concerned manipulation of other benchmarks (LIBOR
and Euribor), states that Deutsche Bank’s
manipulative conduct “occurred across multiple
trading desks and offices,” including New York. A
footnote then states that through its internal
investigation, Deutsche Bank “identified evidence of
similar misconduct” with respect to attempts to
manipulate other interest rate benchmarks, including
SIBOR and SOR. Porpora Decl. Ex. I at 2-3, n.3. This
footnote contains no specific facts regarding U.S.based attempts to manipulate SIBOR or SOR, and
cannot serve as a basis for exercising jurisdiction over
the twenty-nine Foreign Defendants.
I cannot
reasonably infer that suit-related conduct occurred
within the United States based on such a generalized,
ambiguous statement, or on similar statements made
in the CFTC’s settlements with UBS and RBS.
Plaintiffs also attempt to connect some of the
Foreign Defendants to the United States by alleging
that those defendants entered into “manipulative” or
“collusive” transactions involving SIBOR- and SORbased derivatives with counterparties in the United
States.
FAC ¶¶ 8, 15.
Plaintiffs’ conclusory
allegations are not sufficient to make these
transactions “suit-related.” Walden, 134 S. Ct. at 1121
contacts rule might be unconstitutional where it is supported by
a federal statute.”).

82a
(2014). Plaintiffs fail to allege which defendants
entered into which derivative contracts, how these
trades were collusive, or how they related to the
alleged fixing of the SIBOR and SOR rates. In In re
Platinum & Palladium Antitrust Litig., 2017 WL
1169626 (S.D.N.Y. Mar. 28, 2017), for example, one of
the foreign defendants was alleged to have traded the
commodity at issue within the United States. The
court held that this was insufficient to establish
jurisdiction over the defendant because that trading
had no connection to the wrongful conduct at issue:
manipulation of a pricing benchmark that occurred
outside of the United States. Id. at *45. Similarly, in
Sullivan v. Barclays PLC, 2017 WL 685570 (S.D.N.Y.
Feb. 21, 2017), which involved alleged manipulation of
the Euribor benchmark, the court acknowledged that
“some of [defendant’s] counterparties were located in
the United States,” but held that absent a United
States nexus to the manipulation, “the presence of
U.S. victims alone does not make out jurisdiction.” Id.
at *44.
The Supreme Court’s recent decision in BristolMyers Squibb Co. v. Superior Court of California, San
Francisco Cty., 137 S. Ct. 1773 (2017) did not ease the
standard for pleading personal jurisdiction, as
plaintiffs suggest. In that case, the Supreme Court
merely applied its “settled principles regarding
specific jurisdiction,” and held that there “must be an
‘affiliation between the forum and the underlying
controversy, principally, [an] activity or an occurrence
that takes place in the forum State.’” 137 S. Ct. at
1781 (quoting Goodyear, 564 U.S. at 919). But when
“there is no such connection, specific jurisdiction is
lacking regardless of the extent of a defendant’s

83a
unconnected activities in the State.” Id. As currently
alleged, the relevant conduct giving rise to plaintiffs’
alleged injury occurred elsewhere: Singapore. The fact
that defendants may have engaged in non-suit related
activity in the United States does not change this
result.
But even if plaintiffs had adequately alleged
that this derivative trading was “suit-related,”
plaintiffs have failed to allege that the Foreign
Defendants actually engaged in such trading.
Plaintiffs do not identify any specific trades or
contracts that are alleged to have been collusive, nor
do they identify which Foreign Defendants were party
to such transactions. Instead, plaintiffs refer to two
surveys conducted by the Federal Reserve Bank of
New York (“FRBNY”), which polled participants in the
derivatives market, including some of the defendants.
The purpose of the surveys was to determine the
volume of trading of various derivatives in the United
States.
In light of certain Foreign Defendants’
participation in these surveys, plaintiffs urge the
Court to infer that those defendants engaged in
collusive trading of SIBOR-based derivatives with
U.S. counterparties. But the surveys make no specific
mention of SIBOR- or SOR-based derivatives; they
merely concern the swaps and derivatives market
generally. Nor do the surveys identify the specific
corporate entities that participated. For example, the
survey identifies “BNP Paribas” as a participant, but
it is impossible to know whether this refers to BNP
Paribas, S.A., which has moved to dismiss for lack of
personal jurisdiction, or to BNP Paribas North
America, Inc., which does not object to jurisdiction.
For purposes of alleging that there is personal

84a
jurisdiction over each Foreign Defendant, plaintiffs
may not refer to affiliated defendants by a conclusory
collective name unless plaintiffs adequately allege
that the conduct of one affiliate is attributable to
another.3
Plaintiffs must do more than infer that the
Foreign Defendants likely were participants in the
U.S. derivatives market. They must allege specific
facts that plausibly suggest that the Foreign
Defendants entered into SIBOR- and SOR-based
transactions with counterparties based in the United
States, and that those transactions had a nexus to the
benchmark interest rate manipulation at issue in this
lawsuit.
i.

Purposeful Direction

Plaintiffs argue that the Foreign Defendants
purposefully directed their wrongdoing at the United
States by submitting false interest rates to Thomson
Reuters, knowing that Thomson Reuters, as agent for
the Association of Banks of Singapore (“ABS”), the
trade group that administers SIBOR and SOR, would
publish an average of those rates as the daily SIBOR
rate throughout the United States and other areas of
the world. FAC ¶¶ 15, 102.

For this same reason, plaintiffs’ allegation that certain Foreign
Defendants have offered SIBOR- and SOR-based derivatives
using the Bloomberg Terminal cannot serve as a basis for
jurisdiction. For example, plaintiffs allege that “Barclays”
marketed SIBOR-based derivatives using the Bloomberg
Terminal, but do not specify which of the three Barclay
defendants did so.
3

85a
Under the so-called “effects” test, specific
jurisdiction may exist where an out-of-forum
defendant purposefully directed the wrongful conduct
at the forum. “The effects test is a theory of personal
jurisdiction typically invoked where ... the conduct
that forms the basis for the controversy occurs entirely
out-of-forum, and the only relevant jurisdictional
contacts with the forum are therefore in-forum effects
harmful to the plaintiff. In such circumstances, the
exercise
of
personal
jurisdiction
may
be
constitutionally permissible if the defendant expressly
aimed its conduct at the forum.” Licci ex rel. Licci v.
Lebanese Canadian Bank, SAL, 732 F.3d 161, 173 (2d
Cir. 2013). Thus, where the alleged conduct took place
outside of the forum, as is the case here, the defendant
must have ‘“purposefully directed’ his activities at
residents of the forum.” In re Terrorist Attacks on
Sept. 11, 2001, 714 F.3d 659, 674 (2d Cir. 2013)
(quoting Burger King Corp. v. Rudzewicz, 471 U.S.
462, 472-73 (1985)).
The
FAC
contains
no
non-conclusory
allegations that the Foreign Defendants purposefully
directed their activities at residents of the United
States. The consequences of the Foreign Defendants’
conduct were global, and the FAC contains no
allegations that the Foreign Defendants singled out
the United States as their target. See 7 W. 57th St.
Realty Co., 2015 WL 1514539, at *11 (“Because the
Amended Complaint does not plead facts
demonstrating that the LIBOR manipulation was
done with the express aim of causing an effect in New
York, the ‘effects test’ is not satisfied.”); In re Platinum
& Palladium Antitrust Litig., 2017 WL 1169626, at
*44 (absent allegation that defendant’s conduct was

86a
expressly aimed at the United States, the fact “that
Defendants’ alleged manipulation of the Fix Price had
harmful effects on U.S.-based exchanges is
insufficient” to confer personal jurisdiction).
Nor can plaintiffs argue that the Foreign
Defendants should have been aware of these effects,
for “it is bedrock law that merely foreseeable effects of
defendants’ conduct do not support personal
jurisdiction.” LIBOR IV, 2015 WL 6243526, at *32
(S.D.N.Y. Oct. 20, 2015); see also In re Terrorist
Attacks, 714 F.3d at 674 (“The fact that harm in the
forum is foreseeable, however, is insufficient for the
purpose of establishing specific personal jurisdiction
over a defendant.”). Moreover, the “fact that electronic
communications were routed through U.S.-wires or
servers, or that recipients of those communications
were located in the United States, is insufficient to
establish minimum contacts with the United States.”
Laydon v. Bank of Tokyo-Mitsubishi UFJ, Ltd.
(“Laydon V”), 2017 WL 1113080, at *3 (S.D.N.Y. Mar.
10, 2017). Finally, to the extent plaintiffs rely on
conduct of third-party Thomson Reuters that relates
to the United States, such reliance is insufficient, for
the relationship with the forum “must arise out of
contacts that the ‘defendant himself’ creates with the
forum State.” Walden, 134 S. Ct. at 1122.
c.

Conspiracy Jurisdiction

Plaintiffs also contend that the Foreign
Defendants are subject to personal jurisdiction under
a theory of conspiracy jurisdiction. “The underlying
rationale for exercising personal jurisdiction on the
basis of conspiracy is that, because co-conspirators are
deemed to be each other’s agents, the contacts that one

87a
co-conspirator made with a forum while acting in
furtherance of the conspiracy may be attributed for
jurisdictional purposes to the other co-conspirators.”
LIBOR IV, 2015 WL 6243526, at *29.
Federal courts “have been increasingly
reluctant to extend this theory of jurisdiction beyond
the context of New York’s long-arm statute.” Laydon
v. Mizuho Bank, Ltd., 2015 WL 1515358, at *3
(S.D.N.Y. Mar. 31, 2015); see also In re Aluminum
Warehousing Antitrust Litig., 90 F. Supp. 3d 219, 227
(S.D.N.Y. 2015) (rejecting notion that “participation in
a conspiracy generally can provide a standalone basis
for jurisdiction,” for the “rules and doctrines applicable
to personal jurisdiction are sufficient without the
extension of the law to a separate and certainly
nebulous ‘conspiracy jurisdiction’ doctrine.”).
Plaintiffs have failed to allege facts sufficient to
support their conspiracy jurisdiction theory. Even
assuming that plaintiffs have plausibly alleged the
existence of a conspiracy, they have not alleged that
any defendant – including those who do not contest
jurisdiction – committed any act in furtherance of the
conspiracy from within the United States or
purposefully directed its misconduct at the United
States. If the conspiracy has no connection to the
United States, it cannot serve as a basis for
jurisdiction, even if some of the alleged members of the
conspiracy are subject to general jurisdiction in the
United States. See LIBOR VI, 2016 WL 7378980, at
*3 (“Because plaintiffs have failed to establish that
any defendant committed an act in furtherance of the
conspiracy in or directed at the United States, this
Court has only general personal jurisdiction over

88a
certain panel banks as to the antitrust claims, and
therefore the conspiracy jurisdiction argument has no
purchase.”); In re Platinum & Palladium Antitrust
Litig., 2017 WL 1169626, at *49 (rejecting theory of
conspiracy jurisdiction on grounds that “because
Plaintiffs failed to allege that any conduct relevant to
the alleged price manipulation took place in New York,
they have failed to allege sufficient facts to establish
personal jurisdiction on that basis.”).4
d.

Deutsche
Bank’s
Jurisdiction

Consent

to

Plaintiff FrontPoint alleges that defendant
Deutsche Bank consented to jurisdiction in New York
because FrontPoint and Deutsche Bank entered into
an ISDA [International Swap Dealers Association]
Master Agreement containing a forum selection clause
that designated New York as the proper forum for any
dispute relating to that agreement. FAC ¶ 19. This
allegation is insufficient for several reasons. First,
FrontPoint does not allege the precise language of the
forum selection clause, and the copy of the ISDA
Master Agreement submitted to the Court is missing
the pages containing the relevant clause.
See
Lefkowitz Decl. Ex. 2. Second, although FrontPoint
alleges that it entered into at least 24 swap
transactions with Deutsche Bank, including some
transactions that involved SIBOR-based derivatives,
it does not allege that those transactions were made
pursuant to the ISDA Master Agreement. As a result,

Because I have held that the Court lacks personal jurisdiction
over the Foreign Defendants, I need not reach the issue of
whether venue is proper.
4

89a
the relationship between FrontPoint’s trading with
Deutsche Bank and the ISDA Master Agreement
containing the forum selection clause remains unclear.
FrontPoint notes that Deutsche Bank has not
submitted a document or declaration proving that
trade confirmations did not incorporate the terms of
the ISDA Master Agreement, but it is FrontPoint’s
burden to show jurisdiction, not Deutche Bank’s
burden to disprove it. Third, even assuming that the
forum selection clause applied, it is unclear whether it
applies to all of FrontPoint’s claims, or only to those
sounding in contract and quasi-contract. Because
FrontPoint has not supplied the Court with the actual
language of the forum selection clause, it is not
currently possible to rule on the scope of the clause.
For these reasons, I reject FrontPoint’s argument that
Deutsche Bank consented to jurisdiction in New York.
e.

Conclusion

The Foreign Defendants’ motion to dismiss for
lack of personal jurisdiction is granted in its entirety.
The claims against the Foreign Defendants are
dismissed without prejudice, and with leave to amend.
III.

Defendants’ Motion to Dismiss for Lack of
Subject Matter Jurisdiction and For
Failure to State a Claim

Defendants also move pursuant to Rules
12(b)(1) and 12(b)(6) to dismiss the FAC for lack of
standing and for failure to state a claim.
a.

Standing

“To meet the Article III standing requirement,
a plaintiff must have suffered an ‘injury in fact’ that is
‘distinct and palpable’; the injury must be fairly

90a
traceable to the challenged action; and the injury must
be likely redressable by a favorable decision.” Denney
v. Deutsche Bank AG, 443 F.3d 253, 263 (2d Cir. 2006)
(quoting Lujan v. Defs. of Wildlife, 504 U.S. 555, 56061 (1992)). Plaintiffs have satisfied this standard.
Defendants argue that plaintiffs have failed to
plead the existence of an “injury in fact” because they
fail to allege that any intended manipulation of SIBOR
or SOR was successful. Defendants argue that absent
a plausible allegation of successful manipulation,
plaintiffs could not have suffered any injury.
However, this is a merits argument, and a plaintiff
need not prove his case at the pleading stage in order
to have constitutional standing. See Baur v. Veneman,
352 F.3d 625, 631 (2d Cir. 2003) (“[A]t the pleading
stage, standing allegations need not be crafted with
precise detail, nor must the plaintiff prove his
allegations of injury.”). The standing requirement
exists to ensure there is a proper case or controversy
before the Court, not to dismiss lawsuits on the merits.
Plaintiffs also have sufficiently alleged that
they suffered an economic injury as a result of
defendants’ alleged manipulation. Plaintiffs have
alleged that they were “overcharged and/or underpaid”
in transactions involving SIBOR-based derivatives.
FAC ¶¶ 20-21. This is sufficient. As the Second
Circuit recently held in Gelboim v. Bank of Am. Corp.,
823 F.3d 759 (2d Cir. 2016), which involved alleged
manipulation of LIBOR, “the harm component of
constitutional standing is ... easily satisfied by
[plaintiffs’] pleading that they were harmed by
receiving lower returns on LIBOR-denominated
instruments as a result of defendants’ manipulation of

91a
LIBOR.” 823 F.3d at 770. It is possible that
defendants’ alleged manipulation, at different times,
may have both hurt and helped plaintiffs’ trading
positions, depending on the day or the particular
trade. But that possibility does not mean that
plaintiffs lack constitutional standing to bring this
lawsuit, for “that sort of ‘paid too much’ or ‘received too
little’ harm is classic economic injury-in-fact.” Alaska
Elec. Pension Fund v. Bank of Am. Corp. (“ISDAfix”),
175 F. Supp. 3d 44, 53 (S.D.N.Y. 2016). As the court
in ISDAfix explained, “discovery may well show that,
for some Plaintiffs on some days, the alleged ISDAfix
manipulation actually resulted in a benefit. But the
mere fact that an injury may be outweighed by other
benefits, while often sufficient to defeat a claim for
damages, does not negate standing.” Id. (internal
quotation marks and citation omitted).
b.

Antitrust
i.

Antitrust Conspiracy

In antitrust cases, a “plaintiffs’ job at the
pleading stage, in order to overcome a motion to
dismiss, is to allege enough facts to support the
inference that a conspiracy actually existed.” Mayor
& City Council of Baltimore, Md. v. Citigroup, Inc., 709
F.3d 129, 136 (2d Cir. 2013). To do this, a plaintiff will
typically “present circumstantial facts supporting the
inference that a conspiracy existed.” Id. A court
“cannot take Plaintiffs’ failure to present direct
evidence as a sign that no conspiracy existed.” In re
London Silver Fixing, Ltd., Antitrust Litig.. (“Silver
Fix”), 213 F. Supp. 3d 530, 558 (S.D.N.Y. Oct. 3, 2016).
A court may draw an inference based on
circumstantial facts where the plaintiff alleges the

92a
existence of “conscious parallelism,” as well as “plus
factors,” which may include “a common motive to
conspire, evidence that shows that the parallel acts
were against the apparent individual economic selfinterest of the alleged conspirators, and evidence of a
high level of interfirm communications.” Citigroup,
Inc., 709 F.3d at 136. “[T]hese plus factors are neither
exhaustive nor exclusive, but rather illustrative of the
type of circumstances which, when combined with
parallel behavior, might permit a jury to infer the
existence of an agreement.” Id. at 136 n. 6.
“To survive dismissal, ‘the plaintiff need not
show that its allegations suggesting an agreement are
more likely than not true or that they rule out the
possibility of independent action, as would be required
at later litigation stages such as a defense motion for
summary judgment, or a trial.’” Gelboim, 823 F.3d at
781 (quoting Anderson News, L.L.C, v. Am. Media,
Inc., 680 F.3d 162, 184 (2d Cir. 2012)). “Skepticism of
a conspiracy’s existence is insufficient to warrant
dismissal; ‘a well-pleaded complaint may proceed even
if it strikes a savvy judge that actual proof of those
facts is improbable, and ‘that a recovery is very remote
and unlikely.’’” Gelboim, 823 F.3d at 781 (quoting Bell
Atl. Corp. v. Twombly, 550 U.S. 544, 556 (2007)).
Plaintiffs have plausibly alleged the existence of
a conspiracy to manipulate SIBOR and SOR. It is true
that plaintiffs have failed to identify any specific
interbank communications between or among
defendants regarding the alleged manipulation.
However, plaintiffs need not allege this type of
“smoking gun” evidence to survive a motion to dismiss.
The Monetary Authority of Singapore (“MAS”),

93a
Singapore’s financial regulator, after conducting a
year-long review of the interest rate benchmark
submission process employed by various banks, found
that several defendants in this case had deficiencies in
the “governance, risk management, internal controls,
and surveillance systems for their involvement in
benchmark submissions,” and that over 100 traders
from these banks engaged in several attempts to
“inappropriately influence” benchmarks such as
SIBOR and SOR. Porpora Decl. Ex. A. The CFTC also
found that defendants RBS, UBS, and Deutsche Bank
engaged in attempts to manipulate these benchmarks,
and the Financial Services Authority (“FSA”), the
United Kingdom’s financial regulator, also found that
RBS had done the same. Porpora Decl. Exs. D, H, I,
and J.
These investigations and findings, while not
direct or conclusive proof that a conspiracy existed,
provide circumstantial evidence from which an
inference of coordinated conduct may be drawn. In In
re Foreign Exch. Benchmark Rates Antitrust Litig.
(“FOREX”), 74 F. Supp. 3d 581 (S.D.N.Y. 2015), for
example, the court rejected defendants’ argument that
“the existence of pending government investigations
cannot support the inference of an unlawful
conspiracy.” The court reasoned that it had “taken
judicial notice of penalties and fines levied by
regulators in three countries against six Defendants
as a result of some of the investigations detailed in the
U.S. Complaint and for the very conduct alleged in the
Complaint. The penalties provide non-speculative
support for the inference of a conspiracy. In addition,
while the fact of a single investigation may not be
probative, the detailed allegations of investigations

94a
into the manipulation of FX benchmark rates by
regulators in seemingly every significant financial
market in the world lends some credence to the
conspiracy allegation.” 74 F. Supp. 3d at 592. The
investigations discussed above likewise provide nonspeculative support for plaintiffs’ antitrust conspiracy
allegations. See also Starr v. Sony BMG Music Entm’t,
592 F.3d 314, 325 (2d Cir. 2010) (finding fact that
government “launched two new investigations into
whether defendants engaged in collusion and price
fixing” relevant to question of whether inference of
conspiracy is reasonable).
Plaintiffs have also alleged a “plus factor.”
Specifically, plaintiffs have alleged a “common motive”
to coordinate the manipulation of SIBOR and SOR
because these rates are calculated based on
submissions from each panel member. As a result,
manipulation is not possible absent coordination
among the submitting banks. In ISDAfix, the court
found a common motive to conspire because “the very
nature of ISDAfix suggests that any attempt to
unilaterally control ISDAfix would be risky and likely
futile, as any individual bank’s submission to ICAP
would be drowned out in the polling process by which
ISDAfix was set each day.” 175 F. Supp. 3d at 55. The
same is true here.
Plaintiffs’ so-called “economic evidence,”
however, does not support an inference of the
existence of an antitrust conspiracy. Plaintiffs present
charts indicating that the spread between SIBOR and
SOR became more erratic and pronounced during the
Class Period, and argue that this “indicates that both
SIBOR and SOR were manipulated to artificial levels

95a
during the Class Period.” FAC ¶ 137. But plaintiffs
provide no explanation – other than a vague reference
to the “law of one price” – as to why the SIBOR and
SOR rates should necessarily be the same. As
plaintiffs themselves allege, SOR is calculated in part
by reference to the U.S. dollar, a variable that is
entirely absent from SIBOR. FAC ¶ 103. Plaintiffs’
failure to explain why this key difference between
SIBOR and SOR does not account for variations
between the two benchmarks renders their economic
evidence irrelevant.
Plaintiffs must allege with
specificity why the SIBOR and SOR rate should be the
same.
Finally, although I hold that plaintiffs have
sufficiently alleged the existence of an antitrust
conspiracy, plaintiffs have failed to allege with
specificity how each individual defendant participated
in the conspiracy. “[E]ach defendant is entitled to
know how he is alleged to have conspired, with whom
and for what purpose. Mere generalizations as to any
particular defendant—or even defendants as a
group—are insufficient.” In re Zinc Antitrust Litig.,
155 F. Supp. 3d 337, 384 (S.D.N.Y. 2016) (internal
citation omitted). Plaintiffs argue that they “named
as Defendants the targets specifically identified in
multiple government investigations, regulatory
settlements, news reports, and disclosures that
Defendants made to the Federal Reserve Bank of New
York regarding their derivatives dealing, including in
SIBOR- and SOR-based derivatives, within the United
States.” Dkt. No. 178 at 12. But as discussed above in
the context of specific jurisdiction, plaintiffs have not
shown how defendants’ involvement in SIBOR-based
derivatives trading – as opposed to involvement in the

96a
SIBOR rate submission process – was part of the
conspiracy.
Accordingly, the antitrust claim is
dismissed as alleged against all defendants other than
those who served on the SIBOR panel during the
relevant period. See FAC ¶ 100.5
ii.

Antitrust Standing

“To satisfy the antitrust standing requirement,
a private antitrust plaintiff must plausibly allege that
(i) it suffered an antitrust injury and (ii) it is an
acceptable plaintiff to pursue the alleged antitrust
violations.” In re Aluminum Warehousing Antitrust
Litig., 833 F.3d 151, 157 (2d Cir. 2016). Thus, “[e]ven
a plaintiff that has suffered an antitrust injury must
also demonstrate that it is a suitable plaintiff, i.e., an
‘efficient enforcer’ of the antitrust laws. Id. at 157–58
(quoting Daniel v. Am. Bd. of Emergency Med., 428
F.3d 408, 438 (2d Cir. 2005)).
1.

Antitrust Injury

“Generally, when consumers, because of a
conspiracy, must pay prices that no longer reflect
ordinary market conditions, they suffer injury of the
type the antitrust laws were intended to prevent and
that flows from that which makes defendants’ acts
unlawful.”
Gelboim, 823 F.3d at 772 (internal
The defendants alleged to have served on the panel are:
Australia and New Zealand Banking Group, Bank of America
N.A., The Bank of Tokyo-Mitsubishi UFJ, Ltd., BNP Paribas,
Citibank N.A., Credit Suisse AG, DBS Bank Ltd, Deutsche Bank
AG, The Hongkong and Shanghai Banking Corporation Ltd., ING
Bank N.V., JPMorgan Chase Bank, N.A., Oversea-Chinese
Banking Corporation Ltd, The Royal Bank of Scotland PLC,
Standard Chartered Bank, UBS AG, and the United Overseas
Bank Ltd.
5

97a
quotation marks and citation omitted). In Gelboim,
the Second Circuit held that the plaintiffs had
sufficiently alleged an antitrust injury because they
claimed “violation (and injury in the form of higher
prices) flowing from the corruption of the rate-setting
process, which (allegedly) turned a process in which
the Banks jointly participated into conspiracy.” 823
F.3d at 775. Plaintiffs have alleged the same injury
here, and numerous courts have held that benchmark
price or rate manipulation gives rise to an antitrust
injury. See In re Platinum & Palladium Antitrust
Litig., 2017 WL 1169626, at *20.
2.

Efficient Enforcer

“The efficient enforcer inquiry turns on: (1)
whether the violation was a direct or remote cause of
the injury; (2) whether there is an identifiable class of
other persons whose self-interest would normally lead
them to sue for the violation; (3) whether the injury
was speculative; and (4) whether there is a risk that
other plaintiffs would be entitled to recover
duplicative damages or that damages would be
difficult to apportion among possible victims of the
antitrust injury.
Built into the analysis is an
assessment of the ‘chain of causation’ between the
violation and the injury.” Gelboim, 823 F.3d at 772
(internal citations omitted).
Plaintiff FrontPoint is an efficient enforcer.
FrontPoint alleges that it “engaged in U.S.-based swap
transactions that were priced, settled, and
benchmarked based on SIBOR during the Class
Period,” including transactions “based on one-month
SGD SIBOR, between January 2010 and May 2010
directly with Defendants Deutsche Bank AG and

98a
Citibank, N.A.”
FAC ¶ 142.
“Evaluating the
directness of an injury is essentially a proximate cause
analysis that hinges upon ‘whether the harm alleged
has a sufficiently close connection to the conduct the
statute prohibits.’” Silver Fix, 213 F. Supp. 3d at 552
(quoting Lexmark Int’l, Inc. v. Static Control
Components, Inc., 134 S. Ct. 1377, 1390 (2014)).
FrontPoint alleges that it traded in derivatives whose
price was directly impacted by the SIBOR rate. This
satisfies a proximate cause inquiry, even if other
variables are involved. It is difficult to think of a more
direct victim than FrontPoint, given that it entered
into transactions directly with two of the defendants.
Regarding the speculative nature of damages, it is true
that FrontPoint has not alleged any facts regarding
the damages it claims to have incurred. The Court has
no doubt that should plaintiffs prevail on the merits in
this case, calculating damages would be an extremely
complex endeavor. However, the potential for this
difficulty and uncertainty is not grounds for
dismissing plaintiffs’ antitrust claim, for “potential
difficulty in ascertaining and apportioning damages is
not ... an independent basis for denying standing
where it is adequately alleged that a defendant’s
conduct has proximately injured an interest of the
plaintiff’s that the statute protects.” Lexmark, 134 S.
Ct. at 1392.
Plaintiff Sonterra, however, is not an efficient
enforcer, and thus lacks antitrust standing. Plaintiff
Sonterra alleges that it “engaged in SGD foreign
exchange forwards between September 2010 and
August 2011.” Sonterra alleges that it was damaged
“when it paid more for or received less on its foreign
exchange forward transactions.” FAC ¶ 143. Sonterra

99a
does not allege that it traded directly with any of the
defendants.
Based on these allegations, Sonterra has failed
to establish any connection between defendants’
conduct and its alleged injury. Plaintiffs allege that
the price paid for a foreign exchange forward contract
“is calculated using a formula that incorporates both
SGD SOR and USD SIBOR as components of price.”
FAC ¶ 119. In support of this conclusory statement,
plaintiffs refer to a chart which they claim “shows that
SIBOR and SOR rates are used to adjust the spot price
of the USD-SGD currency pair to account for interest
earned over the length (“daycount”) of the agreement.”
Id. The Court cannot draw any reasonable inferences
from the chart referenced in the FAC. If the foreign
exchange forward contracts that Sonterra entered into
incorporated SIBOR and SOR as a component of price,
Sonterra should allege why this is so in plain,
intelligible sentences, rather than refer to an obtuse,
ambiguous chart.
Since defendants’ alleged
manipulation of SIBOR and SOR had no impact on the
currency exchange forwards that Sonterra traded in,
Sonterra is not an efficient enforcer and does not have
antitrust standing.
In light of this holding, I need not address
whether Sonterra also lacks antitrust standing
because it did not enter into transactions directly with
any of the defendants. This “umbrella standing”
inquiry hinges, at least in part, on how remote
Sonterra’s injury is from defendants’ conduct. The
answer to that question cannot be answered without
first understanding whether the transactions

100a
Sonterra participated in had any relationship to the
benchmarks at issue, and if so, to what extent.
iii.

Foreign
Trade
Improvements Act

Antitrust

Plaintiffs’ antitrust claim is not barred by the
Foreign Trade Antitrust Improvements Act (“FTAIA”).
That statute provides that antitrust actions may not
be maintained with respect to “conduct involving trade
or commerce ... with foreign nations unless -- (1) such
conduct has a direct, substantial, and reasonably
foreseeable effect-- (A) on trade or commerce which is
not trade or commerce with foreign nations, or on
import trade or import commerce with foreign nations;
or (B) on export trade or export commerce with foreign
nations, of a person engaged in such trade or
commerce in the United States.” 15 U.S.C. § 6a.
Plaintiffs have sufficiently alleged that defendants’
conduct had a “direct, substantial, and reasonably
foreseeable effect” on domestic commerce, and in
“adopting the FTAIA, Congress expressly endorsed an
extraterritorial application of the Sherman Act.”
Sullivan, 2017 WL 685570, at *22.
iv.

Statute of Limitations and
Fraudulent Concealment

Plaintiffs’ antitrust claim is not barred by the
Sherman Act’s four-year statute of limitations. It is
true that the class period ends on December 21, 2011,
and that plaintiffs did not file this action until July 5,
2016. However, plaintiffs have appropriately invoked
the doctrine of fraudulent concealment, the
availability of which is subject to a specific standard in
the antitrust context. An “antitrust plaintiff may
prove fraudulent concealment sufficient to toll the

101a
running of the statute of limitations if he establishes
(1) that the defendant concealed from him the
existence of his cause of action, (2) that he remained
in ignorance of that cause of action until some point
within four years of the commencement of his action,
and (3) that his continuing ignorance was not
attributable to lack of diligence on his part.” State of
N.Y. v. Hendrickson Bros., 840 F.2d 1065, 1083 (2d
Cir. 1988).
Although Circuit courts have adopted different
standards with respect to the first prong, the Second
Circuit “has adopted the more lenient standard
requiring plaintiffs to prove concealment by showing
either that the defendants took affirmative steps to
prevent plaintiffs’ discovery of the conspiracy, or that
the conspiracy itself was inherently self-concealing.”
In re Nine W. Shoes Antitrust Litig., 80 F. Supp. 2d
181, 192 (S.D.N.Y. 2000) (citing Hendrickson Bros.,
840 F.2d at 1083). Here, plaintiffs have plausibly
alleged that the alleged conspiracy was inherently
self-concealing, for by its very nature, the conspiracy
could not succeed unless kept a secret. FAC ¶¶ 15558; see also ISDAfix, 175 F. Supp. at 66 (finding
antitrust plaintiffs plausibly alleged fraudulent
concealment where “the alleged conspiracy in these
cases was secretive and covert by its very nature—it
was an agreement that was ‘designed to endure over a
period of time’ and, ‘[i]n order to endure, it [had to]
remain concealed’ from the market.” (quoting
Hendrickson Bros., 840 F.2d at 1083)).
With respect to the third prong, defendants
argue that plaintiffs have failed to allege specific facts
showing that they investigated their claims with “due

102a
diligence” during the limitations period.
This
overstates the standard. Plaintiffs must allege only
that their “continuing ignorance was not attributable
to lack of diligence” on their part. Here, plaintiffs have
alleged that it was defendants’ concealment, and not a
lack of diligence on their part, that prevented them
from knowing of their claim prior to public disclosure
of the MAS investigation in 2013. FAC ¶¶ 158-59.
Defendants counter that the data used to construct
plaintiffs’ “economic evidence” was available to
plaintiffs during the limitations period, and therefore
was not concealed. But if this argument were
accepted, fraudulent concealment would never be
available to plaintiffs in the antitrust context because
data regarding the affected price is always available to
the public throughout the duration of the conspiracy.
See In re Foreign Exch. Benchmark Rates Antitrust
Litig. (“FOREX II”), 2016 WL 5108131, at *16
(S.D.N.Y. Sept. 20, 2016) (rejecting argument that
availability of transaction data put plaintiffs on notice
of defendants’ alleged price-fixing conspiracy).
Accordingly, plaintiffs’ antitrust claim is not barred by
the statute of limitations.
c.

RICO

“RICO recognizes a private right of action when
a defendant commits a predicate act that is ‘indictable’
under specified federal criminal statutes.” Sullivan,
2017 WL 685570, at *32. Here, plaintiffs’ RICO claim
is based on defendants’ alleged violation of the wire
fraud statute. See 18 U.S.C. § 1343.
“Absent clearly expressed congressional intent
to the contrary, federal laws will be construed to have
only domestic application.” RJR Nabisco, Inc. v.

103a
European Cmty., 136 S. Ct. 2090, 2100 (2016).
Plaintiffs’ RICO claim fails because it violates this
presumption against extraterritoriality. RICO applies
extraterritorially “only to the extent that the
predicates alleged in a particular case themselves
apply extra extraterritorially.” Id. at 2102. Here, the
only predicate offense plaintiffs allege is wire fraud,
which does not apply extraterritorially. See Petroleos
Mexicanos v. SK Eng’g & Const. Co., 572 F. App’x 60,
61 (2d Cir. 2014) (holding that “wire fraud cannot
serve as such an extraterritorial predicate” and that
“because [plaintiff] relies exclusively on the wire fraud
statute in pleading predicate acts, it has failed to state
a claim sufficient to support extraterritorial
application of RICO.”); European Cmty. v. RJR
Nabisco, Inc., 764 F.3d 129, 141 (2d Cir. 2014), rev’d
and remanded on other grounds, 136 S. Ct. 2090 (2016)
(seeing “no basis for finding a manifestation of
congressional intent that the mail fraud statute apply
extraterritorially.’”).
As a result, to state a RICO claim predicated on
wire fraud, plaintiffs must allege “sufficient domestic
conduct for the claims involving ... wire fraud ... to
sustain the application of RICO.” Laydon, 2015 WL
1515487, at *8 (quoting RJR Nabisco, 764 F.3d at
141). Plaintiffs’ only well-pled allegation concerning
defendants’ use of U.S. wires to manipulate SIBOR
and SOR is that defendants submitted rates to
Thomson Reuters, which then disseminated the daily
rate throughout the United States. FAC ¶ 15.
However, “simply alleging that some domestic conduct
occurred cannot support a claim of domestic
application.” Norex Petroleum Ltd. v. Access Indus.,
Inc., 631 F.3d 29, 33 (2d Cir. 2010) (dismissing civil

104a
RICO claim because the “slim contacts with the
United States alleged by [plaintiff] are insufficient to
support extraterritorial application of the RICO
statute.”). As the Supreme Court has explained, “the
presumption against extraterritorial application
would be a craven watchdog indeed if it retreated to
its kennel whenever some domestic activity is involved
in the case.” Morrison v. Nat’l Australia Bank Ltd.,
561 U.S. 247, 266 (2010).
In other cases involving alleged manipulation of
foreign market interest rate benchmarks, courts have
declined to allow RICO claims to proceed where the
use of domestic wires is incidental, as is the case here.
In Sullivan v. Barclays PLC, 2017 WL 685570
(S.D.N.Y. Feb. 21, 2017), for example, the complaint
made “generalized allegations about the defendants’
use of interstate wires to coordinate the Euribor
scheme,” as well as other allegations that are absent
from this case, such as phone calls involving U.S.
participants. The court held that the allegations did
not “plausibly allege that any acts of wire fraud were
primarily domestic in nature,” and emphasized that
virtually all of the conduct at issue occurred in Europe,
not the United States. Id. at *33. The same is true
here. Even if defendants’ allegedly wrongful conduct
had an impact on the United States, any act of wire
fraud committed in furtherance of the conspiracy was
not sufficiently domestic as to overcome the
presumption against extraterritoriality.
Plaintiffs’ reliance on criminal RICO cases
unfounded, for extraterritorial application of RICO
civil cases presents distinct considerations absent
the criminal context. See RJR Nabisco, 136 S. Ct.

is
in
in
at

105a
2107 (“Allowing recovery for foreign injuries in a civil
RICO action, including treble damages, presents [a]
danger of international friction.”); Sullivan, 2017 WL
685570, at *32 (“A private plaintiff seeking
extraterritorial application of RICO is subject to
considerations that do not apply to criminal
prosecutions under the statute, and must specifically
allege a domestic injury.”).
Plaintiffs, of course, argue that the scope of
defendants’ conspiracy was not limited to the
submission of manipulated rates, but also included
defendants’ trading of SIBOR- and SOR-based
derivatives with U.S. counterparties. As discussed
elsewhere in this opinion, plaintiffs have failed to
allege facts sufficient to support this theory.6
d.

Implied Covenant of Good Faith and
Fair Dealing

Plaintiff FrontPoint has failed to state a
plausible claim for breach of the implied covenant and
good faith and fair dealing against defendants
Deutsche Bank and Citibank. FrontPoint alleges that
it entered into ISDA Master Agreements with both
Deutsche Bank and Citibank, and that it entered into
twenty-four transactions with these defendants, some
of which involved SIBOR-based derivatives. FAC ¶¶
19, 142. But, as previously discussed in the context of
personal jurisdiction, FrontPoint has failed to allege
that any of the transactions involving SIBOR-based
derivatives were entered into pursuant to the ISDA

Because I have dismissed plaintiffs’ RICO claims on
extraterritoriality grounds, I need not address whether plaintiffs
have adequately pled the elements of a RICO claim.
6

106a
Master Agreement. Nor does FrontPoint allege a
breach of the ISDA Master Agreement. Instead,
FrontPoint alleges that it “entered into binding and
enforceable contracts with Defendants Deutsche Bank
and Citibank in connection with transactions for
SIBOR-based derivatives,” and that “each contract
includes an implied covenant of good faith and fair
dealing.” FAC ¶¶ 195-96.
“As a matter of law,” however, “a contract claim
asserting breach of the implied covenants of good faith
and fair dealing does not survive a motion to dismiss
when it is based only on generalized allegations and
grievances.”
U.S. ex rel. Smith v. New York
Presbyterian Hosp., 2007 WL 2142312, at *16
(S.D.N.Y. July 18, 2007). Furthermore, “the implied
covenant arises only in connection with the rights or
obligations set forth in the terms of the contract.” In
re LIBOR-Based Fin. Instruments Antitrust Litig.
(“LIBOR II”), 962 F. Supp. 2d 606, 632 (S.D.N.Y. 2013)
(internal quotation marks and citation omitted). Here,
FrontPoint has failed to allege any specific facts
regarding the individual contracts it entered into with
defendants Deutsche Bank and Citibank to establish
a plausible basis for a claim of the implied covenant of
good faith and fair dealing. FrontPoint refers to “24
swap transactions,” but it does not identify the dates
of those transactions, who the counterparties were,
the value of the swap, or any of the terms and
conditions. Nor has FrontPoint alleged with any
degree of specificity the rights it enjoyed under the
contracts, or how defendants’ conduct had “the effect
of destroying or injuring the right of the other party to
receive the fruits of the contract.” Sec. Plans, Inc. v.
CUNA Mut. Ins. Soc., 769 F.3d 807, 817 (2d Cir. 2014)

107a
(internal quotation marks omitted). Such generalized
allegations are insufficient. See Warren v. John Wiley
& Sons, Inc., 952 F. Supp. 2d 610, 625 (S.D.N.Y. 2013)
(rejecting plaintiff’s attempt to “plead over 270
breaches of contract with a handful of sweeping,
conclusory allegations.”).
e.

Unjust Enrichment

Plaintiffs’ unjust enrichment claim fails for two
reasons. First, because “unjust enrichment is a claim
in quasi-contract, it requires some relationship
between plaintiff and defendant.” In re LIBOR-Based
Fin. Instruments Antitrust Litig. (“LIBOR I”), 935 F.
Supp. 2d 666, 737 (S.D.N.Y. 2013), rev’d on other
grounds, sub nom. Gelboim v. Bank of Am. Corp., 823
F.3d 759 (2d Cir. 2016). “[W]hile ‘a plaintiff need not
be in privity with the defendant to state a claim for
unjust enrichment,’ there must exist a relationship or
connection between the parties that is not ‘too
attenuated.’” Georgia Malone & Co. v. Rieder, 19
N.Y.3d 511,516 (N.Y. 2012) (quoting Sperry v.
Crompton Corp., 8 N.Y.3d 204, 215-16 (N.Y. 2007)).
Here, with the exception of FrontPoint’s transactions
with Deutsche Bank and Citibank, neither plaintiff
has alleged that it entered into a transaction with any
of the defendants, or that it otherwise had a
relationship with any of the defendants.
The
connection is therefore “too attenuated.”
Second, FrontPoint has alleged that it entered
into transactions with defendants Deutsche Bank and
Citibank.
Those transactions, however, were
governed by a contract (albeit a contract that
FrontPoint provides no information about). A claim
for unjust enrichment is only actionable “in the

108a
absence of an actual agreement between the parties
concerned.” IDT Corp. v. Morgan Stanley Dean Witter
& Co., 12 N.Y.3d 132, 142 (N.Y. 2009); see also Cox v.
NAP Const. Co., 10 N.Y.3d 592, 607 (N.Y. 2008) (“[A]
party may not recover in ... unjust enrichment where
the parties have entered into a contract that governs
the subject matter.”). Accordingly, defendants’ motion
to dismiss plaintiffs’ unjust enrichment claim is
granted. The claim is dismissed with prejudice and
without leave to amend.
CONCLUSION
For the reasons stated herein, defendants’
motion is granted in part and denied in part, as
follows:


The Foreign Defendants’ (Australia and
New Zealand Banking Group, Ltd.; Barclays
plc; Barclays Bank plc; BNP Paribas, S.A.;
Crédit Agricole Corporate and Investment
Bank; Crédit Agricole S.A.; Credit Suisse
Group AG; Credit Suisse AG; Credit Suisse
International; Commerzbank AG; DBS
Bank Ltd.; DBS Group Holdings Ltd;
Deutsche Bank AG; HSBC Holdings plc;
ING Groep N.V.; ING Bank N.V.; Macquarie
Bank Ltd.; Macquarie Group Ltd.; The Royal
Bank of Scotland plc; The Royal Bank of
Scotland Group plc; RBS Securities Japan
Limited;
Standard
Chartered
Bank;
Standard Chartered PLC; The Bank of
Tokyo-Mitsubishi UFJ, Ltd.; The Hong Kong
and
Shanghai
Banking
Corporation
Limited; The Oversea-Chinese Banking
Corporation Ltd.; UBS AG, UBS Securities

109a
Japan Co. Ltd.; and United Overseas Bank
Limited) motion to dismiss for lack of
personal jurisdiction is granted. All claims
against the Foreign Defendants are
dismissed without prejudice and with leave
to amend to make plausible allegations of
personal jurisdiction over the Foreign
Defendants.


Defendants’ motion to dismiss the complaint
for lack of Article III standing is denied.



Defendants’ motion to dismiss Count I
(antitrust) as alleged by plaintiff FrontPoint
is denied as alleged against the defendants
who served on the SIBOR panel (Australia
and New Zealand Banking Group, Bank of
America N.A., The Bank of TokyoMitsubishi UFJ, Ltd., BNP Paribas,
Citibank N.A., Credit Suisse AG, DBS Bank
Ltd, Deutsche Bank AG, The Hongkong and
Shanghai Banking Corporation Ltd., ING
Bank N.V., JPMorgan Chase Bank, N.A.,
Oversea-Chinese Banking Corporation Ltd,
The Royal Bank of Scotland PLC, Standard
Chartered Bank, UBS AG, and the United
Overseas Bank Ltd.), but is granted with
respect to all other defendants, for failure to
sufficiently allege their involvement in the
conspiracy. FrontPoint is granted leave to
amend to make plausible allegations
showing
the
non-panel
defendants’
involvement in the alleged antitrust
conspiracy.

110a


Defendants’ motion to dismiss Count I
(antitrust) as alleged by plaintiff Sonterra is
granted, for failure to establish any
connection between defendants’ conduct and
its alleged injury.
Sonterra’s antitrust
claim, based on an alleged conspiracy to
manipulate SIBOR and/or SOR, is dismissed
without prejudice and with leave to amend
to make plausible allegations showing that
defendants’ alleged manipulation of SIBOR
and/or SOR impacted the price of the
currency exchange forwards that Sonterra
traded in. Plausible allegations showing
this connection are likely to make Sonterra
an efficient enforcer.



Defendants’ motion to dismiss Counts II and
III (RICO and RICO conspiracy) is granted.
Counts II and III are dismissed without
prejudice and with leave to amend to make
plausible allegations showing sufficient
domestic
conduct
to
support
an
extraterritorial application of RICO.



Defendants Deutsche Bank and Citibank’s
motion to dismiss Count IV (Frontpoint’s
claim for breach of the covenant of good faith
and fair dealing) is granted. Count IV is
dismissed without prejudice and with leave
to amend to make plausible allegations
supporting the claim.



Defendants’ motion to dismiss Count V
(unjust enrichment) is granted as a matter
of law. Count V is dismissed with prejudice
and without leave to amend.

111a
The clerk shall terminate the motion (Dkt. No. 144).
Plaintiffs shall file a second amended complaint by
September 18, 2017. Defendants shall answer or move
by October 18, 2017.
SO ORDERED.
Dated: August 18, 2017
New York, New
York

s/Alvin K. Hellerstein
ALVIN K.
HELLERSTEIN
United States District
Judge

113a
PARIBAS SECURITIES
:
CORP., BNP PARIBAS PRIME :
BROKERAGE, INC.,
:
OVERSEA-CHINESE
:
BANKING CORPORATION
:
LTD., BARCLAYS PLC,
:
BARCLAYS BANK PLC,
:
BARCLAYS CAPITAL INC.,
:
DEUTSCHE BANK AG,
:
CREDIT AGRICOLE
:
CORPORATE AND
:
INVESTMENT BANK,
:
CREDIT AGRICOLE S.A.,
:
CREDIT SUISSE GROUP AG, :
CREDIT SUISSE AG, CREDIT :
SUISSE INTERNATIONAL,
:
STANDARD CHARTERED
:
BANK, STANDARD
:
CHARTERED PLC, DBS BANK :
LTD., DBS GROUP
:
HOLDINGS LTD, DBS
:
VICKERS SECURITIES (USA) :
INC., UNITED OVERSEAS
:
BANK LIMITED, UOB
:
GLOBAL CAPITAL, LLC,
:
AUSTRALIA AND NEW
:
ZEALAND BANKING GROUP, :
LTD., ANZ SECURITIES, INC., :
THE BANK OF TOKYO:
MITSUBISHI UFJ, LTD., THE :
HONGKONG AND SHANGHAI :
BANKING CORPORATION
:
LIMITED, HSBC BANK USA, :
N.A., HSBC HOLDINGS PLC, :

115a
ALVIN K. HELLERSTEIN, U.S.D.J.:
FrontPoint Asian Event Driven Fund, Ltd.
(“FrontPoint”) and Sonterra Capital Master Fund,
Ltd. (“Sonterra”), filed this action on August 1, 2016,
and the First Amended Complaint (“FAC”) on October
31, 2016, see Dkt. No. 119, against 46 corporate
defendants. The FAC alleges that the defendants
conspired to manipulate two interest rate
benchmarks, Singapore Interbank Offered Rate
(“SIBOR”) and the Singapore Swap Offer Rate
(“SOR”), in violation of the Sherman Act, see 15 U.S.C.
§ 1, et seq. (Count I), the Racketeer Influenced and
Corrupt Organizations Act, see 18 U.S.C. § 1961, et.
seq (Count II, III), and in breach of the implied
covenant of good faith and fair dealing (Count IV).1
Defendants moved to dismiss the FAC pursuant
to Fed. R. Civ. P. 12(b)(1), (6), see Dkt. No. 144,
identifying a range of jurisdictional and substantive
deficiencies, including failure to make plausible
allegations of personal jurisdiction over the foreign
defendants and failure to state plausible claims for
relief. On August 18, 2017, I issued an Opinion and
Order Granting in Part and Denying in Part
Defendants’ Motion to Dismiss, see Dkt. No. 225;
FrontPoint Asian Event Driven Fund, L.P. v. Citibank,
N.A., 2017 WL 3600425 (S.D.N.Y. Aug. 18, 2017)
(“SIBOR I”), ruling on the issues raised by defendants
and providing Plaintiffs with leave to amend with
instructions to cure the deficiencies. Plaintiffs filed

Count V (Unjust Enrichment) was dismissed in SIBOR I. See
infra.
1

116a
their Second Amended Complaint
September 18, 2017. See Dkt. No. 230.

(“SAC”)

on

Pending now before the Court is defendants’
motion to dismiss the SAC, see Dkt. No. 238, which
identifies a range of jurisdictional and substantive
deficiencies that defendants argue were not cured by
the SAC. I heard oral argument on the motions on
April 12, 2018. See Dkt. No. 282.
SECOND AMENDED COMPLAINT
This is an action against 46 corporate
defendants, comprising parents, subsidiaries, and
affiliates of 20 international banking institutions who
participated in the rate-setting process of three
interest rate benchmarks, USD SIBOR, SGD SIBOR,
and SOR. The SIBOR benchmark rate represents “the
cost of borrowing funds in the Singapore market and
reflects the average competitive rate of interest
charged on interbank loans denominated in U.S.
Dollars (“USD SIBOR”) and Singapore dollars (“SGD
SIBOR”)” (together “SIBOR”). SAC at ¶ 163. These
rates are collected and calculated daily by a trade
group, Association of Banks in Singapore (“ABS”),
comprising banks that submit to a panel each day “the
interest rate at which it could borrow U.S. and
Singapore dollars in the interbanks market”
(collectively “Panel Members”). ¶ 164. Thomson
Reuters, alleged to be an agent of ABS, gathers the
quotes submitted by the Panel Members, applies a set
formula, dropping a number of the highest and lowest
quotes and averaging the remainder, and
disseminates daily the resulting average rate to
subscribers in the United States and other countries.
SOR, the third benchmark rate, also represents the

117a
cost of borrowing Singapore dollars, but is calculated
differently; it is based on the prices of foreign exchange
swaps, transactions where parties agree to exchange
Singapore dollars for U.S. dollars on a future date.
¶165. For at least part of the Class Period, SOR was
calculated based on the volume-weighted average
price of such swap transactions. Id. In total, 19
defendants are alleged to have been Panel Members,
17 defendants on the SIBOR Panel2 and 15 (largely
overlapping) defendants on the SOR Panel.3 See
Appendix A. Two defendants (Barclays Bank PLC and
Commerzbank AG) are alleged to be members of the
SOR Panel but not the SIBOR panel.
Manipulation of these rate-setting processes is
central to the claims of this complaint. SIBOR and

The defendants alleged to be on the SIBOR panel are: Australia
and New Zealand Banking Group, Bank of America N.A., The
Bank of Tokyo-Mitsubishi UFJ, Ltd., BNP Paribas, Citibank
N.A., Credit Suisse AG, DBS Bank Ltd, Deutsche Bank AG, The
Hongkong and Shanghai Banking Corporation Ltd., ING Bank
N.V., JPMorgan Chase Bank N.A., Oversea-Chinese Banking
Corporation Ltd, The Royal Bank of Scotland PLC, Standard
Chartered Bank, UBS AG, United Overseas Bank Ltd., and
Credit Agricole CIB See ¶ 161. Defendant ING Bank N.V.
submitted a declaration stating that neither it nor its subsidiary
made rate submissions to the ABS. See Dkt. No. 161 ¶ 6. On a
motion to dismiss, I accept as true all well pleaded facts.
2

The defendants alleged to be on the SOR panel are: Bank of
America N.A., Citibank N.A., JPMorgan Chase Bank, N.A.,
Barclays Bank PLC, The Royal Bank of Scotland PLC, The Bank
of Tokyo-Mitsubishi UFJ, Ltd., Commerzbank, Credit Agricole
CIB, Credit Suisse AG, Deutsche Bank AG, The Hongkong and
Shanghai Banking Corporation Ltd., Oversea-Chinese Banking
Corporation Ltd., Standard Chartered Bank, UBS AG, and DBS
Bank Ltd. See ¶ 162.
3

118a
SOR are often used to price various types of
derivatives, or financial products whose value is
derived from a different asset, and changes in the
SIBOR and SOR rates can, therefore, be to the
detriment or benefit of those engaged in such
derivative transactions.
According to the SAC,
between 2007 and 2011, defendants conspired to
manipulate SIBOR and SOR, or to submit to the panel
rate quotes not reflecting the true cost of borrowing,
with the purpose of profiting from this manipulation.
¶¶ 3–5. Plaintiffs allege that defendants submitted
artificially high or low SIBOR and SOR rates so that
the “derivative positions” of their traders, long (i.e.
betting on an increase in price) or short (i.e., betting
on a decrease in price), would be benefited. ¶¶ 21–24.
The traders, located worldwide, would request that
Panel Members submit rates favorable to their
positions, ¶¶ 207–216, and the Panel Members are
alleged to have obliged these requests, conspiring with
fellow Panel Members to push the rates for their
“collective financial benefit.” ¶ 167.
The SAC identifies at least four types of
derivatives that incorporate either USD SIBOR, SGD
SIBOR, or SOR—interest rate swaps, forward rate
agreements, foreign exchange forwards, and foreign
exchange swaps, ¶¶ 177–198—and Plaintiffs allege
that they traded some of these derivatives during the
period when defendants distorted the rates. ¶ 8. First,
Plaintiff FrontPoint alleges that it engaged in “U.S.based swap transactions that were priced, settled, and
benchmarked based on SIBOR,” specifically “at least
24 swap transactions, including based on one-month
SGD SIBOR, between January 2010 and May 2010
directly with Defendants Deutsche Bank AG and

119a
Citibank, N.A.” ¶ 229. A “swap transaction” allows
two parties to exchange interest rate payment
obligations on a principal amount. ¶ 177. Second,
Plaintiff Sonterra alleges that it “engaged in U.S.based transactions for SIBOR-based derivatives
during the Class Period” with third-parties,
specifically “USD/SGD foreign exchange forward
transactions between September 2010 and August
2011.” ¶ 230. A foreign exchange forward is an
agreement to exchange one currency for another, ¶¶
180–193, and USD/SGD foreign exchange forwards
are alleged to be “priced using a formula that
incorporates SOR and USD SIBOR as components of
price.” ¶ 231. The conduct forming the basis of
Plaintiffs’ claims thus occurred in two locations, in
Singapore where Panel Members allegedly conspired
and submitted manipulated rates, and in the United
States where Plaintiffs allegedly traded U.S.-based
SIBOR- and SOR-based derivatives that were priced
on the manipulated rates.
According to the SAC, defendants also had
substantial presence in the U.S., establishing trading
operations for transacting derivatives, including
SIBOR- and SOR-based derivatives. For example, the
SAC alleges that 14 of the defendants had trading
“hubs” in New York or Connecticut, ¶¶ 25–28, and
that, according to a Federal Reserve Bank of New York
survey, 13 “dealer defendants” traded SIBOR- and
SOR-based derivatives in the U.S. ¶¶ 70–71. The SAC
also alleges, attaching screenshots from “Bloomberg”
terminals, that 13 defendants offered for sale SIBORand SOR-based derivatives in the United States. ¶¶
73–75.
These allegations do not specify which
defendants engaged in such trading or offerings. The

120a
46 corporate defendants comprise 20 banking
institutions, as mentioned, and the SAC refers to
defendants by their institutional names without
specifying which affiliate or subsidiary engaged in the
activity. For example, the SAC refers to “Barclays,”
instead of to one of the three individual Barclays
defendants (Barclays Bank PLC, Barclays Capital
Inc., Barclays PLC), in alleging that Barclays offered
SIBOR-based derivatives on its Bloomberg Terminal.
¶ 74.
DISCUSSION
I.

Antitrust Claims
1.

Antitrust Conspiracy

SIBOR I held that the FAC plausibly alleged an
antitrust conspiracy against the Panel Members,
noting that while “plaintiffs have failed to identify any
specific interbank communications between or among
defendants regarding the alleged manipulation . . . .
plaintiffs need not allege this type of ‘smoking gun’
evidence to survive a motion to dismiss.” SIBOR I, WL
3600425, at *10. Defendants request that I reconsider
this holding with respect to the SAC. I decline to do
so.
As I noted in SIBOR I, as a basis for finding the
conspiracy allegations plausible against the Panel
Members, various governmental “investigations and
findings, while not direct or conclusive proof that a
conspiracy existed, provide circumstantial evidence
from which an inference of coordinated conduct may
be shown.” Id. For example, the Monetary Authority
of Singapore (MAS), referring to the SIBOR and SOR
rates and reviewing the period from 2007 until 2011,

121a
found “attempts [by traders] to inappropriately
influence benchmark submissions” and failures on the
part of senior management of the Panel banks “to
institute robust rate submission controls and
processes” to prevent such manipulations. See SAC at
¶ 10; Ex. F at 2. According to the MAS, “133 traders
[participated] in attempts to inappropriately influence
the submissions of financial benchmarks,” id., threequarters of whom resigned or were asked to leave their
positions over such misconduct, and the rest of which
were otherwise disciplined, see id. at Ex. E. at 1. “[A]t
the pleading stage, in order to overcome a motion to
dismiss, [plaintiffs must] allege enough facts to
support the inference that a conspiracy actually
existed,” and a court may draw such an inference from
circumstantial facts where the plaintiff alleges
“conscious parallelism” and “plus factors,” including “a
common motive to conspire, evidence that shows that
the parallel acts were against the apparent individual
economic self-interest of the alleged conspirators, and
evidence of a high level of interfirm communications.”
Mayor & City Council of Baltimore, Md. v. Citigroup,
Inc., 709 F.3d 129, 136 (2d Cir. 2013). That 133
traders attempted to manipulate SIBOR and SOR,
and were disciplined for their infractions, sufficiently
raises the specter of common motive to conspire, and
satisfies the “plus-factors” to state a claim for antitrust
conspiracy.
The plausibility of the conspiracy allegations is
further buttressed by various regulatory settlements
referenced in the SAC, which give context to the
manipulations alleged to have occurred here. See SAC
at ¶¶ 9–16, 199–207. The CFTC, in a settlement with

122a
the Royal Bank of Scotland4 (“RBS”) regarding a
benchmark manipulation scheme, found that RBS
traders “often attempted to manipulate the fixings of
Yen and Swiss Franc LIBOR” in order “to profit RBS’s
significant derivatives and money market positions
that were indexed to and therefore valued based on
Yen and Swiss Franc LIBOR.” SAC, Ex. A at 3–4.
According to the CFTC, RBS traders engaged in
similar misconduct in connection with SIBOR and
SOR. Id. at 4 n.3; see also Ex. B at ¶¶ 48, 54 (Final
Notice of English Financial Services Authority to RBS
referencing manipulation of SIBOR and SOR rates);
Ex. C at 38 n.21 (CFTC settlement with UBS
referencing manipulation of SIBOR and SOR rates);
Ex. D at 3 n.3 (CFTC settlement with Deutsche Bank
referencing manipulation of SIBOR and SOR rates).
In light of the MAS findings, read in context of related
regulatory settlements, I cannot at this pleadings
stage of the litigation find that the allegations do not
plausibly allege an antitrust conspiracy.
I recognize that other district courts have
reached a contrary conclusion, ruling that a “traderbased” conspiracy is not plausible. Judge Buchwald,
for example, distinguishes between a trader-based
conspiracy and a “suppression-” or “reputation-based”
conspiracy, and finds only the latter plausible. See In
re LIBOR-Based Fin. Instruments Antitrust Litig., No.
11 MDL 2262 (NRB), 2016 WL 7378980, at *2
(S.D.N.Y. Dec. 20, 2016) (LIBOR VI).
In a
suppression- or reputation-based conspiracy, panel
banks conspire to suppress (not inflate) rates with the
Specifically, Royal Bank of Scotland plc and RBS Securities
Japan Limited.
4

123a
purpose of signaling to the financial markets the
banks’ collective health, or good reputation, as
measured by lower interest rates. This conspiracy is
not motivated by profiting from derivative-based
trading, and the participants all have the identical
motivation to suppress rates. By contrast, in a traderbased conspiracy, where traders request that affiliates
submit rates favorable to their derivative positions,
the Panel Members submitting the rates have no
consistent motivation to manipulate the rates upward
or downward. The value of a given manipulation to an
individual Panel Member depends on the derivative
position held by their affiliate trader, a position likely
to be inconsistent with positions held by other Panel
Members at any point in time.
According to Judge Buchwald, allegations of a
trader-based conspiracy are implausible for two
reasons. First, only intra-bank collusion makes sense
if traders are alleged to have communicated with ratesubmitting affiliate companies within the same
banking group. To state a claim for antitrust relief,
however, the complaint must allege inter-bank
collusion, or collusion between and among
independent banking entities. See LIBOR VI, 2016
WL 7378980 at *3. Second, Panel Members likely
differ in their respective trading positions, some
wishing an upward manipulation and some a
downward manipulation. Such inconsistent positions,
Judge Buchwald reasons, makes an inter-bank traderbased conspiracy difficult to accomplish. See id. (“If,
as plaintiffs suggest, the conspiracy were profitmotivated, it would have required all of the sixteen
panel banks to have made a parallel decision to be net
borrowers of money over the suppression period in the

124a
LIBOR-based lending market.”). Judge Stein has
similarly rejected the plausibility of trader-based
conspiracies. See Sonterra Capital Master Fund Ltd.
v. Credit Suisse Grp. AG, 277 F. Supp. 3d 521, 55
(S.D.N.Y. 2017) (“[T]he simpler explanation is that the
banks may have been independently engaging in
intra-defendant manipulation by submitting false
CHF LIBOR quotes through requests from their own
traders to those in the same bank who submit the
quote to the BBA.”).
Other district courts, however, have found
trader-based conspiracies plausible, and I find so as
well. In Alaska Elec. Pension Fund v. Bank of Am.
Corp., 175 F. Supp. 3d 44 (S.D.N.Y. 2016), for example,
defendants participated in setting a benchmark rate
(ISDAfix), and the complaint alleged (as here) that the
“the Defendant Banks manipulated daily ISDAfix
rates to benefit their own trading positions.” 175 F.
Supp. 3d 44 at 51.
In finding the conspiracy
allegations plausible, Judge Furman rejected
defendants’ argument that a “conspiracy to move
ISDAfix ‘makes no economic or logical sense’ unless
the Defendant Banks’ positions ‘were aligned
throughout the putative class period.’” Id. at 55
(quoting Defendants’ Mem. Law). Judge Furman held
that the allegations of the complaint that “[t]here were
more profits to be earned for Defendants in
maintaining the shared ability to manipulate ISDAfix
over the long term than there were to be lost due to a
divergence of interest on any particular day,” id.
(quoting the Amended Complaint), were plausible. I
hold also that the allegations of a trader-based
conspiracy are plausible.
While the derivative
positions of Panel Members may differ on a given day,

125a
a subset of the Panel may benefit from a given
manipulation, and the remainder may wait for their
winning day to come, being privy to the knowledge of
where the rates are heading. In such a conspiracy,
where Panel Members communicate with one another,
they can plan their trades around the anticipated
rates, buying when low, selling when high, and
circumventing the market risk confronting those not
privy to foreshadowed rates.
A trader-based
conspiracy does not preclude the possibility of interbank communication, and, to the contrary, while
traders may have been motivated by their own profits,
they could not accomplish their goals to the extent
desired without colluding with traders at other banks.
The scale and breadth of the alleged conspiracy
further supports the conclusion that it included interbank communications. The MAS implicated traders
across Panel Member banks, and the regulatory
settlements repeatedly refer to communications
among traders at different banks. The MAS, for
example, penalized each bank according to “the
numbers of traders within the bank who attempted to
inappropriately influence benchmarks, whether
traders from other banks were involved, and the
number of times these attempts occurred.” SAC, Ex.
E at 1. The CFTC, in the context of the manipulation
of the LIBOR benchmark, likewise found that “RBS
derivatives traders also colluded with traders at other
panel banks and coordinated with interdealers
brokers in attempts to manipulate” the benchmark.
See Ex. A at 4; see also Ex. C. at 2 (“UBS, through
certain derivatives traders, also colluded with traders
at other banks and coordinated with interdealer
brokers in its attempts to manipulate Yen LIBOR and

126a
Euroyen TIBOR.”). While the SAC does not allege
which Panel Members on which dates colluded, I
cannot at this stage of the litigation say that the SAC
does not sufficiently allege common motive by the
Panel Members as well as the existence of plus-factors
to state an antitrust conspiracy. I also cannot
distinguish between the SIBOR and SOR Panel
Members in terms of the sufficiency of the conspiracy
allegations against them. While the “Panel Members”
in fact comprise two sets of defendants, the SIBOR
Panel Members and the SOR Panel Members, the
MAS findings refer to attempts to manipulate the
submissions of both panels.
Finally, although I have found that the SAC
plausibly alleges an antitrust conspiracy against
Panel Members, the SAC does not sufficiently allege
how non-Panel Members were involved in that
conspiracy. There are no allegations that non-Panel
Members communicated with Panel Members, or that
non-Panel Members contributed to or participated in
the conspiracy in some other way.5 Instead, the
allegations against these defendants are only that
they traded SIBOR- and SOR-based derivatives in the
United States with parties other than plaintiffs. But
such trading, even if adequately alleged,6 is an

This is true of Deutsche Bank, RBS, and UBS as well. While
the government settlements with these defendants mention
generally that SIBOR and SOR manipulation requests were
made, they do not describe any details about which affiliates
made such requests, or when and how such requests were made.
5

Defendants raise various issues with the sufficiency of the
allegations that defendants traded SIBOR- and SOR-based
securities in the U.S., including that the SAC improperly engages
6

127a
innocent activity if not connected to the Panel
Members’ conspiracy. With respect to the FAC,
SIBOR I dismissed non-Panel Members since
“plaintiffs have not shown how [non-Panel]
defendants’ involvement in SIBOR-based derivatives
trading – as opposed to involvement in the SIBOR rate
submission process – was part of the conspiracy.”
SIBOR I, 2017 WL 3600425, at *11. The SAC, in this
regard, fares no better, and fails to connect with nonconclusory allegations the trading by non-Panel
Members to the manipulation of rates.
2.

Antitrust Standing

“To satisfy the antitrust standing requirement,
a private antitrust plaintiff must plausibly allege that
(i) it suffered an antitrust injury and (ii) it is an
acceptable plaintiff to pursue the alleged antitrust
violations.” In re Aluminum Warehousing Antitrust
Litig., 833 F.3d 151, 157 (2d Cir. 2016). That is, a
plaintiff suffering an antitrust injury “must also
demonstrate that it is a suitable plaintiff, i.e., an
‘efficient enforcer’ of the antitrust laws.” Id. at 157-58
(quoting Daniel v. Am. Bd. of Emergency Med, 428
F.3d 408, 438 (2d Cir. 2005)).
a.

Antitrust Injury

In SIBOR I, I held, following Gelboim v. Bank
of Am. Corp., 823 F.3d 759, 772 (2d Cir. 2016), that an
antitrust injury was sufficiently alleged with respect
to the FAC. The SAC is materially no different, and I

in group-pleading. Because I find that such U.S.-based trading
does not alone implicate non-Panel Members in the conspiracy I
do not address these other infirmities.

128a
hold that an antitrust injury has similarly been
properly alleged.
b.

Efficient Enforcer

“The efficient enforcer inquiry turns on: (1)
whether the violation was a direct or remote cause of
the injury; (2) whether there is an identifiable class of
other persons whose self-interest would normally lead
them to sue for the violation; (3) whether the injury
was speculative; and (4) whether there is a risk that
other plaintiffs would be entitled to recover
duplicative damages or that damages would be
difficult to apportion among possible victims of the
antitrust injury.
Built into the analysis is an
assessment of the ‘chain of causation’ between the
violation and the injury.” Gelboim, 823 F.3d at 772
(internal citations omitted).
i.

Plaintiff FrontPoint

FrontPoint alleges that it engaged in “U.S.based swap transactions that were priced, settled, and
benchmarked based on SIBOR during the Class
Period,” specifically “at least 24 swap transactions,
including based on one-month SGD SIBOR, between
January 2010 and May 2010 directly with Defendants
Deutsche Bank AG and Citibank, N.A.” ¶ 229. Such
allegations, as I held in SIBOR I, are sufficient to
make FrontPoint an efficient enforcer with respect to
its antitrust claims.
Defendants seek the Court’s clarification,
however, noting that there are three benchmark rates
at issue in this case—SGD SIBOR, USD SIBOR, and
SOR—and that FrontPoint transacted in derivatives
that incorporated only one of them, SGD SIBOR.

129a
Defendants argue, and ask the Court to clarify, that
FrontPoint is not an efficient enforcer with respect to
the two benchmark rates not incorporated into its
swap transactions, USD SIBOR and SOR.
I agree with Defendants. The SAC contains no
allegations describing an arithmetical relationship
among USD SIBOR, SGD SIBOR, and SOR. In fact,
to the contrary, the SAC indicates that USD SIBOR
and SGD SIBOR represent interest rates for two
distinct currencies, and that SGD SIBOR and SOR are
calculated by different methods. To be an efficient
enforcer with respect to rates not incorporated in the
swap transactions it traded in, FrontPoint must allege
a relationship between these rates, showing how a
conspiracy to manipulate one of these rates affects the
others. The SAC has not done so, and I therefore find
that FrontPoint has no standing to bring its antitrust
claims against the (two) SOR-only Panel Members, or
against the SIBOR Panel Members with respect to
SOR or USD SIBOR.
c.

Plaintiff Sonterra

Plaintiff Sonterra alleges that it transacted “in
USD/SGD foreign exchange forward transactions
between September 2010 and August 2011,” see ¶ 230,
and that such derivatives incorporate USD SIBOR
and SOR rates into their pricing. See ¶¶ 180-193.
Sonterra, however, did not enter into transactions
directly with any of the defendants. It alleges only
that it bought and sold derivatives to and from third
parties, and that such derivatives incorporated
benchmark rates manipulated by defendants. That
Sonterra did not trade directly with any defendants is

130a
sufficient reason to dismiss Sonterra’s antitrust
claims.7
The issue regarding Sonterra is whether
“umbrella standing,” or standing for a consumer who
deals with non-defendants and alleges injury by virtue
of the defendants’ conspiracy, see Gelboim, 823 F.3d at,
778, is sufficient to confer antitrust conspiracy. Many
district courts in this circuit have considered this issue
in similar contexts, and held that a plaintiff who
trades with non-defendants derivatives incorporating
an allegedly manipulated rate is not an efficient
enforcer. See e.g., In re Platinum, 2017 WL 1169626,
at *22 (“Examining the remaining efficient enforcers
factors lends additional support to the Court’s
ultimate conclusion that, as in LIBOR VI, it is
appropriate to draw a line between persons who
transacted directly with Defendants and those who did
not.”); Sullivan, 2017 WL 685570, at *15 (same). I
agree, and hold that Sonterra’s transactions with
third-parties are insufficient to give it antitrust
standing to sue the defendant Panel Members.
Sonterra’s trading decision is an “independent
decision” breaking “the chain of causation between
defendants’ actions and a plaintiff’s injury.” LIBOR
VI, 2016 WL 7378980, at *16.
Furthermore,
“[c]onferring antitrust standing on those plaintiffs
SIBOR I dismissed Sonterra’s antitrust claims since it failed
adequately to allege that foreign exchange forwards incorporate
USD SIBOR and SOR. The SAC attempts to cure this deficiency,
and district courts have found similar allegations sufficient. See
e.g., Sullivan, 2017 WL 685570, at *9. Whether Sonterra has
sufficiently cured this deficiency is a moot question, since I hold
that Sonterra lacks antitrust standing because it is not an
efficient enforcer.
7

131a
who did not transact directly with defendants would
open the door to highly speculative and difficult to
calculate damages that would far exceed the wrongful
profit made or harm caused by defendants.” Sonterra,
277 F. Supp. 3d at 559. The antitrust claims by
Sonterra are therefore dismissed.
II.

Personal Jurisdiction

Of the 46 defendants, 29 are “Foreign
Defendants” not subject to general jurisdiction in the
U.S., including most of the Panel Members.8 These
defendants move to dismiss for lack of personal

The Foreign Defendants are: Australia and New Zealand
Banking Group, Ltd.; Barclays plc; Barclays Bank plc; BNP
Paribas, S.A.; Credit Agricole Corporate and Investment Bank;
Credit Agricole S.A.; Credit Suisse Group AG; Credit Suisse AG;
Credit Suisse International; Commerzbank AG; DBS Bank Ltd.;
DBS Group Holdings Ltd; Deutsche Bank AG; HSBC Holdings
plc; ING Groep N.V.; ING Bank N.V.; Macquarie Bank Ltd.;
Macquarie Group Ltd.; The Royal Bank of Scotland plc; The Royal
Bank of Scotland Group plc; RBS Securities Japan Limited;
Standard Chartered Bank; Standard Chartered PLC; The Bank
of Tokyo-Mitsubishi UFJ, Ltd.; The Hong Kong and Shanghai
Banking Corporation Limited; The Oversea-Chinese Banking
Corporation Ltd.; UBS AG, UBS Securities Japan Co. Ltd.; and
United Overseas Bank Limited.
8

The following summarizes the completion of the 46 defendants,
divided along two axes:

Foreign Defendants
Non-Foreign
Defendants

Panel
Member
(SIBOR +
SOR)
16
3

Non-Panel
Member

13
14

132a
jurisdiction. I deny the motion with respect to the
Foreign Defendants who are also Panel Members, and
grant it as to the remaining Foreign Defendants.
a.

Applicable Law

“In order to survive a motion to dismiss for lack
of personal jurisdiction, a plaintiff must make a prima
facie showing that jurisdiction exists.” Thomas v.
Ashcroft, 470 F.3d 491, 495 (2d Cir.2006). This prima
facie showing “must include an averment of facts that,
if credited by the ultimate trier of fact, would suffice to
establish jurisdiction over the defendant.” Chloé v.
Queen Bee of Beverly Hills, LLC, 616 F.3d 158,163 (2d
Cir.2010) (brackets omitted). Federal courts must
satisfy three requirements in order to exercise
personal jurisdiction over an entity: (1) the entity
must have been properly served, (2) the court must
have a statutory basis for exercising personal
jurisdiction, and (3) the exercise of personal
jurisdiction must comport with constitutional due
process. See Licci ex rel. Licci v. Lebanese Canadian
Bank, SAL, 673 F.3d 50, 59-60 (2d Cir. 2012); Fed. R.
Civ. P. 4(k).
The Clayton Act provides for nationwide service
of process of a corporation for any action under the
antitrust laws. See 15 U.S.C. § 22. Where a civil
action arises under a federal law that provides for
nationwide service of process, the relevant geographic
area for assessing minimum contacts is the United
States as a whole, not just New York. See In re
Magnetic Audiotape Antitrust Litig., 334 F.3d 204, 207
(2d Cir. 2003) (assuming that Section 12 of the Clayton
Act permits a minimum contacts analysis that “looks
to a corporation’s contacts with the United States as a

133a
whole to determine if the federal court’s exercise of
personal jurisdiction comports with due process.”);
Gucci Am., Inc. v. Weixing Li, 768 F.3d 122, 142 n.21
(2d Cir. 2014); In re Platinum & Palladium Antitrust
Litig., No. 1:14-CV-9391-GHW, 2017 WL 1169626, at
*40 (S.D.N.Y. Mar. 28, 2017) (collecting cases).
Moreover, under Fed. R. Civ. P. 4(k)(2), “[f]or a
claim that arises under federal law, serving a
summons or filing a waiver of service establishes
personal jurisdiction over a defendant if: (A) the
defendant is not subject to jurisdiction in any state’s
courts of general jurisdiction; and (B) exercising
jurisdiction is consistent with the United States
Constitution and laws.” “Rule 4(k)(2) now allows the
exercise of personal jurisdiction by a federal district
court when three requirements are met: (1) the claim
must arise under federal law; (2) the defendant must
not be ‘subject to jurisdiction in any state’s courts of
general jurisdiction’; and (3) the exercise of
jurisdiction must be ‘consistent with the United States
Constitution and laws.’” Porina v. Marward Shipping
Co., 521 F.3d 122,127 (2d Cir. 2008) (quoting Rule
4(k)(2)).
The constitutional analysis under the Due
Process Clause consists of two components, minimum
contacts and reasonableness. First, courts “evaluate
the quality and nature of the defendant’s contacts with
the forum state under a totality of the circumstances
test. Where the claim arises out of, or relates to, the
defendant’s contacts with the forum—i.e., specific
jurisdiction is asserted—minimum contacts necessary
to support such jurisdiction exist where the defendant
purposefully availed itself of the privilege of doing

134a
business in the forum and could foresee being haled
into court there.” Licci ex rel. Licci v. Lebanese
Canadian Bank, SAL, 732 F.3d 161, 170 (2d Cir. 2013)
(internal quotations marks and citation omitted).
Single acts of commercial activity, when forming the
basis of a plaintiff’s claims, can satisfy the
constitutional requirements of Due Process. See, e.g.,
Chloe v. Queen Bee of Beverly Hills, LLC, 616 F.3d 158,
171 (2d Cir. 2010) (“[B]y offering bags for sale to New
York consumers on the Queen Bee website and by
selling bags—including at least one counterfeit Chloé
bag—to New York consumers, Ubaldelli has
purposefully avail[ed] [him]self of the privilege of
conducting activities within the forum State, thus
invoking the benefits and protections of its laws.”)
(internal quotation marks omitted).
Second, “[o]nce it has been decided that a
defendant purposefully established minimum contacts
within the forum State, these contacts may be
considered in light of other factors to determine
whether the assertion of personal jurisdiction would
comport with fair play and substantial justice.” Id.
(internal quotation marks and citations omitted). The
Supreme Court has set forth five factors in considering
the reasonableness of the forum. “A court must
consider [1] the burden on the defendant, [2] the
interests of the forum State, and [3] the plaintiff’s
interest in obtaining relief. It must also weigh in its
determination [4] the interstate judicial system’s
interest in obtaining the most efficient resolution of
controversies; and [5] the shared interest of the
several States in furthering fundamental substantive
social policies.” Asahi Metal Indus. Co. v. Superior

135a
Court of California, Solano Cty., 480 U.S. 102, 113
(1987).
Finally, the forum contacts of a member of a
conspiracy may be imputed to co-conspirators where a
plaintiff alleges that “(1) a conspiracy existed; (2) the
defendant participated in the conspiracy; and (3) a coconspirator’s overt acts in furtherance of the
conspiracy had sufficient contacts with a state to
subject that co-conspirator to jurisdiction in that
state.” Charles Schwab Corp. v. Bank of Am. Corp.,
883 F.3d 68, 87 (2d Cir. 2018).
b.

There is Specific Jurisdiction
over Panel Members, Foreign
or Not

With respect to the FAC, in SIBOR I, I granted
the Foreign Defendants’ motion to dismiss for lack of
personal jurisdiction, holding that the Foreign
Defendants (a) had not “consented” to jurisdiction by
registering branches to do business in New York, and
(b) had not engaged in “suit-related conduct” in the
United States, see Walden v. Fiore, 134 S. Ct. 1115,
1121 (2014). Merely trading SIBOR- and SOR-based
derivatives in the United States, I held, could not be a
basis for jurisdiction since “Plaintiffs fail to allege
which defendants entered into which derivative
contracts, how these trades were collusive, or how they
related to the alleged fixing of the SIBOR and SOR
rates.” SIBOR I, 2017 WL 3600425, at *6. I held also
that conspiracy jurisdiction was unavailable since the
FAC had not alleged that any defendant committed
any act from within the United States in furtherance
of the conspiracy.

136a
With respect to the SAC, however, I find that
FrontPoint has adequately alleged “suit-related
conduct” in the United States, namely the trading of
SIBOR-based derivatives in the U.S. between
FrontPoint and certain Panel Members.9 “[T]he
jurisdictional relevance of an act depends on the goal
of the conspiracy,” LIBOR VI, 2016 WL 7378980, at *4,
and here, as discussed, the SAC alleges a trader-based
conspiracy where Panel Members conspired to
manipulate rates (in Singapore) with the purpose of
profiting from trading derivatives (in the United
States and elsewhere).
The SAC alleges that
FrontPoint engaged in “U.S.-based swap transactions”
directly with two Panel Members, defendants
Deutsche Bank AG and Citibank, N.A, see ¶ 229,
during the time in which the Panel Members
conspired to manipulate SIBOR. Such U.S. based
trading—between FrontPoint and a Panel Member—
is plausibly alleged to have been collusive and related
to the alleged fixing of the rates, and can therefore
support the exercise of personal jurisdiction. “Where
the goal of the manipulation is to profit wrongfully
from transacting in a product, the places where those
transactions occur (not just the places where the price
manipulation took place) are jurisdictionally
relevant.” Sonterra, 277 F. Supp. 3d at 592. But see
Sullivan v. Barclays PLC, No. 13-CV-2811 (PKC),
2017 WL 685570, at *44 (S.D.N.Y. Feb. 21, 2017)
(finding no personal jurisdiction where defendants
At this stage of the proceedings, and for the purposes of personal
jurisdiction, I consider only the allegations relevant to Plaintiffs’
individual, non-class claims. See Beach v. Citigroup Alternative
Investments LLC, No. 12 CIV. 7717 PKC, 2014 WL 904650, at *6
(S.D.N.Y. Mar. 7, 2014).
9

137a
traded with plaintiffs “since the presence of U.S.
victims alone does not make out jurisdiction, and
plaintiffs’
allegations
concerning
defendants’
misconduct does not allege a United States nexus to
UBS’s Euribor manipulation”).
FrontPoint’s contacts, furthermore, can form
the basis of specific jurisdiction not only for the two
defendants who traded with Plaintiff (i.e., Deutsche
Bank and Citibank) but also for all the Panel Member
defendants who participated in the conspiracy. The
Panel’s conspiracy was collectively to profit from the
manipulation of SIBOR, including allowing individual
members to trade and profit with unknowing victims.
Deutsche Bank’s and Citibank’s trading with
FrontPoint were acts in furtherance of the conspiracy,
and therefore can be the basis for jurisdiction over all
members of the conspiracy, whether or not they
themselves traded derivatives in the U.S. Cf. SAC ¶
70 n.24.
My holding that Plaintiffs’ U.S.-based
transactions are sufficient to confer jurisdiction over
all Panel Members is also not inconsistent with the
Second Circuit’s holding in Charles Schwab Corp. v.
Bank of Am. Corp., 883 F.3d 68 (2d Cir. 2018). In
Schwab, plaintiffs purchased billions of dollars in debt
securities in California, and alleged that they received
lower returns because defendants manipulated the
LIBOR rate by submitting artificially low rates in
London. The court noted, in holding that there was no
personal jurisdiction over defendants with respect to
plaintiffs fraud claims, that “sales in California do not
alone create personal jurisdiction for claims premised
solely on Defendants’ false LIBOR submissions in

138a
London.” Schwab, 883 F.3d at 83. The court reasoned
that the “California transactions did not cause
Defendants’ false LIBOR submissions . . . nor did the
transactions in some other way give rise to claims
seeking to hold Defendants liable for those
submissions.” Id. Rejecting plaintiffs’ argument that
that the conspiracy included the purpose “to earn a
profit,” the court noted that “nowhere in Schwab’s
complaint are there allegations that Defendants
undertook such [California] sales as part of the alleged
conspiracy.” Id. at 87; see also LIBOR VI, 2016 WL
7378980, at *9 (“[S]ales and trades of LIBOR-based
products to plaintiffs in the United States are not
within the scope of the reputation-motivated antitrust
conspiracy.”).
The deficiencies noted in Schwab, however, are
absent in the trader-based conspiracy alleged here.
Schwab and LIBOR VI regarded a reputation- or
suppression-based conspiracy where defendants’
purpose was, not to profit by trading derivatives, but
“to project an image of financial stability to investors”
by “understating their true borrowing costs.” Schwab,
883 F.3d. at 78. But where the complaint plausibly
alleges a profit-motive, as here, the U.S.-based trading
is properly alleged to have been a part of the
conspiracy and to be related to the overseas
manipulation. Such U.S.-based trading, when alleged
to be the object of the conspiracy, can support the
exercise of personal jurisdiction. See e.g., Sonterra,
277 F. Supp. 3d at, 592; In re Foreign Exch.
Benchmark Rates Antitrust Litig., No. 13 CIV. 7789
(LGS), 2016 WL 1268267, at *6 (S.D.N.Y. Mar. 31,
2016).

139a
Having found that the Panel Members
“purposefully availed [themselves] of the privilege of
doing business in the forum and could foresee being
haled into court there,” the second requirement, that
the assertion of personal jurisdiction would “comport
with fair play and substantial justice,” Licci, 732 F.3d
at 170, is readily met. The Panel Members are some
of the world’s largest financial institutions, and are
alleged to have substantial presence in the U.S. There
is little burden in requiring them to answer the
allegations that they entered into collusive
transactions in the U.S.
Finally, whereas there is jurisdiction over the
Foreign Defendants who are Panel Members, there is
no jurisdiction over the Foreign Defendants who are
not Panel Members.
There are no plausible
allegations that non-Panel Members, Foreign or not,
were involved in the conspiracy, see supra, and the
mere fact that non-Panel Members traded SIBOR- and
SOR-based derivatives in the United States cannot
alone support jurisdiction. Such U.S. based trading,
as discussed above, is an innocent activity if not
connected to the Panel Members’ conspiracy.
III.

Venue

Under Section 12 of the Clayton Act, antitrust
claims may be brought in the judicial district where a
corporation is an “inhabitant” or “may be found or
transacts business.” 15 U.S.C. § 22. The “Venue
Defendants”10 argue that they are neither inhabitants

The Venue Defendants are: RBS Group PLC, RBS PLC, RBS
Securities Japan Limited, UBS Japan, ING Groep, ING Bank,
Barclays PLC, Credit Agricole S.A., Credit Suisse Group AG,
10

140a
of the Southern District of New York, nor do they
transact business in the Southern District of New
York, and that venue therefore is not proper. If venue
is not proper under the Clayton Act, plaintiffs may not
take advantage of the Clayton Act’s nationwide service
of process. See Daniel v. Am. Bd. of Emergency Med.,
428 F.3d 408,423 (2d Cir. 2005) (holding that the
Clayton Act’s nationwide service of process applies
only where the Clayton Act’s venue provision, as
opposed to 28 U.S.C. § 1391, is satisfied). Of the 15
Venue Defendants only three are Panel Members.11
See Appendix A. The venue argument is moot as to
non-Panel Members.
While venue may be improper under the
Clayton Act, as the Venue Defendants’ argue, venue is
proper under 28 U.S.C. § 1391(c)(3), which provides
that “a defendant not resident in the United States
may be sued in any judicial district.” 28 U.S.C.
§ 1391(c)(3). The Venue Defendants are all Foreign
Defendants, and by defendants’ own admission not
subject to any state’s courts of general jurisdiction.
With respect to the Foreign Defendants, thus,
Plaintiffs may advantage of the nationwide service of
process of Fed. R. Civ. P. 4(k)(2), and the venue
provisions of § 1391, and need not rely on the Clayton
Act.

Credit Suisse International, Standard Chartered PLC, DBS
Holdings Ltd., The Hongkong and Shanghai Banking Corp.
Limited, HSBC Holdings plc, and Macquarie Group Ltd.
These are: The Hongkong and Shanghai Banking Co. Ltd., ING
Bank N.V., and The Royal Bank of Scotland PLC.
11

141a
IV.

RICO Claims

The SAC alleges two RICO claims, pursuant to
18 U.S.C. § 1962(c) (conducting a RICO enterprise),
and § 1962(d) (conspiracy to conduct an enterprise).
According to the SAC, defendants engaged in domestic
RICO predicate acts, specifically domestic wire fraud,
see 18 U.S.C. § 1343; SAC at ¶ 265, by, among other
things, directing Thomson Reuters to disseminate
SIBOR and SOR rates in the U.S., and trading in the
U.S. SIBOR- and SOR-based derivatives. Defendants
move to dismiss these claims for failing sufficiently to
allege domestic conduct to overcome the presumption
against extraterritorial application of the RICO
statute. See RJR Nabisco, Inc. v. European Cmty., 136
S. Ct. 2090, 2100 (2016) (“Absent clearly expressed
congressional intent to the contrary, federal laws will
be construed to have only domestic application.”).
SIBOR I dismissed the RICO claims on this basis, and
I grant the motion here as well.
Like other district courts that have considered
substantively similar allegations, I find that the RICO
claims are impermissibly extraterritorial as the
alleged conspiracy and manipulations occurred almost
entirely abroad. See, e.g., Laydon v. Mizuho Bank,
Ltd., No. 12 CIV. 3419 GBD, 2015 WL 1515487, at *8
(S.D.N.Y. Mar. 31, 2015) (discounting the fact that
Thomson Reuters disseminated rates in the U.S.);
Sullivan, 2017 WL 685570, at *33 (finding the RICO
claims impermissible extraterritorial even where
plaintiffs’ trading occurred in the U.S.). The SAC
plausibly alleges a trader-based conspiracy having the
goal of profiting in the U.S. and elsewhere. The
scheme however was not based in the U.S., and cannot

142a
support a RICO claim. See Sonterra, 277 F. Supp. 3d
at 582. (“That the alleged goal of the conspiracy was
to increase worldwide profits, including profits
generated in the United States, cannot render
‘domestic’ a scheme that was otherwise centered
abroad.”).12 The RICO claims (Count II and III) are
dismissed.13
V.

Breach of Implied Covenant of Good Faith
and Fair Dealing

SIBOR I dismissed Plaintiff FrontPoint’s
contract claim with leave to amend for failure to plead
with sufficient specificity the dates, counterparties,
and terms and conditions of the transactions it
engaged in. The SAC has cured these deficiencies.
The SAC alleges that:


Deutsche Bank and Citibank entered into an
International Swaps and Derivatives
Association (“ISDA”) Master Agreement, on
January 20, 2010 and August 25, 2009
respectively.

There is no issue with the extraterritorial application of the
antitrust claims, as discussed in SIBOR I. See Foreign Trade
Antitrust Improvements Act, 15 U.S.C. § 6a; Sonterra, 277 F.
Supp. 3d at 568 (rejecting extraterritorial objection with respect
to the antitrust claims).
12

Since I dismiss the RICO claims on extraterritorial grounds, I
do not discuss other potential infirmities with the RICO claims,
for example whether the wire fraud allegations satisfy the
heightened pleading requirements of Fed. R. Civ. P. 9(b). See
Sullivan, 2017 WL 685570, at *35 (finding the requisite
particularity lacking).
13

143a


The ISDA Master Agreement provides that
“[e]ach party will make each payment or
delivery specified in each Confirmation.”
¶ 48.



FrontPoint entered into 22 swaps with
Deutsche Bank between February 11, 2010
and May 27, 2010, and these swaps were
incorporated into the 2010 ISDA Master
Agreement
between
FrontPoint
and
Detusche Bank. ¶¶ 53–55.



“[A]fter executing its ISDA Master
Agreement with Citibank, N.A. on August
25, 2009, FrontPoint subsequently entered
into swap transactions directly with
Citibank, N.S.” ¶ 60.



“FrontPoint entered into at least 24 swap
transactions, including based on one-month
SGD SIBOR, between January 2010 and
May 2010 directly with Defendants
Deutsche Bank AG and Citibank, N.A.”
¶ 229.

The breach of the implied covenant of good faith
claim has been plausibly alleged by Plaintiff
FrontPoint.14
The SAC alleges that FrontPoint
entered into an ISDA Master Agreement with
Deutsche Bank and Citibank, and that, pursuant to
these contracts, FrontPoint engaged in 24 swaps
incorporating SGD SIBOR between the four-month
period, January 2010 to May 2010. Such contracts,

There are no allegations that Plaintiff Sonterra entered into
contracts with any defendant.
14

144a
requiring that “[e]ach party will make each payment
or delivery specified in each Confirmation,” contain an
implied covenant that the rates upon which the trades
are premised are non-manipulated rates, or rates that
are accurate reflections of market conditions. By
alleging that Deutsche Bank and Citibank
manipulated SGD SIBOR while engaging in 24 swap
transactions, the SAC has sufficiently alleged that
these defendants did not in good faith fulfill their
obligations under the ISDA Master Agreements. See
ISDAFix, 175 F. Supp. 3d at 63 (finding plausible
claims for breach of the implied covenant of ISDA
Master Agreements where defendants were alleged to
have manipulated rates incorporated into the
transactions).
VI.

Capacity to Sue

Defendants argue that neither FrontPoint nor
Sonterra have the capacity to sue since they are
dissolved entities who were not in existence when this
action was filed. FrontPoint was a fund formed on
August 5, 2009 under Cayman Islands law and was
voluntarily dissolved on November 11, 2011; Sonterra
was a fund formed on May 22, 2008 under Cayman
Islands law and was voluntarily dissolved on
December 28, 2012.
Plaintiffs respond that FrontPoint and Sonterra
assigned their interests and right to sue to an entity,
Fund Liquidation Holdings (“FLH”), who is willing
and able to prosecute this suit. Sonterra argues that
it entered into an Asset Purchase Agreement (“APA”)
with FLH on August 3, 2012, and FrontPoint argues
that it did so with FLH on July 13, 2011. The
documents appear to show a full assignment of rights

145a
to FLH, which therefore has the capacity to sue here.
Plaintiffs seek leave to substitute FLH as the plaintiff
in a third amended complalint. See Fed. R. Civ. P.
17(a)(3). I grant the request.
CONCLUSION
For the reasons state above, defendants’
motions are granted in part and denied in part, as
follows:
I.

Antitrust Claims
a.

The antitrust claim (Count I) is
dismissed without leave to amend as
against the defendants who were not
SIBOR Panel Members (ANZ Securities
Inc., Bank of America Corporation,
Barclays Bank PLC, Barclays Capital
Inc., Barclays PLC, BNP Barnibas North
America Inc., BNP Barnibas Prime
Brokerage Inc., BNP Barnibas Securities
Corporation,
Citigroup
Inc.,
Commerzbank AG, Credit Agricole A.S.,
Credit Suisse Group AG, Credit Suisse
International, DBS Group Holdings LTD,
DBS Vickers Securities (USA) Inc.,
HSBC Bank USA N.A., HSBC Holdings
PLC, HSBC North America Holdings
Inc., HSBC USA Inc., ING Capital
Markets LLC, ING Groep N.V., JP
Morgan Chase & Co., Macquarie Bank
LTD, Macquarie LTD, RBS Securities
Japan Limited, The Royal Bank of
Scotland
Group
PLC,
Standard
Chartered PLC, UBS Securities Japan
Co. LTD, and UOB Global Capital LLC).

146a

II.

b.

The antitrust claims remain as against
the SIBOR Panel Members (Australia
and New Zealand Banking Group, Bank
of America N.A., The Bank of TokyoMitsubishi UFJ Ltd., BNP Paribas,
Citibank N.A., Credit Suisse AG, DBS
Bank Ltd, Deutsche Bank AG, The
Hongkong and Shanghai Banking
Corporation Ltd., ING Bank N.V.,
JPMorgan Chase Bank N.A., OverseaChinese Banking Corporation Ltd, The
Royal Bank of Scotland PLC, Standard
Chartered Bank, UBS AG, United
Overseas Bank Ltd., and Credit Agricole
CIB).

c.

The antitrust claims, as alleged by
Plaintiff Sonterra, are dismissed without
leave to amend. Since no claims for relief
remain as to Sonterra, Sonterra’s
complaint is dismissed entirely. See Dkt.
No. Dkt. No. 30.

Personal Jurisdiction
a.

The Foreign Defendants who did not
serve on the SIBOR Panel are dismissed
without leave to amend for lack of
personal jurisdiction (Barclays Bank
PLC, Barclays PLC, Commerzbank AG,
Credit Agricole S.A., Credit Suisse Group
AG, Credit Suisse International, DBS
Group Holdings LTD, HSBC Holdings
PLC, ING Groep N.V., Macquarie Bank
LTD., Macquarie LTD, RBS Securities
Japan Limited, The Royal Bank of

147a
Scotland
Group
PLC,
Standard
Chartered PLC, and UBS Securities
Japan Co. LTD).
III.

RICO Claims
a.

IV.

Breach of Implied Covenant of Good Faith
and Fair Dealing
a.

V.

Count II (RICO) and Count III (RICO
conspiracy) are dismissed without leave
to amend.

The motion to dismiss Count IV (breach
of the covenant of good faith and fair
dealing) for failure to state a claim is
denied.

Real Party in Interest
a.

Plaintiffs are granted leave to amend to
substitute the real party in interest and
allege the assignments of interest.

The clerk shall terminate the motion (Dkt. No.
238). Plaintiffs shall file a third amended complaint
to amend the caption, and reflect the rulings in this
opinion, by October 25, 2018. Defendants remaining
in this case shall file their answers or otherwise
respond by November 15, 2018. The parties shall
appear for a status conference on November 28, 2018,
at 2:30 P.M.
SO ORDERED.
Dated: October 4, 2018
New York, New
York

s/Alvin K. Hellerstein
ALVIN K.
HELLERSTEIN

148a
United States District
Judge

149a
Appendix A: Summary of Defendants15

1

Banking
Groups

46 Corporate
Defendants

Australia and
New
Zealand
Banking
Group

ANZ Securities, Inc.
Australia and New
Zealand Banking Group
LTD (SIBOR) (FD)

Bank of
America

Bank of America
Corporation
Bank of America N.A.
(SIBOR/SOR)

Barclays

Barclays Bank PLC (SOR)
(FD)
Barclays Capital Inc.
Barclays PLC (FD) (V)

BNP Paribas

BNP Barnibas North
America Inc.
BNP Barnibas Prime
Brokerage Inc.
BNP Barnibas Securities
Corporation
BNP Barnibas S.A.
(SIBOR) (FD)

2

3

4

Key: “SIBOR”= SIBOR Panel Member; “SOR” = SOR Panel
Member; “FD” = Foreign Defendant; “V” = Venue Defendant.
15

150a
5

6

Citibank

Citibank, N.A.
(SIBOR/SOR)
Citigroup Inc.

Commerzbank

Commerzbank AG (SOR)
(FD)

Credit
Agricole

Credit Agricole Corporate
and Investment Bank
(SIBOR/SOR) (FD)
Credit Agricole S.A. (FD)
(V)

Credit Suisse

Credit Suisse AG
(SIBOR/SOR) (FD)
Credit Suisse Group AG
(FD) (V)
Credit Suisse
International (FD) (V)

DBS

DBS Bank LTD.
(SIBOR/SOR) (FD)
DBS Group Holdings LTD.
(FD) (V)
DBS Vickers Securities
(USA) Inc.

Deutsche
Bank

Deutsche Bank AG
(SIBOR/SOR) (FD)

HSBC

HSBC Bank USA N.A.
HSBC Holdings PLC (FD)
(V)
HSBC North America

7

8

9

10

11

151a
Holdings Inc.
HSBC USA Inc.
The Hongkong and
Shanghai Banking Co.
Ltd. (SIBOR/SOR) (FD)
(V)
12

13

ING Bank

ING Bank N.V. (SIBOR)
(FD) (V)
ING Capital Markets LLC
ING Groep N.V. (FD) (V)

JPMorgan
Chase

JP Morgan Chase & Co.
JPMorgan Chase Bank
N.A. (SIBOR/SOR)

Macquarie

Macquarie Bank LTD.
(FD)
Macquarie Group LTD.
(FD) (V)

OverseaChinese
Banking
Corporation

Oversea-Chinese Banking
Corporation LTD.
(SIBOR) (FD)

The Royal
Bank of
Scotland

RBS Securities Japan
Limited (FD) (V)
The Royal Bank of
Scotland Group PLC (FD)
(V)
The Royal Bank of
Scotland PLC
(SIBOR/SOR) (FD) (V)

14

15

16

152a
17

18

Standard
Chartered
Bank

Standard Chartered Bank
(SIBOR/SOR) (FD)
Standard Chartered PLC
(FD) (V)

The Bank of
TokyoMitsubishi
UFJ

The Bank of Tokyo
Mitsubishi UFJ LTD.
(SIBOR/SOR) (FD)

UBS

UBS AG (SIBOR/SOR)
(FD)
UBS Securities Japan Co.
LTD. (FD) (V)

United
Overseas
Bank

United Overseas Bank
Limited (SIBOR/SOR)
(FD)
UOB Global Capital LLC

19

20

153a
UNITED STATES COURT OF APPEALS
FOR THE
SECOND CIRCUIT
At a stated term of the United States Court
of Appeals for the Second Circuit, held at the
Thurgood Marshall United States Courthouse, 40
Foley Square, in the City of New York, on the 6th
day of May, two thousand twenty-one.
Fund Liquidation Holdings
LLC, et al.,
Plaintiffs Appellants,
FrontPoint Asian Event
Driven Fund, Ltd., et al.,
Plaintiffs,

ORDER
Docket No: 192719

v.
Bank of America
Corporation, et al.,
Defendants Appellees,
Citibank, N.A., Citigroup
Inc., et al.,
Defendants.
Appellees, Credit Suisse Group AG, Credit
Suisse AG, and Credit Suisse International, filed a
petition for panel rehearing, or, in the alternative, for
rehearing en banc. The panel that determined the
appeal has considered the request for panel rehearing,

154a
and the active members of the Court have considered
the request for rehearing en banc.
IT IS HEREBY ORDERED that the petition is
denied.
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk
s/Catherine O’Hagan Wolfe

